<html>
<title> - HEARING TO REVIEW THE NATIONAL ANIMAL IDENTIFICATION SYSTEM</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
      HEARING TO REVIEW THE NATIONAL ANIMAL IDENTIFICATION SYSTEM 

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                     LIVESTOCK, DAIRY, AND POULTRY

                                 OF THE

                        COMMITTEE ON AGRICULTURE

                                AND THE

                            SUBCOMMITTEE ON
      EMERGING THREATS, CYBERSECURITY, AND SCIENCE AND TECHNOLOGY

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 5, 2009

                               __________

                           Serial No. 111-12

                       (Committee on Agriculture)


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

52-882 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 




















                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

TIM HOLDEN, Pennsylvania,            FRANK D. LUCAS, Oklahoma, Ranking 
    Vice Chairman                    Minority Member
MIKE McINTYRE, North Carolina        BOB GOODLATTE, Virginia
LEONARD L. BOSWELL, Iowa             JERRY MORAN, Kansas
JOE BACA, California                 TIMOTHY V. JOHNSON, Illinois
DENNIS A. CARDOZA, California        SAM GRAVES, Missouri
DAVID SCOTT, Georgia                 MIKE ROGERS, Alabama
JIM MARSHALL, Georgia                STEVE KING, Iowa
STEPHANIE HERSETH SANDLIN, South     RANDY NEUGEBAUER, Texas
Dakota                               K. MICHAEL CONAWAY, Texas
HENRY CUELLAR, Texas                 JEFF FORTENBERRY, Nebraska
JIM COSTA, California                JEAN SCHMIDT, Ohio
BRAD ELLSWORTH, Indiana              ADRIAN SMITH, Nebraska
TIMOTHY J. WALZ, Minnesota           ROBERT E. LATTA, Ohio
STEVE KAGEN, Wisconsin               DAVID P. ROE, Tennessee
KURT SCHRADER, Oregon                BLAINE LUETKEMEYER, Missouri
DEBORAH L. HALVORSON, Illinois       GLENN THOMPSON, Pennsylvania
KATHLEEN A. DAHLKEMPER,              BILL CASSIDY, Louisiana
Pennsylvania                         CYNTHIA M. LUMMIS, Wyoming
ERIC J.J. MASSA, New York
BOBBY BRIGHT, Alabama
BETSY MARKEY, Colorado
FRANK KRATOVIL, Jr., Maryland
MARK H. SCHAUER, Michigan
LARRY KISSELL, North Carolina
JOHN A. BOCCIERI, Ohio
SCOTT MURPHY, New York
EARL POMEROY, North Dakota
TRAVIS W. CHILDERS, Mississippi
WALT MINNICK, Idaho

                                 ______

                           Professional Staff

                    Robert L. Larew, Chief of Staff

                     Andrew W. Baker, Chief Counsel

                 April Slayton, Communications Director

                 Nicole Scott, Minority Staff Director

                                 ______

             Subcommittee on Livestock, Dairy, and Poultry

                     DAVID SCOTT, Georgia, Chairman

JIM COSTA, California                RANDY NEUGEBAUER, Texas,  Ranking 
STEVE KAGEN, Wisconsin               Minority Member
FRANK KRATOVIL, Jr., Maryland        BOB GOODLATTE, Virginia
TIM HOLDEN, Pennsylvania             MIKE ROGERS, Alabama
LEONARD L. BOSWELL, Iowa             STEVE KING, Iowa
JOE BACA, California                 K. MICHAEL CONAWAY, Texas
DENNIS A. CARDOZA, California        ADRIAN SMITH, Nebraska
BETSY MARKEY, Colorado               DAVID P. ROE, Tennessee
SCOTT MURPHY, New York
WALT MINNICK, Idaho

              Chandler Goule, Subcommittee Staff Director

                                  (ii)


                     COMMITTEE ON HOMELAND SECURITY

                    BENNIE G. THOMPSON, Mississippi

LORETTA SANCHEZ, California          PETER T. KING, NEW YORK,  Ranking 
    Vice Chair                       Minority Member
JANE HARMAN, California              LAMAR S. SMITH, Texas
PETER A. DeFAZIO, Oregon             MARK E. SOUDER, Indiana
ELEANOR HOLMES NORTON, District of   DANIEL E. LUNGREN, California
Columbia                             MIKE ROGERS, Alabama
ZOE LOFGREN, California              MICHAEL T. McCAUL, Texas
SHEILA JACKSON-LEE, Texas            CHARLES W. DENT, Pennsylvania
HENRY CUELLAR, Texas                 GUS M. BILIRAKIS, Florida
CHRISTOPHER P. CARNEY, Pennsylvania  PAUL C. BROUN, Georgia
YVETTE D. CLARKE, New York           CANDICE S. MILLER, Michigan
LAURA RICHARDSON, California         PETE OLSON, Texas
ANN KIRKPATRICK, Arizona             ANH ``JOSEPH'' CAO, Louisiana
BEN RAY LUJAN, New Mexico            STEVE AUSTRIA, Ohio
BILL PASCRELL, Jr., New Jersey
EMANUEL CLEAVER, Missouri
AL GREEN, Texas
JAMES A. HIMES, Connecticut
MARY JO KILROY, Ohio
ERIC J.J. MASSA, New York
DINA TITUS, Nevada
------

                                 ______

   Subcommittee on Emerging Threats, Cybersecurity, and Science and 
                               Technology

                 YVETTE D. CLARKE, New York, Chairwoman

LORETTA SANCHEZ, California          DANIEL E. LUNGREN, California,  
LAURA RICHARDSON, California         Ranking Minority Member
BEN RAY LUJAN, New Mexico            PAUL C. BROUN, Georgia
MARY JO KILROY, Ohio                 STEVE AUSTRIA, Ohio

                                 (iii)
















                             C O N T E N T S

                              ----------                              
                                                                   Page
Clarke, Hon. Yvette D., a Representative in Congress from New 
  York, opening statement........................................     5
    Prepared statement...........................................     6
Lungren, Hon. Daniel E., a Representative in Congress from 
  California, opening statement..................................     7
Neugebauer, Hon. Randy, a Representative in Congress from Texas, 
  opening statement..............................................     4
    Submitted material...........................................    77
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, opening statement...................................    10
    Prepared statement...........................................    11
Scott, Hon. David, a Representative in Congress from Georgia, 
  opening statement..............................................     1
    Prepared statement...........................................     3
    Submitted material...........................................    75
Thompson, Hon. Bennie G., a Representative in Congress from 
  Mississippi, opening statement.................................     8
    Prepared statement...........................................     9

                               Witnesses

Clifford, D.V.M., John R., Deputy Administrator for Veterinary 
  Services and Chief Veterinarian, Animal and Plant Health 
  Inspection Service, U.S. Department of Agriculture, Washington, 
  D.C............................................................    12
    Prepared statement...........................................    14
McGinn, D.V.M., Thomas, Chief Veterinarian, Office of Health 
  Affairs, U.S. Department of Homeland Security, Washington, D.C.    19
    Prepared statement...........................................    23
Smith, D.V.M., David C., Assistant Director, Division of Animal 
  Industry, New York State Department of Agriculture and Markets, 
  Albany, NY.....................................................    54
    Prepared statement...........................................    55
Gillespie, D.V.M., Ph.D., Jerry R., Former Director, Western 
  Institute for Food Safety and Security, University of 
  California, Davis, Hopland, CA.................................    57
    Prepared statement...........................................    59
Kirk, Kevin M., Special Assistant to the Division Director, 
  Animal Industry Division, Michigan Department of Agriculture, 
  Lansing, MI....................................................    61
    Prepared statement...........................................    63

                           Submitted Material

Carter, Brandy Executive Director, Kansas Cattlemen's 
  Association, submitted statement...............................    81
Eckerly, Susan, Senior Vice President, Public Policy, National 
  Federation of Independent Business, submitted statement........    83
Submitted questions..............................................    84


      HEARING TO REVIEW THE NATIONAL ANIMAL IDENTIFICATION SYSTEM

                              ----------                              


                          TUESDAY, MAY 5, 2009

                  House of Representatives,
     Subcommittee on Livestock, Dairy, and Poultry,
                                  Committee on Agriculture,
                                                 joint with
  Subcommittee on Emerging Threats, Cybersecurity, 
                        and Science and Technology,
                             Committee on Homeland Security
                                                   Washington, D.C.
    The Subcommittees met, pursuant to call, at 2:10 p.m., in 
Room 1300, Longworth House Office Building, Hon. David Scott 
[Chairman of the Subcommittee on Livestock, Dairy, and Poultry] 
presiding.
    Members present from the Subcommittee on Livestock, Dairy, 
and Poultry: Representatives Scott, Costa, Kagen, Holden, 
Boswell, Baca, Markey, Minnick, Peterson (ex officio), 
Neugebauer, Goodlatte, Rogers, Conaway, Smith, and Roe.
    Members present from the Subcommittee on Emerging Threats, 
Cybersecurity, and Science and Technology: Representatives 
Clarke, Richardson, Lujan, Thompson (ex officio), Lungren, and 
Broun.
    Staff present from the Subcommittee on Livestock, Dairy, 
and Poultry: Claiborn Crain, Alejandra Gonzalez-Arias, Chandler 
Goule, Scott Kuschmider, April Slayton, Patricia Barr, John 
Goldberg, Tamara Hinton, Pete Thomson, and Jamie Mitchell.

  OPENING STATEMENT OF HON. DAVID SCOTT, A REPRESENTATIVE IN 
                     CONGRESS FROM GEORGIA

    The Chairman. Good afternoon. This joint hearing of the 
Subcommittee on Livestock, Dairy, Poultry and the Committee on 
Homeland Security Subcommittee on Emerging Threats, 
Cybersecurity, Science and Technology to review the National 
Animal Identification System will come to order.
    I would like to welcome you once again to the Committee on 
Agriculture Subcommittee on Livestock, Dairy, and Poultry. We 
have the pleasure of being joined today by the Committee on 
Homeland Security Subcommittee on Emerging Threats, 
Cybersecurity, and Science and Technology. So I welcome 
Chairwoman Clarke from the great City of New York and the 
Members of her Subcommittee, as well.
    We are here today to continue our examination of the 
National Animal Identification System, known as NAIS. This 
hearing comes on the heels of the recently released benefit-
cost analysis conducted by Kansas State University and others 
at the behest of the Animal and Plant Health Inspection 
Service. So I am certain that this report will be a large part 
of the discussion today.
    However, as I mentioned earlier, we also have with us 
Members of the Committee on the Homeland Security and a witness 
from the Department of Homeland Security.
    So I am greatly interested in hearing their perspectives on 
the issue of animal ID, as well.
    I was struck on the way into Washington this week, as I was 
driving to the airport in Atlanta, that in order for me to 
operate a motor vehicle lawfully in the State of Georgia, I am 
required by the government to purchase liability insurance, 
which, of course, necessitates me paying an insurance premium.
    I think this is the case in most states. And I certainly do 
not plan to be in an automobile accident any time soon, knock 
on wood, I do everything in my power to avoid them. I drive the 
speed limit, I use my turn signals, and I always check my 
mirrors when I am changing lanes.
    And assuming I have safe driving habits, and the people 
around me act responsibly and are not in an accident, I will 
never realize the benefits of that insurance. In terms of 
paying for my health costs, replacing my vehicle, or the income 
support provided by my coverage, I will never recoup the up-
front, out-of-pocket expenses I have to pay in order to obtain 
this insurance.
    Yet, I have decided that I want to drive, and so I paid for 
the government's mandated insurance, knowing that I may never 
need it, but also knowing that, if I do need it, I will be 
protected.
    That, in my opinion, is the essence of a National Animal 
Identification System. It is a producer's insurance against the 
potentially devastating economic impacts of a widespread animal 
disease epidemic. In the event of an outbreak, other countries 
will certainly close their borders to United States animals.
    Just as there are up-front losses when you are in a car 
wreck--i.e., the loss of your vehicle and perhaps missed work, 
et cetera--a robust animal ID system with full traceability 
provides protection by helping to preserve some of that market 
access. It will allow us to more quickly insulate and isolate 
problem animals and stop the spread of illness.
    This, in turn, will allow us to demonstrate to other 
nations that the United States' herd is safe and reopen those 
markets to U.S. goods. However, unlike car insurance, NAIS is 
far from being simply a response mechanism. NAIS has the 
potential to offer prospective benefits, as well.
    We have already seen corporations use an animal ID system 
to demonstrate the safety of its products to the public and aid 
in its marketing. And we are seeing retailers require its 
suppliers be able to trace the animals it purchases from them, 
ostensibly to maintain integrity of its merchandise and protect 
its reputation. Activities such as this have the up-front 
potential to offset the costs of compliance for the producer.
    Last, I would like to echo Chairman Peterson's sentiments 
from the last hearing on this issue in saying that it will be 
difficult, if not impossible, to convince Congress to provide 
economic support for producers should we have an animal disease 
outbreak if they are not participating in NAIS.
    In other words, producers should not assume that the 
Federal Government will be there as an insurance policy if they 
continue to be unwilling to pay their premium.
    [The prepared statement of Mr. Scott follows:]

 Prepared Statement of Hon. David Scott, a Representative in Congress 
                              from Georgia
    Welcome once again to the Committee on Agriculture, Subcommittee on 
Livestock, Dairy, and Poultry. We have the pleasure of being joined 
today by the Committee on Homeland Security, Subcommittee on Emerging 
Threats, Cybersecurity, and Science and Technology. So I welcome 
Chairwoman Clarke and the Members of her Subcommittee as well.
    We are here today to continue our examination of the National 
Animal Identification System (NAIS). This hearing comes on the heels of 
the recently released benefit-cost analysis conducted by Kansas State 
University and others at the behest of the Animal and Plant Health 
Inspection Service (APHIS). So I am certain that this report will be a 
large part of the discussion today. However, as I mentioned earlier, we 
also have with us Members of the Committee on Homeland Security and a 
witness from the Department of Homeland Security. So I am greatly 
interested in hearing their perspectives on the issue of animal ID as 
well.
    I was struck on the way into Washington this week, as I was driving 
to the airport in Atlanta, that in order for me to operate a motor 
vehicle lawfully in the State of Georgia I am required by the 
government to purchase liability insurance which of course necessitates 
me paying an insurance premium. I think this is the case in most 
states. I certainly do not plan to be in an automobile accident any 
time soon, knock on wood; and indeed I do everything in my power to 
avoid them . . . I drive the speed limit, I use my turn signals and I 
always check my mirrors when I'm changing lanes. And assuming I have 
safe driving habits and the people around me act responsibly and I am 
not in an accident, I will never realize the benefits of that insurance 
in terms of paying for my health care costs or replacing my vehicle, or 
the income support provided by my coverage. Moreover I will never 
recoup the up-front out-of-pocket expense I have to pay in order to 
obtain this insurance. Yet, I have decided that I want to drive and so 
I pay for the government mandated insurance; knowing that I may never 
need it, but also knowing that if I do need it I will be protected.
    THAT, in my opinion, is the essence of the National Animal 
Identification System. It is a producer's insurance against the 
potentially devastating economic impacts of a widespread animal disease 
epidemic. In the event of an outbreak, other countries will certainly 
close their borders to U.S. animals . . . just as there are up-front 
losses when you are in a car wreck, i.e., the lost use of your vehicle 
and perhaps missed work, etc. . . . However a robust animal ID system 
with full traceability provides protection by helping to preserve some 
of that market access, because it will allow us to more quickly isolate 
problem animals and stop the spread of illness. This in turn will allow 
us to demonstrate to other nations that the U.S. herd is safe and 
reopen those markets to U.S. goods.
    However, unlike car insurance, NAIS is far from being simply a 
response mechanism. NAIS has the potential to offer prospective 
benefits as well. We have already seen corporations use an animal ID 
system to demonstrate the safety of its product to the public and aid 
in its marketing. And we have seen retailers require its suppliers to 
be able to trace the animals it purchases from them, ostensibly to 
maintain the integrity of its merchandise and protect its reputation. 
Activities such as this have the up-front potential to offset the costs 
of compliance for the producer.
    Last, I would echo Chairman Peterson's sentiments from the last 
hearing on this issue, in saying that it will be difficult if not 
impossible to convince Congress to provide economic support for 
producers should we have an animal disease outbreak if they are not 
participating in NAIS. In other words, producers should not assume that 
the Federal Government will be there as an insurance policy, if they 
continue to be unwilling to pay their premium.

    The Chairman And now I would like to yield for an opening 
statement to our distinguished Ranking Member, the gentleman 
from Texas, Mr. Neugebauer.

OPENING STATEMENT OF HON. RANDY NEUGEBAUER, A REPRESENTATIVE IN 
                      CONGRESS FROM TEXAS

    Mr. Neugebauer. Well, thank you, Mr. Chairman.
    And let me extend my own greeting to the Members of the 
Homeland Security Subcommittee, and I appreciate Chairwoman 
Clarke and Ranking Member Lungren joining us today and the 
Members of their Subcommittee.
    At the March 11th hearing to review the USDA's 
implementation of the National Animal Identification System, 
Chairman Peterson referred to a briefing he had with 
representatives of DHS who offered an economic impact 
assessment resulting from a hypothetical introduction of foot-
and-mouth disease into the United States.
    Since that time, I have been able to review the information 
from that briefing, and I believe that the introduction of 
foot-and-mouth would be devastating and that all reasonable 
steps should be made--must be taken to prevent an introduction 
of this or any other foreign animal disease into the United 
States.
    Dr. Clifford and Mr. McGinn will testify that animal 
identification can provide information to assist animal health 
professionals in managing, and ideally minimizing, the spread 
of foreign animal disease once it has crossed over the border 
defenses.
    Dr. McGinn will comment about his experiences in North 
Carolina, where the state implemented a highly successful 
voluntary animal identification system. The system in North 
Carolina was developed around the commitment that information 
required from producers would be protected from public 
disclosure.
    These are two very important elements that I have advocated 
for in any national program, information protection and 
voluntary participation. While the testimony today will focus 
on the potential benefits of an animal identification system in 
the event of a foreign animal disease introduction, I am more 
interested in hearing about the systems DHS has in place to 
prevent the introduction in the first place.
    In 2002, we transferred the Agricultural Quarantine 
Inspection Program from USDA to DHS. Since that time, we have 
seen considerable deterioration in the morale of the 
agricultural inspectors. More problematic has been a culture at 
DHS that has relegated the mission of protecting American 
agriculture to the back burner.
    To quote our Committee Investigator, ``In the battle for 
resources to fight bugs, drugs and thugs, bugs always lose.''
    We hear concerns about USDA's use of $140 million spent 
since the 2004 implementation of animal ID, which I agree has 
been nothing short of wasteful. But it is important to consider 
the hundreds of millions of dollars transferred each year from 
USDA to DHS to carry out the Agricultural Quarantine Inspection 
Program and the effectiveness of that program.
    I hope the Agriculture Committee will consider these issues 
in future hearings, as well.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Mr. Neugebauer.
    Now it is, certainly, my pleasure to recognize and, of 
course, welcome the Chairman of the full Committee of Homeland 
Security with us for this important hearing.
    But it is my pleasure to recognize at this time and hear 
from the distinguished chairwoman of the Subcommittee on 
Emerging Threats, Cybersecurity, and Science and Technology, 
the gentlelady from New York, Ms. Clarke.

OPENING STATEMENT OF HON. YVETTE D. CLARKE, A REPRESENTATIVE IN 
                     CONGRESS FROM NEW YORK

    The Chairwoman. I would like to thank the distinguished 
Chairman, Chairman Scott, and Ranking Member Neugebauer----
    Repeat that for me one more time.
    Mr. Neugebauer. Neugebauer.
    The Chairwoman.--Neugebauer of this Subcommittee for 
inviting the Homeland Security Subcommittee on Emerging 
Threats, Cybersecurity, Science and Technology to share the 
gavel on this very important topic today.
    It is extremely timely and appropriate, in light of the 
recent national concerns regarding outbreaks of pandemic 
diseases and illnesses, that we look at our current animal 
agro-defense measures to ensure we have the appropriate 
infrastructure in place to mitigate risks.
    The potential for those who want to do harm to us, and 
decide to use the animal agriculture industry to carry out 
their ill-gotten plans, is very real. And it is clear that 
animal identification is and should be a tool of the U.S. 
Department of Agriculture. The USDA is certainly the 
appropriate and most capable Federal agency for safeguarding, 
preventing, controlling, and monitoring animal health.
    However, the Department of Homeland Security is responsible 
for coordinating interagency efforts to address national animal 
disease outbreak. In the event of a national catastrophe, DHS 
must be able to communicate with an effective and informed 
Department of Agriculture that can rapidly identify disease and 
exposed animals.
    Our Committee's assessment of this issue is that, in the 
event of such an outbreak, it is essential that we have a 
functioning system in place to allow for the immediate 
identification and assessment of the problems. The ultimate 
goal is to create a national system of traceability, and animal 
ID is a key component of this.
    I want to stress that our ability to effectively assess and 
respond to an animal disease outbreak remains limited until we 
have a functioning animal ID system in place. This issue 
requires urgent attention.
    I am particularly concerned that at this point it appears 
that we can only identify and trace about 35 percent of our 
U.S. livestock and poultry premises. In order to respond 
quickly and effectively to an animal disease event, animal 
health officials need to be able to accurately identify 
infected and non-infected animals where they are located, when 
they were there, and what other animals might have been 
exposed.
    Our inability to rapidly and accurately trace disease in 
exposed animals increases the likely spread of disease and 
hinders our ability to adequately respond to the threat.
    USDA must take the appropriate steps now to implement a 
biosecurity system for livestock. In USDA's zeal to promote 
animal health and safety, it is critical that they are just as 
vigilant in stressing animal agriculture defense and security.
    The first step in this process is the legitimate 
establishment of an animal identification system. It is also 
important that the livestock industry fully participate in the 
animal identification system in order for it to be truly 
effective.
    I look forward to hearing from both panels. The Federal 
Government witnesses and the state animal health experts and 
administrators can give us better insight on the problems with 
our current animal identification system, and help prescribe 
key elements for a more effective system.
    [The prepared statement of Ms. Clarke follows:]

   Prepared Statement of Hon. Yvette D. Clarke, a Representative in 
                         Congress from New York
    I would like to thank the distinguished Chairman and Ranking Member 
of this Subcommittee for inviting the Homeland Security Subcommittee on 
Emerging Threats, Cybersecurity, and Science and Technology to share 
the gavel on this very important topic today.
    It is extremely timely and appropriate in light of the recent 
national concerns regarding outbreaks of pandemic diseases and 
illnesses, that we look at our current animal agro-defense measures to 
ensure we have the appropriate infrastructure in place to mitigate 
risks. The potential for those who want to do harm to us and decide to 
use the animal agriculture industry to carry out their ill-gotten plans 
is very real.
    It is clear that animal identification is and should be a tool of 
U.S. Department of Agriculture. The USDA is certainly the appropriate 
and capable Federal agency for safeguarding, preventing, controlling 
and monitoring animal health.
    However, the Department of Homeland Security is responsible for 
coordinating interagency efforts to address national animal disease 
outbreaks. In the event of a national catastrophe, DHS must be able to 
communicate with an effective and informed Department of Agriculture 
that can rapidly identify diseased and exposed animals.
    Our Committee's assessment of this issue is that in the event of 
such an outbreak, it is essential that we have a functioning system in 
place to allow for the immediate identification and assessment of the 
problems. The ultimate goal is to create a national system of 
traceability, and animal ID is a key component of this.
    I want to stress that our ability to effectively assess and respond 
to an animal disease outbreak remains limited until we have a 
functioning animal ID system in place. This issue requires our urgent 
attention.
    I am particularly concerned that at this point, it appears that we 
can only identify and trace about 35% of our U.S. livestock and poultry 
premises.
    In order to respond quickly and effectively to an animal disease 
event, animal health officials need to be able to accurately identify 
infected and non-infected animals, where they are located, when they 
were there, and what other animals might have been exposed.
    Our inability to rapidly and accurately trace diseased and exposed 
animals increases the likely spread of disease, and hinders our ability 
to adequately respond to the threat.
    USDA must take the appropriate steps now to implement a biosecurity 
system for livestock. In USDA's zeal to promote animal health and 
safety, it is critical that they are just as vigilant in stressing 
animal agriculture defense and security. The first step in this process 
is the legitimate establishment of an animal identification system.
    It is also important that the livestock industry fully participate 
in the animal identification system in order for it to be truly 
effective.

    The Chairwoman. It is now my honor to recognize the Ranking 
Member of the Subcommittee on Emerging Threats, Cybersecurity, 
and Science and Technology, the gentleman, Mr. Lungren.

 OPENING STATEMENT OF HON. DANIEL E. LUNGREN, A REPRESENTATIVE 
                  IN CONGRESS FROM CALIFORNIA

    Mr. Lungren. Thank you very much, Chairwoman Clarke.
    And thank you very much, Chairman Scott and Ranking Member 
Neugebauer.
    Let me begin by thanking all of the witnesses for being 
here. Your work towards the monumental task of securing our 
nation's food supply has not gone unnoticed by either of the 
Committees here today.
    I thank the Agriculture Subcommittee on Livestock, Dairy, 
and Poultry for hosting us and for recognizing the central 
responsibility our Homeland Security officials have in managing 
robust and coordinated research, preparedness, and response 
activities in the food and agriculture critical infrastructure 
sector.
    Reports of Salmonella in our produce, E. coli in our meats, 
or now even talk of the H1N1 virus in humans, are sober 
reminders of the need for vigilance in our agriculture and our 
health monitoring systems, and that this need has not subsided. 
If anything, such instances seem to be on the rise. Perhaps it 
is just they get more publicity today.
    In any event, we do depend on our Federal officials, our 
colleagues in the state government, and our researchers in 
academia to tackle these problems and to help us find new ways 
to keep us safe from outbreaks, whether they be terrorist-
driven, naturally occurring, or even the result of the very way 
in which we grow our food.
    The issue of a National Animal Identification System is, 
frankly, new to our Subcommittee. And while we have often 
examined emerging threats to agriculture and to human health, 
this particular facet of agricultural security is one we have 
not yet studied.
    Coming from California, I understand the importance of 
agriculture both to our state and to the Federal economy. We do 
about $10 billion in livestock and poultry business every year. 
Our dairy industry, we believe, is second to none in terms of 
size and economic importance.
    But it is clear to me that we must be fully prepared to 
respond to a large-scale disaster that would impact animal 
lives and human livelihoods.
    So what does it mean to be able to track any given animal's 
movement through the production chain? How does the capability 
enhance our food security and overall security of our homeland?
    What would happen if we had a major incident and did not 
have a national animal ID system in place? And, also, we cannot 
forget, what are the costs involved? And any program we come up 
with, how do we make sure that it is, in fact, cost-efficient?
    I have a passing interest in the cattle industry, and I 
know what costs could be with respect to identification in the 
system. And if those are costs to be borne, we have to make 
sure that they are appropriate to the circumstances, they do 
the job we want to do, and we have to make sure it doesn't 
destroy a particular industry in the process.
    A National Animal Identification System has to be a 
Federal-state-private partnership. Having all of these 
witnesses here before us at the same table is an excellent 
opportunity to discuss what is going right and what is going 
wrong, where we must be going, what we need to do to be going, 
and what efforts will get us there.
    And in so doing, we must keep in mind the need to balance 
cost to the producer, and privacy of their data, with the need 
to mitigate disease spread to keep our health secure and our 
markets viable.
    One of the amazing things about our agricultural system is 
it gives us the greatest abundance and opportunity to enjoy 
foods of any country in the history of the world. But at the 
same time, the very means that we use to produce those make us 
vulnerable to the terrorists of the world.
    And we have to understand that, and we somehow have to 
respond to it in a reasonable, effective and efficient way that 
does not undo the greatness of this agricultural system that we 
have today.
    So I look forward to hearing from each of our witnesses on 
these important issues. And I thank both of the chairs of our 
Subcommittees, the Ranking Members and my colleagues. Thank you 
very much.
    The Chairman. Thank you, Ranking Member Lungren. We 
appreciate your remarks.
    As I mentioned, we are very pleased to have the Chairman of 
the Homeland Security Committee here with us, my good friend, 
Chairman Bennie Thompson, who, I might add, has just done an 
extraordinary job in leading this Congress in helping to keep 
and make sure our homeland is secure.
    Chairman Thompson?

OPENING STATEMENT OF HON. BENNIE G. THOMPSON, A REPRESENTATIVE 
                  IN CONGRESS FROM MISSISSIPPI

    Mr. Thompson. Thank you, Chairman Scott.
    And I would like to compliment you on this hearing, but I 
would also like to say it is coming back home. As a couple of 
Members on the Committee know, until I became Chairman, I was a 
Member of this very prestigious Committee. And to say, ``I miss 
you,'' would be an understatement, but I understand people 
don't miss you for long.
    [Laughter.]
    Mr. Thompson. So I am privileged to both you, Chairman 
Scott and Chairwoman Clarke, and the Ranking Members of those 
respective Subcommittees, for your leadership on this issue.
    While we know that the most recent H1N1 incidents are in no 
way linked to the U.S. animal agriculture, the emergence of new 
viruses further demonstrates our need to not only be prepared 
to react to disease outbreaks, but to also undertake the 
necessary mitigation and research efforts that allow us to stay 
one step ahead.
    We are fortunate to have the luxury of this hearing before 
something bad happens, rather than examining this issue as a 
knee-jerk overreaction that could lead to bad biosecurity 
policy.
    I am pleased that we were able to bring the two Committees 
together to look at this issue appropriately as not only one of 
animal agriculture, but also one of homeland security. Our 
supply of animal agriculture is an attractive target to folks 
who want to do harm to the United States.
    As the various professional animal industry groups get 
caught up in fighting over whether animal ID should be 
voluntary or mandatory, we must not lose sight of the fact that 
animal identification is a part of U.S. biosecurity. Animal 
identification is the first step in being able to trace animals 
and respond to animal health emergencies.
    I have confidence that USDA is well positioned to manage 
animal health and the National Animal Identification System, 
but I am not satisfied with the pace at which the National 
Animal Identification System has come along.
    Absent greater levels of participation, the effectiveness 
of a national animal ID system is compromised. USDA and DHS 
must ensure that the missions of food safety and food security 
are achieved. That way, we will be able to mitigate the 
consequences associated with such a catastrophe and coordinate 
Federal assets to prepare for and respond to the incident.
    Our two panels can offer great insight. I want to know 
whether our current mitigation and coordination mechanisms will 
be sufficient. And I am also interested in learning what they 
believe should be done to increase participation in the 
national animal ID system.
    Again, thank you, Mr. Chairman. I look forward to the 
testimony.
    [The prepared statement of Mr. Thompson follows:]

  Prepared Statement of Hon. Bennie G. Thompson, a Representative in 
                       Congress from Mississippi
    While we know that the most recent H1N1 incidents are in no way 
linked to the U.S. animal agriculture, the emergence of new viruses 
further demonstrates our need to not only be prepared to react to 
disease outbreaks, but to also undertake the necessary mitigation and 
research efforts that allow us to stay one step ahead.
    We are fortunate to have the luxury of this hearing before 
something bad happens rather than examining this issue as a knee-jerk 
overreaction that could lead to bad biosecurity policy.
    I am pleased we were able to bring the two Committees together to 
look at this issue appropriately as not only one of animal agriculture, 
but also one of homeland security. Our supply of animal agriculture is 
an attractive target to folks who want to do harm to the U.S. As the 
various professional animal industry groups get caught up in fighting 
over whether animal ID should be voluntary or mandatory, we must not 
lose sight of the fact that animal identification is a part of U.S. 
biosecurity. Animal identification is the first step in being able to 
trace animals and respond to animal health emergencies.
    I have confidence that USDA is well-positioned to manage animal 
health and the National Animal Identification System, but I am not 
satisfied with the pace at which the National Animal Identification 
System has come along. Absent greater levels of participation, the 
effectiveness of a national animal ID system is compromised. USDA and 
DHS must ensure that the missions of food safety and food security are 
achieved. That way, we will be able to mitigate the consequences 
associated with such a catastrophe and coordinate Federal assets to 
prepare for and respond to the incident.
    Our two panels can offer great insight. I want to know whether our 
current mitigation and coordination mechanisms will be sufficient. I am 
also interested in learning what they believe should be done to 
increase participation in the national animal ID system.

    The Chairman. Chairman, thank you, Chairman Thompson.
    And now we will hear from the distinguished Chairman of the 
full Committee, Chairman Peterson. And I might add that 
Chairman Peterson has been doing an extraordinary job in 
providing leadership on the whole issue of food safety. And he 
has made animal ID a top priority of this Committee.
    Chairman Peterson?

OPENING STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE 
                   IN CONGRESS FROM MINNESOTA

    Mr. Peterson. Thank you very much, Chairman Scott and 
Chairwoman Clarke, for calling today's Subcommittee hearing.
    And I also want to thank my good friend, Bennie Thompson, 
for being here today and for working with our Committee to 
examine this vital animal, food and economic security issue.
    The House Agriculture Committee held a hearing earlier this 
year on the status of the National Animal Identification 
System, which was established by USDA in 2004 in order to 
enhance its animal health protection efforts.
    We looked at why over $100 million has been spent so far to 
provide an effective traceback system in the event of an animal 
disease outbreak with very little in the way of real results 
and getting premises registered or animals identified.
    Last week, USDA's NAIS Administrator--the administrator of 
NAIS released a benefit-cost analysis to comprehensively assess 
the merits of a mandatory ID system. The research conducted by 
several academic institutions gives us the best analysis to 
date on what could result if NAIS is fully adopted.
    This analysis was instructed because the persistent 
criticism of those opposed to a mandatory system was that the 
costs are easier to quantify than the benefits. Well, the 
analysis was released. It is hardly the final word on the 
subject. It does raise a couple of interesting points that I 
would like to highlight.
    With respect to industry, not implementing NAIS may result 
in significant losses due to reduced market export market 
access. The shutting down of export markets is a near certainty 
in the case of a major outbreak here without a mandatory 
system.
    In addition, the analysis found that the system's cost-
effectiveness rises as participation levels rise, which seems 
sensible.
    We should remember that a mandatory ID system is not 
intended to prevent an animal disease outbreak. It is simply a 
tool to help us trace, track and quarantine animals and herds 
in the event of such an outbreak occurring.
    Such a tool could effectively regionalize or localize a 
disease in order to help control it faster, which can keep the 
markets moving, while mitigating economic losses.
    We need a better system for controlling an animal disease 
outbreak. It took over 100 days to find a cow in this country 
infected with BSE. According to APHIS, it takes 199 days on 
average to trace an animal with tuberculosis, as well as all 
the other herd mates with our current animal identification 
system, despite millions of dollars that have been spent on it.
    What takes us a few months to do have and has been done by 
other countries with mandatory systems in a matter of days or 
weeks. Clearly, our current traceback system isn't working like 
it should.
    Despite these troubling statistics, those who have gone to 
USDA and have asked it to apply to the World Organisation for 
Animal Health, or OIE, for negligible BSE risk categorization 
for U.S. cattle, at the same time, the meat interests stand 
opposed to a mandatory ID system.
    In my opinion, you can't have it both ways. Our trading 
partners already have mandatory systems. A negligible BSE risk 
determination is not going to happen here without one, in my 
opinion.
    And I will say this, once again, to those who oppose the 
mandatory system: if we have a severe market disruption--
outbreak--and it is just a matter of time when something like 
that is going to happen--and you continue to have this position 
that you don't want this kind of a system, then I would ask you 
not to come to me looking for support for any kind of bailout, 
or other economic assistance, because of the damage and the 
risk that you have undertaken because you don't want to have a 
system like this.
    I am sure you can find some sympathetic ears in the 
Congress. And, you know, it will probably happen. But I just 
want to let you know that you won't find one here.
    So I hope that for those--will be helpful in demonstrating 
the importance of an effective identification system and the 
economic consequences of maintaining the status quo will be 
pointed out.
    I want to thank those witnesses for being here. I look 
forward to the testimony and, again, thank our friends and the 
Chairman from the Homeland Security Committee for participating 
in this hearing with us.
    I yield back.
    [The prepared statement of Mr. Peterson follows:]

  Prepared Statement of Hon. Collin C. Peterson, a Representative in 
                        Congress from Minnesota
    Thank you, Chairman Scott and Chairwoman Clarke, for calling 
today's joint Subcommittee hearing. I also want to thank Representative 
Bennie Thompson, full Chairman of the Homeland Security Committee, for 
working with our Committee to examine this vital animal, food, and 
economic security issue.
    The House Agriculture Committee held a hearing earlier this year on 
the status of the National Animal Identification System, which was 
established by USDA in 2004 in order to enhance its animal health 
protection efforts. We looked at why over $100 million has been spent 
to provide an effective traceback system in the event of an animal 
disease outbreak with very little in the way of real results in getting 
premises registered or animals identified.
    Last week, USDA's Animal and Plant Health Inspection Service, the 
administrator of NAIS, released a ``Benefit-Cost Analysis'' to 
comprehensively assess the merits of a mandatory identification system. 
The research, conducted by several academic institutions, gives us the 
best analysis to date on what could result if NAIS is fully adopted. 
This analysis is instructive because a persistent criticism of those 
opposed to a mandatory system is that the costs are easier to quantify 
than the benefits.
    While the analysis that was released is hardly the final word on 
the subject, it does raise a couple of interesting points that I would 
like to highlight. With respect to industry, not implementing NAIS may 
result in as much as $13.2 billion in losses due to reduced export 
market access. The shutting down of export markets is a near certainty 
in the case of a major outbreak here without a mandatory system. In 
addition, the analysis found that the system's cost effectiveness rises 
as participation levels rise.
    We should remember that a mandatory animal identification system is 
not intended to prevent an animal disease outbreak. It is simply a tool 
to help us trace, track and quarantine animals and herds in the event 
of such an outbreak.
    Such a tool could effectively regionalize or localize a disease in 
order to help control it faster, which can keep the markets moving 
while mitigating economic losses.
    We need a better system for controlling an animal disease outbreak. 
It took over 100 days to find a cow in this country infected with BSE. 
According to APHIS, it takes 199 days on average to trace an animal 
with tuberculosis as well as all of its herdmates with our current 
animal identification system despite the millions that have been thrown 
at it. What takes us a few months to do can and has been done by other 
countries with mandatory systems in a matter of days or weeks. Clearly, 
our current traceback system does not work.
    Despite these troubling statistics, there are those who have gone 
to USDA and have asked it to apply to the World Organisation for Animal 
Health, or OIE, for a negligible BSE risk categorization for U.S. 
cattle. At the same time, these interests stand opposed to a mandatory 
identification system. You cannot have it both ways. Our trading 
partners already have mandatory systems. A negligible BSE risk 
determination is not going to happen here without one.
    And I will say this once again to those who oppose a mandatory 
system: If we have a severe market disruption due to a disease 
outbreak, do not come to me looking for support for a bailout or any 
other form of economic assistance. I'm sure you can find some 
sympathetic ears in this Congress, but you won't find one in me.
    I hope that today's joint hearing will be helpful in demonstrating 
the importance of an effective identification system and the economic 
consequences of maintaining the status quo. I thank today's witnesses 
for being here and I look forward to their testimony. I yield back my 
time.

    The Chairman. Thank you very much, Chairman Peterson.
    I would like to ask for unanimous consent that opening 
statements by other Members be submitted for the record so that 
witnesses may begin their testimony and to ensure that there is 
ample time for questions.
    I have a white paper here that is written by Peter Bailey 
of the Australian Government to be inserted in the hearing 
record.
    [The document referred to is located on p. 75.]
    The Chairman. As Chairwoman Clarke said a few minutes ago, 
nothing is more vitally important to the American people than 
we are making sure that their food supply is safe and the 
sources of that food is safe. And we have that responsibility 
to do here in Congress.
    I would like to now welcome our first panel of witnesses to 
the table. First, we have Dr. John R. Clifford, Deputy 
Administrator, Veterinary Services, Animal and Plant Health 
Inspection Service, United States Department of Agriculture, 
Washington, D.C.
    Thank you, and welcome, Dr. Clifford.
    We also have Dr. Tom McGinn, Chief Veterinarian, U.S. 
Department of Homeland Security here in Washington.
    Thank you for being with us, sir.
    Dr. Clifford, you may begin.

         STATEMENT OF JOHN R. CLIFFORD, D.V.M., DEPUTY
 ADMINISTRATOR FOR VETERINARY SERVICES AND CHIEF VETERINARIAN, 
ANIMAL AND PLANT HEALTH INSPECTION SERVICE, U.S. DEPARTMENT OF 
                          AGRICULTURE,
                        WASHINGTON, D.C.

    Dr. Clifford. Good afternoon. Thank you for the opportunity 
to testify before the Subcommittees today.
    I am Dr. John Clifford, the Chief Veterinary Officer for 
animal health for the U.S. Department of Agriculture.
    As we all know, animal health emergencies and foreign 
animal disease outbreaks can have a major impact on the 
nation's agricultural infrastructure, animal and public health, 
food security, economy, and export markets.
    USDA's animal health safeguarding systems have largely 
stayed ahead of evolving risk and have been highly effective in 
preventing the introduction into the United States of serious 
animal diseases such as foot-and-mouth disease.
    We also have had a strong domestic surveillance 
infrastructure in place to detect any animal diseases that 
could slip past our prevention measures. But even with the best 
safeguards available, a serious disease event can still occur. 
That is why USDA has specific emergency response guidelines for 
foot-and-mouth disease and many other foreign animal diseases 
that pose a significant threat to the United States.
    To ensure maximum speed and effectiveness, APHIS has rapid 
response teams stationed around the country ready to travel to 
detection sites to coordinate Federal containment and 
eradication efforts. We also manage a corps of more than 720 
veterinarians and animal health technicians who can be 
federalized and deployed during an animal disease event. And we 
maintain a national veterinary stockpile of vaccines and other 
critical veterinary supplies.
    While we have done a great deal to prepare for foot-and-
mouth disease or other foreign animal disease outbreaks, there 
is more we can do to strengthen our capabilities. In a disease 
emergency, animal health officials are called to make vital, 
real-time decisions. To make these decisions, we need the 
ability to quickly and reliably determine what animals are 
carriers of the disease, what animals are at risk, and what 
animals are unaffected.
    This information is the backbone of a rapid and effective 
response. The most important tool at our disposal in this 
regard is the National Animal Identification System.
    There is no question that an effective animal ID system is 
essential to our work to protect U.S. animal health. A number 
of studies have looked at this issue and found that a short 
traceback time is key to reducing a disease's negative effects. 
Providing animal traceability, NAIS can minimize the number of 
animals affected by an outbreak and reduce the economic strain 
associated with animal disease.
    It can also demonstrate that certain areas of the U.S. are 
free of disease, limiting market closures and preserving the 
marketability of animals.
    Today, as a result of our efforts, we have a strong NAIS 
infrastructure in place consisting of premises registration, 
animal identification, and animal tracing. Unfortunately, a 
disappointing rate of producer participation--currently at over 
35 percent--hampers our ability to achieve animal traceability. 
This is particularly true in cattle.
    In order for NAIS to be successful, we need a minimum 
critical mass of producers onboard. We estimate this would be 
70 percent of the animals in specific species sectors that 
could be identified and traced to their premises of origin.
    While 70 percent would provide some measure of 
traceability, I must emphasize that we really need to achieve 
higher participation rates, as high as 90 percent, to ensure 
the benefits of the system.
    So how do we achieve a 90 percent participation rate? I am 
sure you want to know whether I support a mandatory NAIS to 
reach this goal. Like Secretary Vilsack, I am committed to 
exploring all available options and working collaboratively 
with industry to address their concerns before making this 
decision.
    Whether NAIS is, ultimately, voluntary or mandatory, the 
important thing is, is that it is successfully implemented and 
meets the needs of both producers and animal health officials.
    NAIS is a long-term investment in emergency preparedness 
and response with our ongoing disease control and eradication 
programs, the international competitiveness of our livestock 
sector, and consumer confidence in our food supply. And 
effective NAIS will prepare us to respond successfully to 
foreign animal disease outbreaks, natural disasters, and agro-
terrorism.
    I believe it is imperative that we make this program a 
success. USDA recently released a benefit-cost analysis for 
animal ID, and I would like to submit that for the record.
    [The document referred to is retained in Committee files, 
and can be viewed at http://animalid.aphis.usda.gov/nais/
naislibrary/documents/plans_reports/
Benefit_Cost_Analysis_NAIS.pdf.]
    Dr. Clifford. Thank you. And I would be happy to answer 
your questions.
    [The prepared statement of Dr. Clifford follows:]

 Prepared Statement of John R. Clifford, D.V.M., Deputy Administrator 
for Veterinary Services and Chief Veterinarian, Animal and Plant Health
  Inspection Service, U.S. Department of Agriculture, Washington, D.C.
    Chairman Scott, Chairwoman Clarke, Ranking Members Neugebauer and 
Lungren, and Members of the Subcommittees, thank you for holding this 
hearing today. I am Dr. John Clifford, Deputy Administrator for 
Veterinary Services with the Department of Agriculture's (USDA) Animal 
and Plant Health Inspection Service (APHIS). In this position, I also 
serve as USDA's Chief Veterinary Officer for animal health.
    I appreciate the opportunity to testify before you regarding USDA's 
National Animal Identification System (NAIS) and our extensive efforts 
to protect U.S. agriculture from foreign animal disease threats such as 
foot-and-mouth disease (FMD). We have a comprehensive and effective 
safeguarding system that is designed to keep diseases like FMD out of 
our country, look carefully for any signs of the disease in our 
nation's herd, and, should we diagnose it here, respond quickly to 
minimize spread and economic impacts.
    The backbone of any effective emergency response is the ability to 
quickly and reliably ascertain what animals are carriers of disease, 
what animals are at risk, and what animals are unaffected. With this 
information, we can make decisions in real time regarding the 
boundaries of the quarantines that we should put in place, what 
movement of animals and products can be supported from a risk 
standpoint, when it is needed to use vaccine, and which animals must be 
depopulated to curb and eventually end the spread of the disease.
    These are difficult decisions to make, especially in the midst of 
an emergency situation. The most important thing needed to make these 
decisions and protect our nation's producers, communities, and economy 
from a major disease event like FMD is timely, current information that 
tells me which animals have been infected or exposed.
    Today, because the livestock industries are so integrated and 
animals move regularly from location to location for feeding, sale, 
breeding, and the like, it is absolutely essential, in the event of a 
contagious disease like FMD, to have this sort of usable information at 
a moment's notice. The most important tool at our disposal in this 
regard is the National Animal Identification System (NAIS).
    USDA, states, and industry have been working cooperatively to 
develop a unified NAIS for several years. This work assumed greater 
urgency when we witnessed the heavy losses associated with the FMD 
outbreak in the United Kingdom in 2001. In 2003, a group of 
approximately 100 industry and government representatives--the National 
Identification Development Team--drafted the U.S. Animal Identification 
Plan. The detection of a case of bovine spongiform encephalopathy (BSE) 
in the United States on December 23, 2003 accelerated our 
implementation of NAIS.
    We have expended significant effort and resources on NAIS and today 
have a strong infrastructure in place, consisting of premises 
registration, animal identification, and animal tracing. Premises 
registration--the foundation of NAIS--establishes a contact list for 
all locations in the United States that manage or hold livestock or 
poultry. A registered premises provides a key link for a disease 
investigation--allowing for a targeted response. Animal identification 
provides producers with a uniform numbering system for their animals, 
and links livestock and poultry to their premises of origin. Animal 
tracing, the final component of NAIS, allows producers to choose a 
private or state animal tracking database and report animal movements 
that may pose a significant risk of disease transmission. USDA 
maintains only the premises registration information needed to enable 
effective traceback or notification in animal disease situations, as 
well as distribution/termination records of official identification 
devices, and will not have direct access to the private and state 
animal tracking databases which contain animal movement records.
    Unfortunately, we have faced many challenges as we have worked to 
develop a robust NAIS. Most producers, industry groups, and state 
officials see NAIS' value, but the debate continues over how to 
implement it. This has led to a disappointing participation rate of 
about 35 percent of the estimated number of our nation's livestock and 
poultry premises. Some state legislators have sought to restrict 
participation in the program. Further, we at USDA have made adjustments 
in the direction of NAIS, resulting in some confusion regarding 
producer participation. In May 2005, USDA announced a Draft Strategic 
Plan that included timelines for a mandatory program by January 2009. 
The April 2006 Implementation Plan stated that the program was 
voluntary with a contingency that USDA would consider regulations that 
would require participation if voluntary participation levels were not 
adequate to have an effective program. Although our NAIS implementation 
strategies have always been based upon continuous producer and 
stakeholder assessment and input into workable solutions, this strategy 
shift, combined with producer concerns, appears to have reduced 
producer focus on the importance of animal disease traceability and 
preparedness.
    Despite these challenges, I believe we have turned an important 
corner in the development of NAIS. All components of the system have 
been developed, integrated, tested, and made operational. Secretary 
Vilsack has signaled his clear support for developing a system that 
will work efficiently and effectively, and that accommodates the unique 
needs and perspectives of the diverse array of stakeholders involved. 
Implementation of an effective NAIS is my top priority. There is no 
question that an effective animal identification system is essential to 
our work to successfully protect U.S. animal health.
    With that, let me turn to examining the risks we face today, our 
approach to preparedness and response, and how NAIS effectively 
complements these critical efforts.
The Risks Posed by Foreign Animal Diseases
    As you well know, foreign animal disease incursions, as well as 
other animal health emergencies, can have a major impact on the 
nation's agricultural infrastructure, animal and public health, food 
security, economy, and export markets. For example, there are many 
animals susceptible to FMD in the United States, including over 94 
million cattle, 67 million swine, and almost nine million sheep and 
goats. A recent study conducted by USDA's Economic Research Service 
simulated a FMD outbreak in small hog operations in the Midwest, 
estimating losses between $2.8 and $4.1 billion.\1\ Another study, 
based on a hypothetical FMD outbreak in California, projected a cost of 
between $8 and $14 billion.\2\
---------------------------------------------------------------------------
    \1\ Paarlberg, Lee, and Seitzinger. (2008). Economic Impacts of 
Foreign Animal Disease. Washington, D.C.: USDA ERS.
    \2\ Ekboir, Javier. (1999). The Potential Impact of Foot and Mouth 
Disease in California: The Role and Contribution of Animal Health 
Surveillance and Monitoring Services. Davis, Calif.: Agricultural 
Issues Center.
---------------------------------------------------------------------------
    USDA has numerous safeguards in place to prevent the introduction 
of FMD, and has successfully kept the disease out of the United States 
since the last outbreak in 1929. However, we also recognize that no 
system is 100 percent foolproof. That said, should we be faced with a 
significant animal disease event in the United States, the key to 
reducing its impact is our ability to swiftly contain and eradicate it. 
The way we can achieve this is by having an effective system in place 
that allows animal health officials to quickly identify all potentially 
affected animals and stop them from further spreading the disease. 
Again, this is exactly what we are trying to achieve with NAIS. NAIS 
can have significant, positive effects on our ability to limit the 
number of animal owners impacted by an outbreak, reduce the economic 
strain on owners and affected communities, demonstrate that certain 
areas of the United States are free of disease, limit export market 
closures, and preserve the marketability of animals for domestic 
markets.
The U.S. Animal Health Safeguarding System
    USDA safeguards the nation's animals and animal products by 
preventing, controlling, and/or eliminating animal diseases, and 
monitoring and promoting animal health and productivity. We have made 
significant investments--totaling more than $405 million of annual 
appropriated funding in FY 2008--towards preventing, controlling, and 
eradicating animal diseases. USDA's animal health safeguarding systems 
have largely stayed ahead of evolving risks and have been highly 
effective in preventing the introduction of serious animal diseases 
such as FMD into the United States.
Prevention Measures
    Our agricultural safeguarding system in the United States consists 
of a comprehensive, interlocking set of programs that work together to 
protect U.S. livestock from foreign pest and disease risks. USDA does 
not allow animals or animal products to be exported to the United 
States from an area of the world where FMD is known to exist or where a 
determination of disease status cannot be made. Our import regulations 
are science-based and are designed to keep susceptible animals and 
their products out of the United States. To ensure that these 
regulations are followed, USDA works in tandem with the Department of 
Homeland Security (DHS) to address the risk of foreign pests and 
diseases entering the country at ports of entry, either through the 
movement of people or commodities. APHIS also operates animal import 
centers with veterinary personnel who screen imported live animals.
    Recognizing that every single import cannot be inspected, APHIS 
provides an additional layer of protection from foreign threats through 
our Smuggling, Interdiction, and Trade Compliance (SITC) program. SITC 
teams, in cooperation with DHS' Customs and Border Protection, the USDA 
Food Safety and Inspection Service, and other Federal partners, 
vigilantly seek out any animals or animal products that might be 
smuggled into the United States from another country. SITC teams also 
conduct secondary market and warehouse inspections and conduct a full 
investigation on smuggled goods to identify and eliminate illegal 
pathways.
Surveillance and Detection
    The components of our safeguarding system are designed to protect 
against damaging and potentially costly introductions. But we know we 
must have a strong domestic surveillance infrastructure in place to 
detect any animal diseases that could slip past our prevention 
measures. Early detection is essential to preventing disease 
establishment in the United States and can help reduce the cost to 
industry of lost product and lost markets. To that end, APHIS conducts 
a number of surveillance activities so that we can detect an intrusion 
as early as possible.
    APHIS scientists perform diagnostic testing of samples collected 
from U.S. livestock that are showing clinical signs consistent with an 
exotic disease, as well as test animal products and live animals being 
imported into the United States to ensure that unwanted diseases are 
not accidentally introduced through importation. APHIS scientists have 
the capability to diagnose more than 30 exotic animal diseases and 
perform thousands of diagnostic tests each year. They also prepare 
diagnostic reagents, distribute them to laboratories throughout the 
world, and work to improve techniques for the diagnosis or control of 
foreign animal diseases.
    The National Animal Health Laboratory Network supports USDA's 
animal health testing efforts, enabling rapid, accurate detection and 
reporting of possible occurrences of significant animal disease. The 
Network includes 38 laboratories which are approved for testing 
diagnostic samples for FMD, providing for early detection and the surge 
capability needed in the case of an outbreak.
    In addition, APHIS trains veterinarians, scientists, professors, 
and veterinary students on the recognition of clinical signs and 
pathological changes caused by foreign animal diseases. This training 
provides the backbone of APHIS' animal disease surveillance and 
safeguarding programs. These foreign animal disease diagnosticians are 
located throughout the country, and we estimate that they can be on-
site to conduct an investigation and collect samples within 4 hours of 
receiving a report of a suspected foreign animal disease. About 500 
active state and Federal animal health officials have received this 
training and are ready to respond to suspicious animal disease cases. 
Based on their assessment of the situation and prioritization of the 
threat, APHIS can then take appropriate steps to protect the U.S. 
livestock industry. All of these surveillance efforts are a crucial 
part of USDA's overall agricultural safeguarding system.
Emergency Preparedness and Response
    Although our preventative measures have successfully protected the 
United States from FMD and other animal diseases, it is only prudent to 
assume that, even with the best safeguards available, a serious disease 
event will still occur. Accordingly, now more than ever, preparedness 
is critical and response plans need to be in place ahead of time, 
rather than waiting for a disease outbreak to occur.
    USDA has specific emergency response guidelines for FMD and many 
other foreign animal diseases that pose a significant threat to the 
United States, as well as guidance for state and local responders. They 
include detailed checklists and standard operating procedures that 
cover such topics as disease etiology and ecology, surveillance 
objectives, diagnostic sample testing, quarantine and movement control, 
vaccination, and continuity of business planning. We have developed 
these response plans in conjunction with our Federal, state, and local 
partners, with whom we conduct exercises to test our preparedness.
    Another essential part of planning includes identifying those 
Departments and Agencies that will support and partner with USDA in 
responding to emergencies and how roles and responsibilities will be 
divided or shared. A primary partner for APHIS is the Department of 
Homeland Security (DHS). In working with DHS during animal health 
emergencies, APHIS leads the animal disease incident response, 
coordinates incident management teams, manages public relations, and 
takes measures to control and eradicate the disease for the Agriculture 
and Food Sector. DHS, on the other hand, coordinates Federal-to-Federal 
support as outlined in the National Response Framework, mobilizing 
resources through DHS components (e.g., Federal Emergency Management 
Agency, Customs and Border Patrol) to mitigate impacts of incidents.
    To ensure maximum speed and effectiveness, APHIS has rapid response 
teams stationed around the country ready to travel to detection sites 
to coordinate Federal containment and eradication efforts. These teams 
use an incident command approach to emergency response, enabling 
members from local, state, and Federal agencies to communicate with 
each other clearly and effectively when working an emergency and to tap 
into a wider network of resources. APHIS also manages the National 
Animal Health Emergency Response Corps (NAHERC) of over 720 
veterinarians and animal health technicians who can be federalized and 
deployed as needed. APHIS also has access to personnel through the 
International Animal Health Emergency Response Corps, comprised of 
veterinarians and technicians from Australia, New Zealand, Canada, the 
United Kingdom, and Ireland.
    Additionally, APHIS continues to enhance the nation's repository of 
critical veterinary products, known as the National Veterinary 
Stockpile (NVS), to ensure that we can deliver vaccines and other 
critical veterinary supplies to the site of a dangerous animal disease 
outbreak within 24 hours. To accomplish this critical mandate, the NVS 
has defined the agents of greatest interest to animal health and has 
prioritized its resources accordingly. This disease list, led by FMD 
and highly pathogenic avian influenza (HPAI), is one of the key 
influencers of our emergency management priorities. The NVS currently 
holds or has systems in place to provide:

  <bullet> Personal protective equipment (PPE) for 310 responders for 
        10 days in a high-risk environment;

  <bullet> Further PPE to protect 3,000 responders for 40 days;

  <bullet> Anti-viral medications for 3,000 responders for 6 weeks; and

  <bullet> Satellite data and voice equipment that is portable and 
        capable of establishing temporary command posts.

    Vaccines are another potentially critical tool in our emergency 
response arsenal. APHIS is the custodian of the North American FMD 
Vaccine Bank (owned by Canada, Mexico and the United States), which 
stores concentrated FMD antigen that can be formulated into a vaccine 
if a FMD introduction occurs. We have developed guidelines regarding 
the use of FMD vaccine, including distribution if the vaccine were 
limited or if time constraints prevented establishment of a current 
livestock population estimate, and have a rating system in place to 
prioritize vaccine delivery within the vaccination zone. To strengthen 
our response capabilities, USDA and DHS are also working on the 
development, testing, and licensing of FMD vaccines that can be safely 
manufactured on the U.S. mainland.
    While we have made great strides in preparing for a FMD or other 
foreign animal disease outbreak, there is always more we can do to 
strengthen our capabilities. For example, USDA is currently working on 
a model to better estimate how many personnel would be needed to manage 
a large scale FMD outbreak, and expect to complete it in 2010. On the 
diagnostic side, APHIS and USDA's Agricultural Research Service 
continue to try to improve our capabilities, and are currently working 
on rapid diagnostics that can be used pen-side. We also regularly test 
our emergency response capabilities through simulation exercises with 
local, state, Federal, and international partners, so that we can 
identify needed improvements and ensure that all participants 
understand their roles. For example, we conducted NVS deployment 
exercises with four separate states during the past year, and plan to 
conduct a FMD exercise with 13 states and Canada this summer.
The Need for an Effective National Animal Identification System
    With all that we have done to prepare for a FMD or other 
significant disease incursion, we cannot afford to be complacent; we 
must always be doing more and improving our capabilities and 
preparedness to respond. And, again, we can only respond effectively if 
we know what animals are affected, where they are located, and if they 
have had contact with other animals to spread the disease. Based on the 
worst case scenario--FMD--we have found that being able to trace back 
from infected animals within 48 hours is vital to quickly containing 
and eliminating an incipient disease outbreak.
    In fact, a number of studies have looked at this issue, and found 
that a quicker response equates to a significant decrease in negative 
effects from an outbreak. For example, in a study that examined the 
impacts of a simulated FMD outbreak in California, researchers found 
that a shorter traceback time is key to reducing the scope of a 
disease, as indicated by the study's finding that in its simulation, 
``a 1 week delay in starting depopulation could increase the proportion 
of infected premises from 18% to more than 90%.'' \3\ A more recent 
study that examined the value of traceability in a simulated FMD 
outbreak in Kansas found that ``as the level of surveillance and 
ability to trace cattle increases, the number of animals that have to 
be destroyed and related costs decrease.'' \4\ Clearly, there are 
benefits to be had from enhancing our traceback capabilities.
---------------------------------------------------------------------------
    \3\ Ekboir, J.M., L.S. Jarvis and J.E. Bervejillo. 2003. Potential 
Impact of FMD Outbreak in California, in Sumner, D. (ed.), Exotic Pests 
and Diseases: Economics, Science and Policy, Iowa State University 
Press.
    \4\ Pendell, D.L. and Schroeder, T.C. (2007). Value of Animal 
Traceability Systems in Managing a Foot-And-Mouth Disease Outbreak in 
Southwest Kansas. Kansas State University Agricultural Experiment 
Station and Cooperative Extension Service.
---------------------------------------------------------------------------
    USDA has long recognized the benefits of animal identification and 
for much of the second half of the 20th century used this tool in long 
term eradication programs for diseases like brucellosis and 
tuberculosis. While certainly not the modern, standardized system we 
envision with NAIS, those systems did provide us with a solid base for 
traceback. However, the success of those programs led to a dramatic 
decline in the number of premises and animals registered in any 
identification program. This, coupled with the incompatibility of the 
different Federal and state systems, leaves us today without sufficient 
traceability in the U.S. livestock sector in the event of an animal 
health emergency.
    To achieve a level of animal traceability in the United States that 
meets the needs of our producers, USDA in 2003 began planning for a 
National Animal Identification System that would provide rapid animal 
tracking for prompt and effective disease containment. The efforts of 
the last 5 years have enabled us to build and link all the IT 
components of the system, standardize numbering systems so that we and 
our state partners have common frames of reference, and test and deploy 
strategies for increasing traceability in key sectors of the livestock 
industries. To date, USDA has obligated approximately $120 million for 
NAIS. However, while we have a strong infrastructure in place, 
participation in NAIS has been disappointing. Currently, just over 
510,000 premises are registered, which, as we mentioned before, equates 
to approximately 35 percent of the estimated number of our nation's 
livestock and poultry premises.
    While we have very high levels of traceability in the swine, 
poultry, and sheep sectors, we have much work to do in terms of 
traceability for cattle. In order for NAIS to be successful, we need a 
minimum critical mass of producers onboard, which we estimate would be 
70 percent of the animals in a specific species/sector that could be 
identified and traceable to their premises of origin. While 70 percent 
would provide some measure of traceability, I must emphasize that we 
really need to achieve higher participation rates, perhaps as high as 
90 percent, to ensure the benefits of the system.
    Various groups within the beef cattle industry have voiced a number 
of concerns with NAIS that we believe contribute to the industry's low 
participation rate, currently estimated at 25 percent. One of the 
greatest concerns we have heard is with the costs associated with a 
mandatory NAIS, particularly for small producers. Data from a benefit-
cost analysis conducted by Kansas State University show that annual 
estimated costs for implementing NAIS today throughout the livestock 
(food animal) industries could range from roughly $143 million for a 
bookend approach (the point of origin and last premises of livestock) 
with 90 percent participation, to $228 million for full pre-harvest 
traceability with 100 percent participation, with other options falling 
in between. Over 90 percent of the industry costs for such a system 
would be associated with the cattle sector, and equates to 
approximately $5.97 per animal. This is largely due to the individual 
animal identification required, whereas swine, sheep, goats, and 
poultry can often be sufficiently traced using premises and group lot 
identification.
    Concerns have also been raised by industry about whether producer 
information will be released and used against them, such as for food 
safety liability purposes. I want to emphasize that we take producer 
confidentiality very seriously. When developing NAIS, USDA 
intentionally limited the type and quantity of information collected 
and maintained by the Federal Government. We generally treat producer 
information as confidential, applying Freedom of Information Act 
exemptions as appropriate to protect personal information and 
confidential business information provided by NAIS participants. 
Furthermore, I would like to emphasize that we have not designed NAIS 
to be used for liability purposes, nor do we believe that it would be 
appropriate to use it in this manner. Should Congress determine that we 
need additional statutory assurances of confidentiality, we would be 
happy to work with you.
    Secretary Vilsack and I believe strongly that we must work 
collaboratively with industry to address their concerns and move 
forward with an effective NAIS--whether it be a mandatory system, or a 
system based on voluntary participation. In fact, on April 15, 2009, 
the Secretary held a roundtable with stakeholders representing the full 
spectrum of views on NAIS. This meeting kicked off a larger listening 
tour to gather feedback on concerns and, more important, to identify 
potential solutions to help USDA and the U.S. livestock sector move 
forward with the program. The Secretary's listening initiative will 
include substantial opportunities for stakeholders to share their 
thoughts on NAIS in person and in writing. Our goal is to work 
collaboratively to resolve their concerns and achieve the overall goal 
of enhanced animal traceability.
Conclusion
    As I stated at a hearing before the Subcommittee on Livestock, 
Dairy, and Poultry in March, it took an average of 199 days to complete 
27 recent bovine tuberculosis investigations. Can we really afford to 
spend 199 days tracing back animals if we have a FMD outbreak? I 
absolutely do not think we can, which is why I strongly believe that we 
need an effective National Animal Identification System in the United 
States.
    NAIS is a long-term investment in emergency preparedness and 
response, in the success of our ongoing disease control and eradication 
programs, in enhancing the competitiveness of our livestock sector in 
international markets, and in advancing consumer confidence in our food 
supply. An effective NAIS will not only prepare us to respond to an 
outbreak of FMD, but also other foreign animal disease incursions, 
natural disasters, and agro-terrorism. We understand that NAIS 
implementation is not cheap. But when we compare this with the 
estimated billions of dollars in losses we would suffer from a FMD 
outbreak, the case, to me, for a robust NAIS is compelling. We must not 
be complacent because we have not had a FMD outbreak in recent times.
    Thank you very much for the opportunity to testify before you. I am 
happy to answer your questions.

    The Chairman. Thank you very much.
    Dr. Tom McGinn?

           STATEMENT OF THOMAS McGINN, D.V.M., CHIEF
          VETERINARIAN, OFFICE OF HEALTH AFFAIRS, U.S.
       DEPARTMENT OF HOMELAND SECURITY, WASHINGTON, D.C.

    Dr. McGinn. Good afternoon, Chairman Peterson, Chairman 
Thompson, Chairman Scott, Chairwoman Clarke, Ranking Members 
Neugebauer and Lungren and Members of the Subcommittees.
    Thank you for inviting me to testify before your 
Subcommittees today on the homeland security implications of 
catastrophic animal disease outbreaks and how a National Animal 
Identification System could mitigate the effects of such 
outbreaks.
    My name is Tom McGinn, and I serve as the Chief 
Veterinarian for the Department of Homeland Security. As Chief 
Veterinarian, I am responsible for advising the Secretary, the 
Chief Medical Officer, and Department officials on food, 
agricultural, and veterinary issues.
    Prior to my work at DHS, I served as the Assistant State 
Veterinarian and the Director of Emergency Programs for North 
Carolina.
    And later in this testimony, I have been asked to present 
slides on how North Carolina utilized its animal identification 
system during past incidents.
    At DHS, we work side by side with our partners. We 
coordinate Federal resources to protect the nation's food, 
agriculture, human, and animal health in the face of all-
hazards as a central tenet of the DHS mission.
    DHS does not duplicate or replace the efforts of other 
Federal agencies that focus on food and agricultural security 
and defense. Rather, DHS has multiple successful partnerships 
with the U.S. Department of Agriculture and others that include 
infrastructure and border protection, intelligence research, 
education, and national preparedness and response.
    For example, USDA is one of several key members, and a 
vital contributor, to the National Biosurveillance Integration 
Center, which our office oversees. The partnership, through 
NBIC, allows us to take pieces of information from DHS, USDA 
and other Federal partners and put them together to determine 
what, if anything, poses a problem to the nation's food and 
agriculture.
    Past experiences illustrate that a single point of failure 
during an incident, such as a levee breaking, has vast 
consequences that may turn an incident into a catastrophe.
    A number of disease and emergency management processes can 
be a single point of failure during an intentional foot-and-
mouth disease outbreak, infecting upwards of 30 states.
    For disease management, the points of failure include: 
surveillance, tracing, quarantining, testing, removal of 
infection, and decontamination.
    For emergency management, the points of failure include: 
rapid assessment, planning, response, and recovery.
    All the examples I have just mentioned represent single 
points of failure that can be mitigated by an effective 
National Animal Identification System.
    The implementing of an effective National Animal 
Identification System poses many challenges. The first 
challenge is the need for significant compliance and 
participation in the system. At the current participation 
level, it could take months to locate exposed animals, 
increasing the spread of disease through the nation.
    The second challenge is the type of information that will 
be collected and how it will be protected. We support USDA's 
efforts to address the private sector's concerns.
    The third challenge is determining what information needs 
to be provided to state and Federal officials. Currently, there 
are numerous databases in both the public and private sector. 
Rapid and effective data integration, and retrieval and 
analysis cannot wait until an incident is underway. We must 
address this now.
    Numerous studies and recent testimonies affirmed that, 
based on today's information management, we would not be able 
to get in front of an outbreak given the speed of commerce and 
disease spread.
    During the March 11th hearing before the House Agricultural 
Subcommittee, Chairman Scott, you stated, ``We are far past the 
time for this system to be fully up and running. Our food 
safety system needs to be protected now, not somewhere down the 
road in the future.''
    USDA testified that the current National Animal 
Identification System is ineffective to address a catastrophic 
incident. DHS supports USDA in their reinvigoration of this 
process.
    An effective National Animal Identification System supports 
homeland security efforts to: first, agree on the potential 
single points of failure during an agricultural catastrophic 
incident; second, identify our current national and state 
baseline capabilities to address these points of failure; and, 
third, routine exercise of these essential capabilities, 
including the development of an improvement timeline and 
implement measured goals.
    I was asked to present a few slides that demonstrate the 
benefits of an animal identification system implemented during 
my time in North Carolina. My background includes farming. 
Before I went to veterinary school, I worked on a dairy, I was 
a herdsman in a second dairy, and I managed a 150 cow/calf-beef 
operation.
    I spent 20 years in North Carolina in disease and emergency 
management, including development of an animal identification 
system. This slide, Slide 1, depicts 15,000 premises in the 
system by 1992, 15,000 premises by 1992. This animal 
identification system linked data from laboratories, farms, 
movements, floods, soils--and emergency management into 
hundreds of fields of data.
    Most of the data was collected during disease control and 
eradication programs. The data was housed in a state government 
program that was connected to private databases. The data was 
protected in 1992 by legislation which dictated that the 
information would be shared only for animal health reasons.
    Establishing an animal identification system is doable, and 
identification should be a part of every disease program. 
Waiting for a catastrophic disease outbreak to give us the 
impetus to collect the data is too late.
    This slide, Slide 2, represents the movement of animals 
from North Carolina to 27 other states and countries. Three 
thousand swine moved out of North Carolina every day. Kansas 
moves 50,000 head of cattle each day.
    Imagine what this map would look like if it contained 
movement data from all 50 states. Farmers in California supply 
food for New York residents and vice versa. We cannot stop the 
movement and continue to feed our nation.
    An effective identification system would facilitate the 
continued movement of uninfected national herds, and facilitate 
the viability of the critical infrastructure through a national 
emergency.
    This slide, Slide 3, depicts a single FMD case represented 
by the single yellow dot in the center of this Scotland County 
map. This FMD case is surrounded by a 6, 15, and 20 mile zone. 
Poultry farms are depicted with blue dots, swine farms with red 
dots, and dairies with green dots.
    Imagine trying to trace and communicate with the 900 swine 
farms and the 570 poultry farms in these zones on the day of an 
outbreak. Imagine this same situation in many states, and then 
imagine that it is not just one farm in each of these states, 
but hundreds to thousands of farms. This is a catastrophe.
    Crimson Sky, Slide 4, was a 2003 national exercise that 
depicted the potential spread of foreign animal or FMD 
originating in five strategic locations represented by the red 
dots on this simulation. There is an evolving time clock in the 
lower left corner.
    If a stop movement was to occur within 8 days, it would 
still be estimated that 23 million animals would be lost in 
approximately 30 states. This is thousands to hundreds of 
thousands of premises that would need to be traced and managed.
    Deploying individuals to obtain each premises' information 
at the time of a catastrophic outbreak is beyond the resources 
of animal health officials. This model used actual state 
movement data depicted by these arrows.
    This is a single point of failure, when we know that USDA 
exhausted its workforce and utilized another 1,000 
veterinarians to manage the three-state Exotic Newcastle 
Disease outbreak in 2003. Imagine the challenge of tracing, 
surveillance, testing, movements, new contamination, and 
disposal, and how to get emergency management engaged to 
maximize their assistance to resource constrained health 
officials.
    Animal identification is both a homeland security and 
agricultural concern.
    North Carolina produced this circle letter, Slide 5, to 
provide graphic information and analysis to producers in 
disease programs. When a new positive case is represented in 
the center here, was diagnosed in the laboratory, not only was 
the infected premises contacted within minutes to hours--within 
minutes to hours--but all farms within the circle were notified 
with the same information during the same timeframe.
    This was possible because the samples were geocoded with 
premise information. Notification originally occurred in the 
start of this program by phone, then by fax, and then, as 
technology progressed, it was in protected databases on the 
Web.
    This is the speed of information integration, analysis and 
communication required to contain a rapidly spreading disease. 
Producers want to be a part of this database because the 
information provided during an outbreak informs them on 
enhanced biosecurity. The state uses the aggregated data to 
effectively use limited resources and accurately communicate 
risk to other states.
    While dealing with the catastrophic FMD scenario, in which 
hundreds to thousands of herds are being traced, the ability to 
rapidly communicate with producers to manage surveillance, 
tracing and testing prior to animal movements cannot be done 
without this data.
    This slide, Slide 6, depicts--excuse me, this slide depicts 
quarantined farms as small red triangles and non-quarantined 
farms as small green triangles. The farms' circulating the 
virus have a yellow or pink halo around them.
    The other light blue circle identifies the inside area that 
vaccination for the disease occurs around virus-circulating 
farms. Targeted vaccine reduces government and producer costs. 
Without this system in place at a time of virus circulation, we 
would not have been able to rapidly analyze where to put the 
ring vaccination zone. That could or would be an essential 
component of a widespread FMD incident.
    My last slide, Slide 7, details two maps of critical 
infrastructure, including animal production data around a 
nuclear power plant and a state zoo. The nuclear incident map 
depicts a 50 mile ingestion pathway with an--indicating human 
and animal populations and critical infrastructure at risk.
    Such an incident needs readily available information about 
all critical infrastructures and systems in the area. The state 
zoo has its own critical concerns. Eleven of the last global 
emerging diseases originated from animals. If such a disease 
comes into our country, via humans or animals, and is diagnosed 
near or at the zoo, it is essential to protect the human and 
animal populations both at the zoo and within the surrounding 
area.
    This slide could just as easily depict chemical spills, 
industrial or forest fires, droughts, or snow storms, all-
hazards. However, the conclusion remains the same: It is 
essential to have protected data prior to an incident in order 
to prepare, plan and response your cover effectively.
    In the State of North Carolina, agriculture is the number-
one revenue producer. Agriculture is a $1.3 trillion national 
critical infrastructure. We cannot afford to lose our nation's 
farmers to unmitigated disasters when solutions are available.
    Thank you for the opportunity to discuss agricultural and 
homeland security issues with you today. And I am happy to take 
any questions.
    [The prepared statement of Dr. McGinn follows:]

Prepared Statement of Thomas McGinn, D.V.M., Chief Veterinarian, Office 
 of Health Affairs, U.S. Department of Homeland Security, Washington, 
                                  D.C.
    Good afternoon, Chairman Scott, Chairwoman Clarke, Ranking Members 
Neugebauer and Lungren, and Members of the Subcommittees. Thank you for 
inviting me to testify before your Subcommittees today to discuss the 
homeland security implications of catastrophic animal disease outbreaks 
and how a National Animal Identification System could mitigate the 
effects of such outbreaks.
I. Introduction
    My name is Tom McGinn and I serve as the Chief Veterinarian for the 
Department of Homeland Security (DHS). As Chief Veterinarian, I am 
responsible for advising the Secretary of Homeland Security, the Chief 
Medical Officer (CMO), and Departmental officials on food, agriculture, 
and veterinary issues. My office, which sits within the Office of 
Health Affairs (OHA), works collaboratively across the interagency and 
with state, local, tribal and private sector partners to further DHS's 
mission to protect the nation's critical infrastructure relating to 
food, agriculture, and veterinary resources.
    Prior to my work at DHS/OHA, I served as the Assistant State 
Veterinarian and Director of Emergency Programs for North Carolina. I 
led efforts to establish a state-wide animal identification/information 
system that was used to provide critical disease control information in 
the face of catastrophic incidents.
II. Why is DHS at the table to discuss a National Animal Identification 
        System?
    When most Americans think about threats to homeland security, they 
think of nuclear explosions, bombings, or similar threats. Few would 
point to animal disease outbreak as a homeland security threat.
    Those of us in the agricultural field know better. The effects of a 
major animal disease outbreak, such as foot-and-mouth disease (FMD), 
would extend well beyond the nation's farm economy. A disease outbreak 
could halt domestic commerce, hinder international trade, and threaten 
the nation's food supply. It would have cascading effects and 
eventually impact every sector of our society, from food production to 
our financial system. Today, we are facing the threat of a novel 2009-
H1N1 influenza outbreak. It has already begun to impact U.S. pork 
trade, even though there is currently no evidence to suggest that this 
virus has been found in pork in the United States, and consuming pork 
has not been associated with human illness caused by this virus.
    This is why DHS is at the table--animal disease outbreak can be a 
far-reaching homeland security issue that requires DHS coordination to 
ensure that the full resources of the Federal Government are brought to 
bear to tackle this challenge.
III. DHS's Role in Agro-Security and Food Safety
    Protecting the nation's food, agriculture, human and animal health 
in the face of all hazards is a central tenet of the DHS mission. DHS 
does not duplicate or replace the efforts of other Federal agencies 
that focus on food and agricultural security and defense on a daily 
basis. Rather, DHS recognizes that catastrophic incidents affect the 
fabric of the nation, all parts of our economy, and international 
relations. DHS works to mitigate the consequences associated with 
catastrophic incidents and coordinates and integrates Federal assets to 
prevent, protect against, prepare for, respond to, and recover from 
incidents.
    Homeland Security Presidential Directive 9: Defense of United 
States Agriculture and Food (HSPD-9), establishes DHS as the 
coordinator of all Federal efforts to protect agriculture and food 
critical infrastructure and key resources. Limiting the spread of 
disease by restricting the movement of infected and exposed animals is 
essential to mitigating the impacts of a disease outbreak. DHS, through 
OHA, continues to work with other agencies to trace, monitor, and track 
outbreaks; a robust animal identification system would facilitate and 
support multiple aspects of animal health emergency preparedness and 
response serving as a tool to assist planners, responders, and 
modelers.
IV. The Threat and Why a System Is Necessary
    The Federal Government has developed a number of exercises and 
scenarios to understand and mitigate the consequences that a 
catastrophic animal disease outbreak would have on the nation's 
critical infrastructure and key resources. In 2003, the Crimson Sky 
exercise was held to examine the impacts of FMD and how it could 
potentially spread through the domestic livestock population. 
Participants included Federal, state, local, tribal and private sector 
stakeholders. The exercise demonstrated that an intentional 
introduction of FMD could rapidly infect livestock in 30 states in a 
relatively short time-frame. Early in an incident, the ability to 
recognize the total impact, whether it is a local event or a 
catastrophic incident, is critical to mitigating effects. During a 
disease outbreak in the animal population, food and agriculture 
products will have to continue to enter the marketplace to ensure that 
the nation has an adequate food supply. A complete database with the 
capability to identify and track the movement of the infected and 
exposed animal population will support decision-makers' efforts to 
respond, limit the spread of the disease, and ensure unaffected animals 
remain isolated from the infected and exposed animal population.
V. National Animal Identification System
    In 2004, USDA announced it would begin the implementation of an 
animal identification system, referred to as the National Animal 
Identification System (NAIS). We applaud USDA, as well as state, local, 
tribal, and private sector entities, for their efforts to date to 
implement NAIS. USDA has developed the infrastructure to replace the 
multiple disparate systems used over the years and put in place data 
standards that are imperative to achieve compatibility of information 
systems across state and Federal databases. USDA has estimated that of 
the 1.4 million livestock farms in the nation, over 510,000 animal 
premises have been registered in NAIS. Given this level of 
participation, if FMD was introduced into the domestic livestock 
population today, we could use NAIS to obtain situational awareness but 
we would be limited in determining which animals may have been exposed 
or infected with the disease, potentially limiting our ability to 
contain it. From DHS's perspective, NAIS will be helpful during 
incidents supporting multiple aspects of animal health emergency 
preparedness and response.
VI. What DHS Needs From an Animal Identification System/Homeland 
        Security Benefits of an Animal Identification System
    The 15 National Planning Scenarios (NPS) are tools that provide the 
nation guidance in planning for terrorist attacks, natural disasters, 
and other man-made events (FMD is one of the 15 NPS). Past experiences 
have illustrated that a single failure during a disaster has vast 
consequences that may turn an incident into a catastrophe. During a 
disease incident that affects the domestic livestock population, a 
National Animal Identification System would be an extremely helpful 
tool to trace the spread of the incident through the animal population. 
During an outbreak, the inability to rapidly identify infected and non-
infected animals, their premises, and the animals they came into 
contact with during transport could become a single point of failure.
    During Hurricane Katrina in 2005, the breaking of the levees was 
the single point of failure. Their failure had significant cascading 
consequences to all response and recovery efforts. The inability to 
rapidly and completely identify infected and exposed animals, their 
premises, where they move to and from, and what animals they come into 
contact with could become a single point of failure in controlling an 
animal disease outbreak. This inability could also result in a number 
of other failures such as: the inability to adequately prepare, 
mitigate, surge epidemiology and lab needs, assess risk, conduct 
ongoing permitting and transportation of the negative herd, 
countermeasure management, disposal, and decontamination efforts.
    An animal identification system will support five critical 
emergency management functions including: adequate preparedness, rapid 
assessment, effective planning, immediate emergency management surge, 
and viable recovery.
    Adequate Preparedness: There are risk mitigating resources that are 
in place to protect homes and businesses that are determined by the 
size and location of these critical assets. An effective animal 
identification system will provide similar risk mitigating strategies 
to adequately plan, build, and maintain an animal health system that 
has response and lab capability sized to protect critical assets. 
Developing these risk mitigating strategies is dependent on knowing 
where critical assets are located and an effective National Animal 
Identification System would provide such information.
    Rapid Assessment: Early on in a FMD incident, the ability to 
recognize the number of states, herds, animals and meat production and 
transportation facilities that are affected by the incident is 
essential to ensure continued surveillance and operational response. 
This initial assessment must be accurate and quick, since responders 
will determine emergency management needs, such as logistics, 
operations, financial requirements, and administration. The rapid 
assessment is also used to develop the communication and containment 
strategy that is essential to an effective outcome. Attribution is a 
key component of the rapid assessment. In an incident that is 
intentional, and especially one the can involve repeated attacks 
(reload), attribution is an essential component of the forensic 
epidemiology needed to protect assets, reduce national fear, and 
identify the party responsible for an intentional contamination or 
infection. An effective National Animal Identification System will 
enhance our ability to effectively respond to the homeland security 
implications of such an event.
    Effective Planning: The ability to test an animal or a farm to 
determine its disease status, return these results to the producer, 
analyze the results, and communicate risk reducing strategies during a 
animal disease incident is critical to the effective containment of the 
incident. Premises information layered with test information, flooding 
information, soil information, and access to resources are all examples 
of how a near real-time information system supports planning and 
operations efforts. How much vaccine is needed, where to place control 
zones and monitor movements, and how many and what types of human and 
equipment resources are needed can all be determined quickly and at a 
speed that provides emergency management the ability to provide support 
to contain the spread of an animal disease.
    Immediate Emergency Management Surge: The ability to rapidly 
mobilize resources during a biological incident requires full 
situational knowledge. Such information can come from a National Animal 
Identification System. The need to identify the impact zone and all 
components therein determines the pace at which an animal disease will 
spread. How much, what type and where epidemiology, lab testing, 
vaccination, biological security enhancement, decontamination and 
disposal will be needed is determined by knowing details of the 
magnitude of the disease outbreak. The required human resources and 
concurrent logistical support for permitting, disease quarantine 
boundary controls etc., are essential to an effective planning and 
mobilization response. The ability to cooperatively utilize resources 
between agencies and the private sector depends on being able to 
provide clear guidance as to where the premises are and where the 
animals have moved during an outbreak.
    Viable Recovery: The ability to identify infected animals in a 
system can immediately determine the disease status of a premise and 
provide information on the risk associated with movement of animals. 
Once the location of the infected and exposed population is identified, 
the movement of unexposed animals can continue. Identifying the 
location of the outbreak will also rapidly determine at-risk premises 
and steps required to reduce potential exposure limiting the spread of 
the disease. Facilitating the movement of the negative herd(s) through 
rapid assessment of their status and the combined disease status of the 
area from which they originate greatly effects their ability to move 
animals in commerce.
    The five detailed critical emergency management functions are all 
important for an adequate and proper response during a disease outbreak 
in the animal population. There are a number of significant benefits to 
homeland security and such information could be integrated with other 
data to provide decision makers with a complete biological picture 
before, during, and after incidents. The Office of Health Affairs's 
National Biosurveillance Integration Center (NBIC) provides enhanced 
situational awareness to senior leaders and decision makers regarding 
natural disease outbreaks, accidental or intentional use of biological 
agents, and emergent biohazards that impact the bio-related domains of 
human health, animal, plant, food and water or that impact the 
infrastructure or key assets of the United States. NBIC integrates and 
analyzes information from over 350 open source and classified 
information feeds as well as information from twelve (12) participating 
Federal agencies (including agencies within DHS) to provide senior 
leaders and decision makers with an integrated biosurveillance common 
operating picture (BCOP). The 12 Federal agencies that participate in 
NBIC include the Departments of Agriculture, Health and Human Services, 
State, Interior, Defense, Commerce, Transportation, Justice, Veterans 
Affairs, Homeland Security, the United States Postal Service, and the 
Environmental Protection Agency. In coordination with our Federal 
partners, NBIC analysts use the information to complete a daily 
Situational Report. This report is provided to all participating 
agencies. USDA has been a formal NBIC participant since February 2007 
and is in the process of completing an Interagency Agreement with the 
Department to provide a full-time, on-site detailee to facilitate 
interagency coordination as well as development of NBIC biosurveillance 
integrative analytical capabilities. In the future, we expect that USDA 
will provide biosurveillance data to DHS during incidents that affect 
the animal population to ensure all appropriate biological data is 
presented in the BCOP.
VII. Challenges
    Implementing an effective National Animal Identification System is 
an important endeavor, but comes with many challenges. The first issue 
is the need to promote significant compliance and participation in an 
animal identification system. At the current participation level (which 
is approximately 30 percent), it could take months to identify and 
locate exposed animals, increasing the likely spread of the disease.
    The second issue that should be addressed is what information will 
be collected and how information will be protected. Knowing the 
location and type of animals in a given area and supporting a tracing 
capability will help determine the proper response to an outbreak. Once 
this information is collected in databases, protections must be in 
place to ensure that the data will be used for the intended purpose. We 
support USDA's efforts to address the concerns of private sector 
stakeholders.
    A third issue that should be addressed is what information is 
necessary to provide tracing capabilities to state and Federal animal 
health officials. During an outbreak, aggregate data would be used at 
all levels of government to inform the decisions to limit spread and 
contamination. The ability to trace a disease to its origin will enable 
decision-makers with the capability to determine the number of animals 
that could possibly be infected or exposed in a given area. This 
information would be critical during a disease outbreak in the animal 
population, such as FMD, due to the speed of contamination. A fast and 
accurate response will likely reduce the impact of the outbreak and 
keep it from becoming a catastrophic event. NAIS is voluntary and has a 
limited number of participants. Without a more comprehensive and 
complete system in place, we do not have adequate tracing capabilities.
VIII. DHS Supports USDA's Outreach to Stakeholders
    We support USDA's commitment to creating an animal identification 
system that incorporates and addresses state, local, tribal, and 
private sector stakeholders' needs and concerns. The development of an 
effective animal identification system must be a partnership between 
all users and participants. Some states have implemented their own 
identification systems. Working with the states that have adopted or 
mandated more stringent requirements for animal identification and 
incorporating collected data, to the greatest extent possible, into a 
National Animal Identification System is critical to having a complete 
and comprehensive system in place as soon as possible.
IX. Conclusion
    Based on the scenarios I have presented in this testimony, 
contagious disease can spread throughout the animal population quickly. 
Determining and identifying the location and type of animals in a given 
area and having an adequate tracing capability serve as the mechanism 
to limit the spread of a contagious disease. From a homeland security 
perspective, it is beneficial to have the highest participation rate 
possible in an identification system and any method used to encourage 
enrollment and participation would be beneficial. Thank you for the 
opportunity to discuss agriculture issues with you today. I would be 
happy to answer any questions that you may have.
                               Attachment

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  Thank you very much. Both of your testimonies have been very, very, 
  very beneficial, and we certainly appreciate you taking the time in 
    coming before us.Dr. McGinn, I will start the questions. Let me 
start with you. First of all, your slides with the information you just 
presented was very, very revealing, eye-opening, and presents the 
imminent--the danger we are in.
    I would like to ask you just a series of quick questions. First of 
all, Dr. McGinn, is this country--is our nation prepared for a highly 
contagious disease, whether it is a naturally occurring disease or 
intentionally introduced as an act of terrorism? If not, what do you 
believe needs to be done to ensure our preparedness for such an attack, 
an outbreak?
    Dr. McGinn. Well, as Dr. Clifford said, as it relates to foreign 
animal disease, a foot-and-mouth disease outbreak, we are not 
adequately prepared to address that with our animal identification 
system.
    Having said that, we have made incredible progress as a nation, 
over the last few years, in recognizing that these potential threats to 
the protection of our system are imminent. We have made progress both 
on the national level and in the protection of our borders, in the 
research that we are doing, the modeling that we are doing, and 
building of capabilities, and also at the state and local level, and in 
the private sector, in the biosecurity that they have put in place to 
enhance the protection of the food industry.
    Having said that, two key areas that could be effective in 
increasing that capability would be, first, the ability to measure, 
accurately measure, the capability at the state and local level.
    The state and local level is where the response is going to 
primarily take place. They have to have the capability to do this 
response. We need to be able to measure how much capability they have 
and then what it takes to advance what capability is necessary for them 
to respond.
    The second place would be also single points of failure, as I 
mentioned earlier. We have to be able to clearly agree upon these 
single points of failure, and then be able to understand where we 
measure those and actually build additional capability; whether we are 
talking about research, or we are talking about education, or actually 
the capability at the Federal level or at the state or local level.
    The Chairman. So the answer to the question is, we are not 
prepared.
    Dr. McGinn. We are better prepared, but we are not as prepared as 
we need to be if we were going to face this kind of situation.
    The Chairman. Dr. McGinn, I know you have mentioned in your 
statement why you are here today, but let me ask you, in your statement 
you said you are here to help in the event we have an animal disease 
occurrence. But there are others who have said that you are here today 
because you want to take jurisdiction away from the USDA, the 
Department of Agriculture, on this issue.
    Can you speak to this issue, please, and clear this up?
    Dr. McGinn. My mission is to protect the nation and protect freedom 
at the Department of Homeland Security. And, honestly, the food supply 
is critical. The food supply is critical to protection of our nation.
    Having said that, USDA has the technical lead, it has the authority 
to know what we need to do as it relates to food and agriculture. They 
have 150 years of experience.
    We are here to support that--their efforts and their expertise, 
similar to what you see with the current H1N1 flu situation. HHS is in 
the lead for human health; USDA is in the lead for animal health. DHS 
is in a position to coordinate the national response, as you have seen 
going forward.
    So in other words, there is no way that we are in any way, shape or 
form looking to change the jurisdiction. Actually, we are very happy to 
see these Committees working together to the common ends of protecting 
our food supply.
    The Chairman. Thank you.
    As we would see from the attendance of our Subcommittee, there is 
great interest on both sides of the aisle on this issue. I will forego 
any more questions at this time and yield to our Ranking Member, 
Representative Neugebauer.
    Mr. Neugebauer. Thank you, Mr. Chairman.
    Dr. Clifford, in the APHIS fact sheet associated with your benefit-
cost analysis, it states that one of the challenges or the limitations 
with the study was that the costs listed were probable and the benefits 
were potential. Isn't that kind of the whole crux of this issue, is 
that the uncertainty of what the benefits are now, and the unknown of 
what the costs are?
    Dr. Clifford. Congressman, yes, we have a lot of confidence in what 
the benefit-cost analysis said. Obviously, when you look at the benefit 
side of the study from the ten professors that worked on this 
particular issue from four universities, they used a lot of data and 
input on the benefits side of this.
    You know, we recognize that there are always ifs and buts when it 
comes to the benefits. For example, with H1N1 flu, right now, we have 
countries that are taking action, inappropriate actions with regards to 
our exports of pork. Those things always are a factor.
    But, from a standpoint of animal ID, without an effective 
traceability system in place, we would not be able to reopen markets as 
quickly.
    Mr. Neugebauer. Your benefit-cost analysis suggests that the 
traceability aspect of animal ID is a benefit because it can be used to 
shield producers from liability. But, doesn't the data that shields one 
producer from liability also make another producer have some liability; 
and what might be a benefit for one might be a liability to the other? 
I mean, how do you differentiate that when you look at those numbers?
    Dr. Clifford. I don't try to differentiate as far as that 
particular question. What I would say with regards to liability, we 
know that producers are very concerned about NAIS with regards to 
confidentiality, liability and the cost.
    And we recognize that, Secretary Vilsack recognizes that, and the 
Secretary is committed. He wants to have an effective system, and we 
are reaching out--he is reaching out, actually, to small farmers, small 
producers, and minority producers to try to come up with solutions to 
address all three of those issues.
    Mr. Neugebauer. You know, one of the things that is brought up is 
that, if the traceback capability is a valid benefit, then why is it 
when the Canadians had the BSE issue that, even though they had the 
ability to traceback, many markets continue to remain closed to the 
Canadians. And so they bore the cost, but they didn't realize a lot of 
benefit from that.
    Dr. Clifford. Actually, if you were to ask the Canadians, the 
Canadians would tell you that traceability with animal ID did help them 
reopen markets both in the Middle East and with Japan.
    Mr. Neugebauer. It didn't happen too much with Japan, though, did 
it?
    One of the things that, when you look at the analysis, it appears 
that a little segment of the industry takes a pretty heavy hit. I 
believe that the cost to the beef cattle industry is like--I think it 
is $200 million a year. Is that correct?
    Dr. Clifford. About 90 percent of the total cost is with the cattle 
sector.
    Mr. Neugebauer. And I believe that would make it about $200 
million.
    Dr. Clifford. It would depend upon the level of participation. With 
a bookend system, which is where animals are identified at the premises 
of origin and then that data is collected at the time of death--for 
cattle, the system at 90 percent participation would cost $140 million 
of the total cost of $143.5 million.
    For 100 percent participation, it would cost $165 million out of 
the total $169 million. So it is a substantial level of the cost. Most 
of that cost is directly associated with the tagging costs.
    Mr. Neugebauer. When was the last outbreak of hoof-and-mouth in 
this country?
    Dr. Clifford. It was in the 1920s.
    Mr. Neugebauer. When?
    Dr. Clifford. It was 1929.
    Mr. Neugebauer. And what was the probability that that could happen 
again, based on that history?
    Dr. Clifford. We are always trying to keep out foot-and-mouth 
disease, as we are with other foreign animal diseases at the same time. 
The probability still exists that these type of things can happen.
    For example, this country was free of Exotic Newcastle Disease. 
Just a very short while ago, we had an outbreak of Exotic Newcastle 
Disease in the State of California that was also found in additional 
states. It took us about a year to eradicate that disease from the U.S.
    The Chairman. The gentleman's time has expired.
    I now recognize the Chairwoman, Ms. Clarke, for 5 minutes.
    The Chairwoman. Thank you, Mr. Chairman.
    As we are seeing from the H1N1 influenza outbreaks, tracing disease 
transmission quickly has been crucial to the mitigation efforts. In the 
case of human beings, we have much more information available to us 
than with many animals, because we need to register over and over again 
with birth certificates, driver's licenses, passports, et cetera.
    Tracking documents are the ways of tracking movements, as well. 
Although this system is not perfect, it does provide information that 
is useful to help authorities when there are disease outbreaks. 
Obviously, this is not the case with animals, but they, too, become 
exposed to various diseases.
    When we do not know where they are, where they have been moving, 
how many there are, et cetera, we run the risk of more illness and 
deaths than would be the case if we had more information.
    And my question to you, Doctors, is, is pork safe to eat and 
handle?
    Dr. Clifford. Yes. I will answer that first. It absolutely is safe 
to eat and handle pork. Our Food Safety and Inspection Service conducts 
antemortem and postmortem inspection at our food facilities to look at 
these animals, but the fact is, H1N1, the current H1N1 virus, is not a 
food safety issue.
    All products, though, including both meat and poultry, should be 
safely handled and cooked properly.
    The Chairwoman. Well, thank you very much. I just wanted to get 
that out of the way.
    We know of a report where the virus was found in swine in Alberta, 
Canada, on an Alberta, Canada, farm. Using this very real example, 
under our currently designed system, how quickly could we track and 
trace swine?
    Dr. Clifford. Well, if the swine were moved from that operation, a 
NAIS system would give you the locations from where the animals left, 
which would be the premises of origin in Alberta, to other locations 
where they have been moved within Canada or other countries, for that 
matter.
    The Chairwoman. So we would be able to track it fairly simply?
    Dr. Clifford. Yes, especially on an electronic-based system. When 
we talk about 48 hour traceability, it is critically important, because 
of the speed of commerce and the way livestock move in our country.
    The Chairwoman. So if we had a major animal disease outbreak today, 
in your professional judgment, using the current NAIS infrastructure, 
how much time would it take to traceback cattle, swine and poultry?
    Dr. Clifford. For cattle, it depends upon the issue. But, if you 
have a disease--right now, like tuberculosis, we traced 27 cases of TB, 
and it took us 199 days. On average, it is 187 days to do that tracing.
    That is entirely too long. If you look at that for a disease like 
foot-and-mouth disease, it would be all over the country before you get 
it contained.
    The Chairwoman. How much faster could we track diseases if we had a 
comprehensive animal ID system in place?
    Dr. Clifford. Well, when you say a comprehensive system, if it is 
one that is based on the speed of commerce, that is electronically 
based, we believe we could trace those animals and have real-time 
information, if the information is in the database, within hours and 
then be getting information out to producers within a day or 2 of that 
notification, based on that system.
    So we could be tracing, and then we would have to--depending upon 
the situation of the animals--we would have to deploy personnel to 
those locations.
    The Chairwoman. My time is winding down, but I did want to ask one 
more question. How much time and money would it take for us to be able 
to identify and track down an animal illness outbreak within 24 hours?
    Dr. Clifford. It is going to depend upon the situation. There are a 
lot of variables there, a lot of variables.
    The Chairwoman. Well, I thank you, gentlemen, and I thank you both 
for your testimony. I am sure we will get back and ask some more 
questions.
    The Chairman. Thank you very much, Chairwoman Clarke.
    As you may know, we have just had a call for two votes. These will 
be the last votes of the day. What the chair's intention is, this is an 
extraordinarily important hearing, every Member is urged to please come 
back.
    What we propose to do, in the time allotted now, is to hear from 
Chairman Thompson and, if time permits, we will then move to Ranking 
Member Lungren. And then the chair will dismiss the Committee for a 
very short period of time. We will return and get to other questions.
    And, again, this is an extraordinarily important hearing, very, 
very timely. People of the country are very much interested in this. So 
I urge every Member to please return as soon as we vote.
    Chairman Thompson?
    Mr. Thompson. Thank you, Mr. Chairman. I appreciate your, again, 
holding this hearing.
    Dr. Clifford, I wanted to know whether our current system of 
mitigation and coordination are robust enough, in your mind, should 
something break out that we could in short order deal with it?
    Dr. Clifford. Chairman Thompson, as Dr. McGinn previously stated, 
we have made a lot of progress with regards to our preparedness. Areas 
that we have made progress include greater coordination with the 
states. We have deployed, across the nation, emergency coordinators 
that work both with the states, as well as with FEMA.
    We have a National Animal Health Laboratory Network that is 
throughout the U.S. that includes laboratories within almost every 
state, and, in fact, 38 of these laboratories can test for FMD virus.
    We have increased capacity for modeling. We have a national 
veterinary stockpile that has helped us better prepare.
    The fact is, while we say that, we can continue to do more. Our 
animal ID traceability is inadequate for a disaster such as foot-and-
mouth disease.
    Mr. Thompson. So we have done all this, and if we had to rate this 
on a scale of 1-10, 1 being low, 10 being high, in your professional 
opinion, where are we now?
    Dr. Clifford. Well, for all the other things I have mentioned, I 
would probably put us at about a 7-8. For animal ID, I would probably, 
for the cattle industry, rate it at a 1-2.
    For the pork industry, we have a higher degree of traceability 
because of the way they are managed, and the same with the poultry 
industry. So they would be probably, again, at that 6-7 level.
    Mr. Thompson. Dr. McGinn, on the security side of what we are 
talking about, what country in the world would you say has gotten it 
right with respect to what we are talking about now?
    Dr. McGinn. Chairman Thompson, there is not a country in the world 
that looks exactly like ours, in the terms of make-up of the 
production, the producers, and the government. But at the last hearing 
about animal identification, Australia and Canada both presented 
excellent programs, and we have a lot that we could learn from those 
programs.
    One of the things that Australia does that answers the Chairwoman's 
question, as well, is that they exercise that capability. Cowcatcher, 
they call them Cowcatcher Exercises, where they actually stress or they 
test the system. The last time, they put out 300 tags, and they wanted 
to see how much time it took them to actually do the tracing.
    So not only did they actually put this kind of a system in place, 
but they also exercised the system to see--to measure exactly what you 
are asking for, where are we on that 1-10 scale? And so they put 
together these kinds of exercises to do that kind of a----
    Mr. Thompson. So you are saying Australia----
    Dr. McGinn. Australia has some great examples. Canada has some 
great examples. Their systems are not exactly like ours, but we are not 
reinventing the wheel here, in terms of moving forward with this 
identification system.
    USDA has spent a lot of time working in their partnerships with 
these countries that have systems in place to take the best practices 
and bring them back home.
    Mr. Thompson. Dr. Clifford, on this data that we collect, whose 
responsibility is it to maintain this data so that it can't be boosted?
    Dr. Clifford. Mr. Chairman, there is actually a number of 
components to that. The premises identification numbers, as well as the 
animal identification numbers, are housed by states. And then the state 
would have access to those, as well as in a Federal database. So we 
have those, as well.
    The animal tracking component is where data would be collected for 
animals after they leave their premises of origin and to the point in 
which they would be slaughtered or die. That information on the animal 
tracking component would be kept in private systems or in a state 
system where we would only have access, if necessary, during an animal 
health event.
    So we have very little of the actual data within the Federal 
Government as far as the tracking and movement.
    Mr. Thompson. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. As I said, we have votes. We will pick up with Mr. 
Lungren when we return from voting. This panel is in recess for 15 
minutes. Thank you.
    [Recess.]
    The Chairman. The Subcommittee will come back to order. Thank you 
for your patience.
    And we will begin where we left off, with Mr. Lungren.
    Mr. Lungren. Thank you very much.
    Dr. Clifford, thank you much for your presentation and also for 
your service.
    I would take it from a little different perspective than the other 
panel or the other Committee. When I heard you say APHIS, it reminds me 
of the Automated Fingerprint Identification System that I dealt with a 
long time, so I have to understand when we are using these different 
words here--what they mean.
    And I also look at this from the perspective of the potential for 
terrorism. As I understand it, the introduction of an episode of foot-
and-mouth disease would not be that difficult from a technical 
standpoint. Is that correct?
    Dr. Clifford. Congressman, I am not sure I would totally indicate 
that it wouldn't be that difficult from a technical aspect. We know 
about the disease. We know what we need to do to control and eliminate 
the disease.
    Mr. Lungren. Well, let me put it this way: It is not out of the 
imagination that that could be what one would want to do if one wanted 
to cause some disruption in our food supply.
    Dr. Clifford. I am sorry. I misunderstood your question. Yes, that 
is certainly a possibility.
    Mr. Lungren. So I look at it from a standpoint of that potential. 
But at the same time, I look at the cattle industry, which has, I guess 
the least amount of participation, a voluntary identification program. 
And if I am a cattleman, I would look at it and I would say, ``What are 
the chances that my herd would be involved with that when we haven't 
had an outbreak of this since'' when----
    Dr. Clifford. It was in 1929.
    Mr. Lungren.--``the 1920s.'' And I have to calculate that from a 
standpoint of, what are the chances of that happening, number one? Of 
course, then you have to introduce the possibility of someone actually 
intentionally causing it, as opposed to what has happened over the last 
decades.
    But, second, then I would look at the benefit-cost analysis. And 
you were talking about other programs, and our other guests were 
talking about other programs. And you mentioned Australia and you 
mentioned Canada, as I recall.
    And yet I have been informed that we have gotten a bigger cut of 
the market in Japan than either of those two countries. Even after the 
closures that have occurred in the past in terms of--so, again, as 
someone who is from the cattle industry, I would say--not that I am, 
but, I mean, someone would say, ``Wait a second. We are already being 
able to introduce our beef into Japan in a better way or increasing way 
compared to Australia and Canada. And the argument that they have 
better systems than we do doesn't seem to dissuade the Japanese from 
the entry of our beef to the market.''
    So how do we try and quantify that? And how do we try and convince, 
for instance, the cattle industry that it is in their best interest to 
do this, either on a mandatory basis or at least more participation in 
terms of the voluntary side of things?
    Dr. Clifford. Well, Congressman, let me first start by responding 
in this way. I think there are multiple advantages to having an 
effective animal ID and traceability system in place, number one.
    And it is just not about an FMD outbreak. It is about animal health 
in general. It is about diseases that may emerge within our own 
populations. It is about other diseases that can be introduced.
    It enhances our ability to do effective surveillance and disease 
control and eradication. It will also reduce the economic cost of a 
disease outbreak by minimizing the spread of that disease. It does ease 
the market restriction component.
    And while I understand the issues around competitive advantage for 
markets, today----
    Mr. Lungren. Just making a profit.
    Dr. Clifford. I am sorry?
    Mr. Lungren. Or just trying to make a profit.
    Dr. Clifford. In trying to make a profit, and I understand that. I 
want them to make a profit. Because if they don't make a profit and we 
don't have effective animal health programs that producers can make a 
profit, you don't need me in my current position.
    So in coming from a farm background myself and having part of my 
family members still in farming, it is very important for me, as well.
    So from the competitive advantage side, right now, most countries 
are not saying, ``You have to have a traceability system that's 
holistic.'' However, we are starting to see those competitive 
advantages being used by countries like Australia and other countries 
in their trade, as well as the European Union starting to move in that 
direction, and requiring it.
    And I would say, within the next 5 years, it is going to move more 
and more in that direction. So, we are going to lose markets in the 
future if we don't have an effective traceability system. And in order 
for us to have an effective animal health system--other countries know 
that we are trailing them on this issue.
    Mr. Lungren. I have another question from the standpoint of 
homeland security. Oftentimes we come upon the question of, when we 
attempt to do certain things, the people that are affected by them are 
concerned about the misuse of the data, the misuse of the information 
that is obtained from them; either the government later on deciding 
they will use it for another purpose, or it goes to others that make 
them vulnerable from a competitive standpoint or a liability 
standpoint.
    What do we have to protect against that--I would ask both of you--
in this scenario?
    Dr. Clifford. Congressman, we have a long history of being very 
concerned in protecting producers' private information and private 
business information. We have had a long history in APHIS of protecting 
that information. Recently, we have had five FOIA requests for 
information on the current premises identification numbering system, as 
well as the animal identification numbering system. And based upon FOIA 
law, FOIA exemptions, we have used those exemptions to deny all five of 
those requests.
    Mr. Lungren. Was that information shared with DHS?
    Dr. Clifford. As far as which information?
    Mr. Lungren. The----
    Dr. Clifford. The FOIA request or the animal ID?
    Mr. Lungren. No, the animal ID.
    Dr. Clifford. No, sir, it is not--it is shared only with state and 
Federal animal health officials within USDA, the Federal level at 
APHIS, and with our state animal health officials.
    Mr. Lungren. So the National Biosurveillance Integration Center 
doesn't receive that information?
    Dr. Clifford. No, sir, but we are very much a part of that system. 
And we would provide them information on biosurveillance. We believe 
that the biosurveillance information that is needed there for everyone 
to adequately be able to monitor activities, to look for emerging 
disease issues, to look for possible threats, that is surveillance data 
and information that does not necessitate the specificity down to a 
premises or an animal. We do not feel that information is necessary in 
that database to do proper analysis.
    Mr. Lungren. So by that I would conclude that we ought not to be 
concerned about what procedures, or lack of procedures, DHS has with 
protecting that information, since they don't get it in the first 
place? Is that right?
    Dr. Clifford. That is correct.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    The Chairman. Dr. McGinn, let me ask you, and Dr. Clifford, just 
for the record, just so we can get this information out, how vulnerable 
is our food supply from an outbreak as a result of not having the 
animal ID?
    I guess what I am asking, the animal ID is basically designed to 
capture quickly the origination of the disease affecting the animal. To 
have our food supply--how long would we have for an outbreak before a 
product gets to a human, to the consumer, the consumer eats that and 
contracts the disease?
    Dr. Clifford. Well, Mr. Chairman, that is a pretty comprehensive 
question that you are asking, and it has a lot of pieces and parts to 
it. So, obviously, it depends upon, first, whether the issue and 
disease is a human health concern and a food safety concern.
    Foot-and-mouth disease is not a human health concern or a food 
safety concern, so it has to be specific to a disease that we are 
talking about. So----
    The Chairman. Mad cow disease wouldn't affect them?
    Dr. Clifford. Well, again, mad cow disease we would handle not 
through surveillance, but basically by removal of specified risk 
material. So if you are asking, how long does it take for animals to 
move from premises to slaughter and get into the food chain, it depends 
upon the particular species, but you are talking a matter of a few days 
to weeks, depending upon the product, from the time that it leaves the 
premises to the time it is slaughtered to the time it is consumed.
    The Chairman. Any difference on that, Dr. McGinn?
    Dr. McGinn. No, I would agree with Dr. Clifford on that analysis.
    The Chairman. Okay, well, I think, with that----
    Dr. Clifford. Mr. Chairman?
    The Chairman. Yes.
    Dr. Clifford. I would just like to add one thing, and it goes to 
the timing question. Without an effective animal ID system, if we have 
an introduction of foot-and-mouth disease, and we are delayed 1 week, a 
study completed by Ekboir in California indicated that with 18 percent 
of the premises initially infected, the premises at risk would increase 
from 18 percent to 90 percent affected.
    The Chairman. Okay. That is sort of where we need to try to get 
some definitive handle of the direct threat to our food supply, or the 
failure of not having an animal ID in place. We need to get a handle on 
that.
    We will now hear from Mr. Broun of Georgia--is he--oh, I am sorry. 
Mr. Goodlatte was here? I didn't see him come in. I looked down there 
and I knew Mr. Broun was here. My apologies to my present good friend 
and former Chairman.
    Mr. Goodlatte. And I am still a good friend. Thank you, Mr. 
Chairman. I appreciate the opportunity to speak to the witnesses, and I 
thank them for being here and for their testimony.
    No one, so far as I can tell, so far today has said anything about 
assuring the American public that there is little risk of contracting 
swine flu from eating pork. And I wonder if the two good doctors could 
tell us something about what those risks are in this country today 
right now.
    Dr. Clifford. Congressman, I will respond first, and if Dr. McGinn 
wants to add anything.
    First and foremost, this is not a food safety issue. You are not 
going to get H1N1, this novel virus, from eating pork. And as we 
indicated earlier, with all meat and poultry products, they should be 
handled properly and cooked properly.
    Mr. Goodlatte. And yet, notwithstanding that fact, which I know and 
I actually heard others with the Department make that statement, the 
price of pork has dropped, what, $5 a pound. It has just plummeted 
through the floor. It is a disaster for the American pork industry.
    I wonder if each of you could tell us what your respective 
Departments--Dr. McGinn, yours is responsible for keeping the animal-
borne diseases out of this country. And yours certainly is responsible 
for meat safety.
    And I fully concur with your analysis, Dr. Clifford, but I am not 
seeing the United States Government do a whole lot to help the 
industry, when you guys want to see increased government regulation, to 
help them out. I don't know that they are doing anything right, or 
wrong right now, and yet they are facing a dramatic decline in the 
price of their product because the American people aren't being told on 
a frequent, regular and aggressive basis that, as long as the pork is 
handled properly, they don't face any risk from contracting swine flu 
from that.
    They are far more likely to get it from the person sitting next to 
them than they are from anything they eat. And I wonder if you could 
explain to us why the government hasn't done more to be much, much more 
aggressive about avoiding--we have talked about potential losses to the 
beef industry if hoof and mouth disease were to get introduced in this 
country, but the pork industry right now is losing hundreds of 
millions, if not billions of dollars right now. What is being done to 
educate the public about that?
    Dr. Clifford. Congressman, I will go first. Secretary Vilsack has 
been very active in his message that pork is safe. And, in fact, he has 
also been a very stern supporter of changing the name from swine flu to 
novel H1N1.
    Also, I think WHO--we have reached out as a nation to WHO, to OIE, 
and FAO to encourage them to change the name. And, in fact, WHO has 
changed the name of this from swine flu to H1N1. That is in----
    Mr. Goodlatte. The media sure hasn't picked up on that, have they?
    Dr. Clifford. No, sir, nor has, as the news media changed the name 
of mad cow disease when it is really bovine spongiform encephalopathy. 
So once they kind of stick----
    Mr. Goodlatte. There is a lot of misinformation about how that is 
spread, too. I am sure, Dr. Clifford, you would agree with me when I 
say that all these countries that have closed off their markets to 
American beef cattle because we have had two cases of BSE found in 
cattle in the United States, are not using sound science to address 
that, are they?
    Dr. Clifford. They are not using sound science, no, sir. Nor are 
they using sound science when it comes to H1N1.
    Mr. Goodlatte. Well, I happen to believe that, while it is very 
important to be able to track animals--and if the Chairman allows me, I 
will ask a question, too, about that, even though my time is elapsing--
but it is also very, very important that the government agencies that 
are responsible for food safety and for securing our borders from 
things coming into our country do more than they have done to shame the 
news media into getting this right and to educate the public. It has 
been devastating to a lot of family farmers in this country, with what 
has occurred as a result of the misuse of a name and the failure to 
assure the public about the nature of this disease and how it is 
spread.
    I wonder if you would care to respond, Dr. McGinn.
    Dr. McGinn. I totally agree with you and just would add that 
Secretary Napolitano, in her first address to the nation on this issue, 
also said that pork was safe. So we have continued to repeat that 
message from Homeland Security, even though it is probably a message 
for USDA. And we appreciate the media guidance they have given us on 
how they would like us to communicate that.
    The pork industry is part of the critical infrastructure that is 
feeding this country. And so we are very concerned that the protection 
of that critical infrastructure be in place, because we don't want to 
find ourselves, in this country, in a situation where we are no longer 
able to maintain these critical infrastructures and growing our 
dependency on foreign food production to feed our people.
    Mr. Goodlatte. Thank you, Dr. McGinn.
    Mr. Chairman, I know that my time has expired. If you do another 
round, I might have a few questions about the animal ID system and 
where we stand with that today.
    The Chairman. We certainly will--might have another round, so we 
will look forward to your question on that.
    And, as you can see, this issue of the mislabeling of the swine flu 
has really gotten the interest of Congress and on this Committee. Ms. 
Clarke talked about it earlier, now with Mr. Goodlatte.
    I just want to put my two-cents into this, answer this one 
question. Has the Agriculture Department or the head of the Agriculture 
Department or the Homeland Security sent any missive, any official 
communications to the media to officially ask them not to refer to this 
as swine flu?
    Dr. Clifford. I would have to check on that for the record to see 
if there has been an actual communication. But there certainly has been 
a lot of communication to the media indicating our concern.
    Secretary Vilsack has been and continues to be actively engaged in 
countering misperceptions connected to the H1N1 virus. He has pointedly 
stressed the need in all his interviews and discussions with the media, 
as well as with trading partners, to use the accurate term 2009-H1N1 
influenza and that using the term swine flu is inaccurate and 
misleading.
    The Chairman. I think that might be helpful to indicate 
specifically why we have not. I mean, you may take that back from the 
Committee that--we are doing it on our own, and it might be good for 
USDA and Homeland Security to do.
    It has been devastating to the pork industry. There is not much we 
can do to make up. We can certainly stop it from here and educate and 
disseminate the proper information to the public so that we can prevent 
this rush to labeling in the future, should we, unfortunately, have 
such an another occurrence, which might be relative to that.
    Let me now turn to Mr. Minnick. I think you are next. Did you have 
any questions, Mr. Minnick? Are we set?
    All right. Let's see if we cannot go to a second round quickly, for 
those who may want to ask any specific questions.
    And I want to start with mine. I want to try to get into the issue 
of re-routing and what steps are being taken to make sure that 
transportation is protected from going into, in fact, impacted areas 
and into the workplace. Do we have a re-routing system in place for 
transportation of the product?
    Dr. Clifford. Actually, Mr. Chairman, what we have been doing is 
working closely with the private sector and other associated groups to 
look at continuity of operations and working with them to develop those 
strategies.
    One particular area we have been working on a lot is on the avian 
side with regards to poultry and poultry products, and especially eggs; 
in an event such as a catastrophic event or a highly pathogenic avian 
influenza or Exotic Newcastle Disease event that would prohibit 
movement.
    So this is an area we are working on. We have a lot of work left to 
do, but it is a critical component. And what we have done is reach out 
to the industry. We have worked with the dairy industry about the 
movement of milk products, how to move those products safely and 
mitigate those risks in order for product to move and move safely.
    The fact is, if you shut down the movement of these products--for 
example--in a foot-and-mouth disease outbreak, in a lot of these cases 
there is going to be a lot of issues of people going out of business if 
you can't safely reopen and re-route those products that are safe to 
move.
    The Chairman. Dr. McGinn, do you have anything to add to this?
    Dr. McGinn. Yes, Mr. Chairman. Producers have the ability to re-
route if they know where a particular infectious agent is. And so, 
again, the national animal will help us--identification system will 
help USDA be able to indicate the corridors that would be at decreased 
risk if we did have a situation like we have shown in some of these 
things.
    Transportation is a method by which disease is spread, so we have 
to look very carefully at that. And we are working with USDA on a 
project where we are actually looking at transportation and the 
different corridors and how they impact the spread of the disease.
    Having said that, transportation is also interlinked into every 
aspect of our food system, from the animals all the way through 
processing to the restaurants, and into our homes. And so part of what 
we have to be able to do is understand that there could be an issue 
with transportation, but then there could also be an issue--it could 
create a problem for agriculture or food, as well.
    So those are the main sorts of critical infrastructures, and the 
ability to deal with it in that way is critical.
    The Chairman. Let me move to another area, right quick. First of 
all, you both support mandatory animal ID, correct?
    Dr. Clifford. I support an effective animal ID system. And the 
Department hasn't made a decision yet on mandatory, and we would not do 
so until we have reached out again, over the next couple of months we 
have developed listening sessions to reach out to small farmers, 
producers, to be able to see if we can come up with ideas and 
strategies to alleviate some of the concerns around cost, liability and 
confidentiality.
    The Chairman. But doesn't that put our food supply system in great 
jeopardy not to have it mandatory, if you let--I mean, just looking at 
it, if this farm down the road has it, the other one doesn't, it 
doesn't matter if he has it or not. It can only be effective--wouldn't 
it be--if we have all of the system mandatory?
    Dr. Clifford. If you could have more producer participation, you 
can have a very effective system without being mandatory if you have a 
high level of producer participation.
    The Chairman. Suppose there is one that doesn't have it. I mean, 
doesn't that jeopardize the others that do? I mean, it just takes one.
    Dr. Clifford. Well, in a mandatory system, Mr. Chairman, the 
likelihood of having 100 percent participation is still not very 
likely, because there is always cause for making sure that people abide 
by those rules.
    The Chairman. All right. Let me just get right--the last one of my 
questions is--apparently, the opposition to it being mandatory, a big 
part of that is cost, correct?
    Dr. Clifford. Yes, sir, that----
    The Chairman. From the information I have, the total cost for 
implementing NAIS in the cattle sector, as described in this study, is 
$179 million annually and that is a 90 percent participation level. 
Although this is significant, the cost is less than 0.5 percent of the 
retail value of U.S. beef products.
    Wouldn't you think that the safety of the food chain is certainly 
worth 0.5 percent in putting a mandatory program in place?
    Dr. Clifford. I think having an effective system is needed in this 
country, and so does Secretary Vilsack. The cost factor--while that is 
a large number, I agree with you, as it is compared to the total value 
of the product in the market. From a small producer standpoint, there 
are a lot of concerns for some of these small producers with the 
additional cost. So I think----
    The Chairman. Is it that you all at USDA have not ruled out it 
being mandatory? Are you just waiting to get further information about 
the impact on the small farmers?
    Dr. Clifford. Yes, sir.
    The Chairman. All right.
    Mr. Neugebauer?
    Mr. Neugebauer. Yes, and, Mr. Chairman, I was going to suggest 
the--I ask unanimous consent that--there is a number of questions we 
are probably not going to have time to get to, and that Members be 
allowed to submit questions to this panel and their responses be made a 
part of the permanent record.
    And with that, I think we still are in the initial round for Dr. 
Broun, so I will yield to him.
    The Chairman. You got here first, Mr. Broun. You had stepped out 
and then--and to your question, we would be glad to do that, no 
question about it.
    Mr. Broun?
    Mr. Broun. Thank you, Mr. Chairman.
    When I was farming--I have had dairy cattle. I have had--and as a 
producer, I was competing in an international market with farmers all 
over the world that had government subsidies for their crops and for 
their agricultural products.
    And I believe in free and fair trade. And, one of the greatest 
hindrances to fair trade in America is government regulation.
    I also believe very strongly that the nation cannot feed itself, 
cannot clothe itself, who is not energy independent, or we are not a 
secure nation. And that is where we are today.
    And as we proceed down this road to more regulation on the 
producers, I am just very concerned that not far off down the road, we 
are going to be in a position where it is not going to make any 
difference, because we are not going to have any animals to identify in 
this country.
    So I have a great concern about the cost of this being placed on a 
producer.
    And, Mr. Chairman, I understand your concern about animal 
identification. I am not sure that that is going to really solve the 
problems that we face from a national security perspective. And if we 
cannot feed ourselves, we are certainly not secure as a nation, because 
we are held hostage by whoever those producers are and also about 
getting those products here to feed ourselves.
    So I am sorry I haven't been here for your whole testimony, but I 
would like for you all both to reassure me that there is not going to 
be extra burdens placed upon producers by increasing the identification 
of animals. And particularly it seems that there is a tremendous push 
towards mandatory identification.
    Please tell me how I can be assured, as somebody who used to farm--
I wish I could go back, but I can't afford to now--how those producers 
in Georgia where I live are going to be protected from having more 
regulatory burdens placed on them to make them less competitive in the 
international market.
    Both of you. One dive in, please.
    Dr. Clifford. I will go first, Congressman. I think that is a very 
important point. It is one that I very much care about, as well, 
because we care about the producers in this country. We want our 
producers to be competitive, and we want them to survive, both large 
and small.
    So, this is one of the reasons why Secretary Vilsack wants to reach 
out to the small farmers in the U.S. and make sure that he has heard 
from them, as well as others, to see if we can find solutions to some 
of these concerns.
    Now, I understand, looking at these costs, that these can look 
pretty dramatic, especially to the producer out there that is trying to 
make a living. The tag cost for an RFID can range from anywhere to $3 
to $5, depending upon the size of that herd.
    However, as participation increases, the cost decreases. It is just 
like when a new technology comes in, and we all are buying the newest 
fad, oftentimes in the beginning, they are very expensive. And as we go 
on, those costs decrease.
    Some of the things we are looking at have a number of factors. One 
thing we could consider is cost-sharing initially to help those 
producers get started.
    A lot of producers today, as part of their management, use animal 
identification. The problem is, is that the animal ID that they use is 
not unique. We have no way to trace that using that ID back to the 
premises of origin and through the commercial chain that they are 
moving through.
    So we are looking at different ways of doing that. Also, we are 
proposing that, while we need a system of full traceability, that we 
begin with a bookend approach in order to implement the system first--
from the bookend approach--and move it in that direction before we move 
to a full traceability system.
    Mr. Broun. I certainly hope you do. My time is about up, and so I 
just wanted to make a statement that I am very concerned about--most of 
these guys and gals are just eking out a living and just barely making 
ends meet.
    And they work from dawn to--from can to can't. And adding an extra 
burden on them is going to be a tremendous burden that is going to make 
it very difficult for us to continue to produce food in this country.
    Mr. Chairman, I yield back.
    The Chairman. I thank you very much, Mr. Broun.
    Chairwoman Clarke, you are recognized for a second round.
    The Chairwoman. Thank you very much, Mr. Chairman.
    I have quite a few questions, gentlemen, so if you could just keep 
your comments as crisp and as concise as possible, that would be 
helpful.
    Dr. Clifford, how could the NAIS help in tracebacks on animal or 
zoonotic disease?
    And, Dr. McGinn, what would this tool mean to DHS?
    Dr. Clifford. This tool is critical in traceability. When an animal 
is found to be infected with a particular disease, it is just not that 
animal you are concerned about. It is that animal plus any other 
animals that that animal has been in contact with, when it was either 
incubating or became clinical for that disease.
    And another way you can effectively do that, especially in points 
of concentration, is to know when it was there, the identity of that 
animal, as well as the identity of the other animals and where they are 
going.
    The Chairwoman. Dr. McGinn?
    Dr. McGinn. Just to add to what Dr. Clifford said, it is essential 
to be able to trace in order to be able to find herds that are infected 
that can continue to spread the disease.
    More and more herds, that can't be found, continue to spread the 
disease, that is how you get a catastrophic situation like we have 
described, because you don't have the ability to go out there at the 
time and actually find these herds. You don't have the resources in 
place to actually--to do that.
    And so what turns out to be an incident can then progress into 
something that is catastrophic.
    The Chairwoman. So let me just add--how would the USDA and DHS 
respond in a case where there was an animal or zoonotic disease? How 
would your agencies respond?
    Dr. Clifford. Well, it would depend upon the specific disease and 
whether we can be effective in that response or not. So, for example, 
West Nile virus entered this country. We were all aware of that 
particular virus. We assisted in that effort.
    It was mainly related to public health, but on the animal health 
side, we helped develop a vaccine and get that vaccine approved for our 
equine species. So it really is disease-dependent.
    The Chairwoman. Okay.
    Dr. Clifford. But speaking of that, and with regards to zoonotic 
diseases--and this recent H1N1, as well as the avian H5N1, are perfect 
examples of why we need comprehensive surveillance systems. We need to 
be able to monitor and find these emerging diseases and get in front of 
them before they become a real issue or a real problem.
    The Chairwoman. Well, could you please explain the interaction 
between the APHIS, the FSIS, and DHS that is at the borders, and 
specifically with regards to imported livestock, as it comes through 
the border?
    Dr. Clifford. As far as our livestock, as it passes through the 
border, it will be directed to Animal and Plant Health Inspection 
Service employees. These are veterinarians and animal health 
technicians that look at those particular live animals and ensure that 
they are healthy.
    All animals, with the exception of animals that cross directly from 
Mexico and Canada, that enter this country go through one of our 
quarantine facilities.
    The Chairwoman. And how long are they held in quarantine?
    Dr. Clifford. It depends upon the species and where they came from 
and the diseases of concern. For example, we do not allow live animals 
to be imported from a foot-and-mouth disease-infected country.
    The Chairwoman. Okay. Does the USDA and DHS have responsibility--
excuse me, we know that you do have--you both have responsibility or 
jurisdiction over port inspections. How many ports do we allow live 
animals to be imported through?
    Dr. Clifford. We have quite a few ports of entry on both the 
Canadian border, as well as the Mexican border.
    There are 26 U.S. ports through which live animals can be imported.
    The Chairwoman. Okay. And do you think the goal of 90 percent 
premise registration is attainable under our current voluntary process?
    Dr. Clifford. Not under our current system.
    The Chairwoman. And is animal identification the only method by 
which to track and trace animals? What alternatives are there, if any?
    Dr. Clifford. You know, it is really the most effective system to 
be able to trace and track animals. There are other systems, one is 
branding that is used in the West. And some of the states have very 
good brand laws.
    We have worked with some of these branding states to see if we can 
put that in a form that is more usable. The problem is, it takes 
experts to be able to read those brands, and all states are not 
consistent with the brand laws.
    For example, in the State of Texas, you can have the same brand in 
one county that exists in another. So it is not unique, where some 
states like New Mexico or one of the Dakotas, those brand laws are very 
effective with regards to having a single brand in that state.
    The Chairwoman. But you would then say that the most consistent, 
most efficient and effective way would be through an animal ID system?
    Dr. Clifford. Yes, but we would also look--and we have worked with 
those brand states to incorporate some of those of type activities as 
appropriate. So we have been reaching to try to find ways that we can 
work together on that.
    The Chairwoman. Thank you very much. My time has run out.
    The Chairman. Thank you very much.
    Mr. Goodlatte, you have another line of questions to this panel.
    Mr. Goodlatte. Yes, thank you very much, Mr. Chairman.
    Dr. McGinn, I was interested in your North Carolina study. What 
participation did you have in that? What percentage of the livestock 
owners who were studied participated in that?
    Dr. McGinn. I shared earlier that we designed it primarily around 
the disease programs that were being conducted during that period in 
time. Primarily, those were in the poultry and the swine areas. So we 
had close to 100 percent participation in both poultry--and dairy 
cattle, as well, because----
    Mr. Goodlatte. You had beef cattle in that study, too----
    Dr. McGinn.--there was a much smaller participation. Really, it 
wasn't--the level of program and diseases in place at that time and, of 
course, if there had been, I think there would have been the kind of 
participation that we saw, as well, with the others.
    These species are intertwined where they are located in our state. 
And so one of the challenges, if there was a contagious or infectious 
disease that impacted multiple species, then the ability to move those 
species in our state would be jeopardized----
    Mr. Goodlatte. I guess my question is, first, if you had 100 
percent of hog producers and dairy producers and poultry producers, you 
don't need a mandatory system for that, do you?
    Dr. McGinn. We had at that time systems which we can demonstrate 
the benefit, and there were lots of benefit----
    Mr. Goodlatte. Why can't you demonstrate--if you convinced them of 
the benefit of participating in that, and you are here dedicated to 
convincing us of the benefit of what you are doing now, why can't you 
convince beef cattle producers and all those other producers of the 
benefit of voluntary participation?
    Because it seems to me that, if they thought that you could do a 
good job and they thought your estimates of the cost and so on were 
accurate, that you would get them to voluntarily participate.
    Dr. McGinn. From my experience in North Carolina, one of the things 
it takes is it takes producers talking to producers and working 
together to solve those problems. It is obviously--there are lots of 
factors associated with this, international trade, cost-benefit.
    Mr. Goodlatte. You have pretty good evidence that you cited the two 
best countries for mandatory animal identification as Australia and 
Canada. And yet my personal experience is that the United States has 
gotten back into the Japanese market.
    Japan is one of the toughest customers to deal with when it comes 
to these animal safety issues. I don't think they apply sound science 
very well, but nonetheless they are pretty strict about keeping us out 
and others out. And we got back into that market 2 years before the 
Canadians did.
    And now that we are back in the market, I was over there and saw 
the evidence of how they are displacing--our product is displacing the 
Australians' product.
    So I don't think you are going to convince them based upon what 
other countries are doing. You have to convince them on the basis of 
the soundness of having an animal identification system.
    And I, quite frankly, agree. We need to have a better animal 
identification system. But I also think you need to sell people on the 
merits of the idea, not stuff it down their throat.
    Dr. McGinn. I would totally agree with you on that. And I would say 
that there are merits that could be seen in some of the states, as 
well, that do have these systems in place. And, I remember from Dr. 
Clifford's last testimony that 13 states have more than 50 percent 
identification in place.
    So it is going to take states working with states, as well as 
looking at some of the best practices they put in place, as well as 
some of the best practices in these other countries.
    I am certainly not saying that all these other countries or these 
states have all the answers. I was trying to communicate that there are 
best practices that we can utilize from there.
    One of the best practices in Australia that was very helpful was 
the way they test their system. The Cowcatcher exercises that they did, 
those--they are an excellent way of being able to test the system to 
see where we are, in terms of----
    Mr. Goodlatte. And you did that in the United States. You did it in 
North Carolina, and you showed how it would spread to the rest of the 
country, and you did it on a voluntary basis.
    I mean, I think that is a good thing to do, but, frankly, I am not 
convinced that the government is going to get it right when we mandate 
exactly how you are going to do it. Nor am I convinced they are going 
to get it right in terms of what the cost is going to be. Nor am I 
convinced that you are going to get it right in terms of assuring 
people that their data will be protected.
    These voluntary systems have a variety of different ways of 
protecting the data. And the government has been recalcitrant in 
agreeing to some of those systems because you want to control the data 
from start to finish; and yet there is plenty of evidence of 
government-controlled data getting out and into the hands of people who 
aren't entitled to have it.
    And so there is much more work that needs to be done convincing 
people of the benefits of this system, and in terms of the fact that 
they will be protected in the process if they trust the government.
    And I don't think that has occurred to this point. I certainly do 
agree with you, both of you, that the improved participation in an 
animal identification system is a good idea. But I am not convinced 
that mandating it is going to get it right, nor is it going to enhance 
their cooperation, or their effective participation, in making a system 
that will work for everybody.
    There are lots of other things out there that could influence them, 
including international trade, including companies that say they want 
to have animals that are produced under an animal identification 
system. That is going on right now, and I think that will lead to a 
build-up in participation and more effective participation than simply 
us sitting here and guessing the best way to mandate it.
    Thank you, Mr. Chairman. I appreciate it.
    And I welcome either one of you commenting on that. I didn't mean 
to preclude that possibility. I wanted to get my thoughts out there.
    The Chairman. Well, thank you very much, Mr. Goodlatte. Your 
thoughts have provoked my thoughts, as well. And I concur with you in 
raising these issues, there are a lot of questions out there.
    But time is not on our side here. I asked the question earlier, how 
long it will take between an incident of a breakout getting right to 
the kitchen table and the American people getting sick and dying 
because we failed to act.
    And we know now in their voluntary system, at best, it takes 199 
days to find the cattle with the disease. So I agree with you; there 
are some questions.
    But I do think we need a greater sense of urgency to get this 
system up and running. And I just think that there are all dimensions.
    One dimension that we really haven't dealt with as much is this--
the issue that this is, indeed, a national security issue. I think it 
is a national security issue.
    Take the fact that the Homeland Security has made some very, very 
excellent points and it is clear that our food supply is one of our 
weakest elements and is--becoming more and more attractive as a 
potential terrorist attack.
    Mr. Goodlatte. Would the gentleman yield?
    The Chairman. Yes, I would yield.
    Mr. Goodlatte. I would just urge you to point out, at the same time 
you do that, that the United States has right now, without the 
mandatory animal identification system, the safest food supply in the 
world.
    And, quite frankly, I want to keep it that way, but I think that 
the urgency here should be in convincing people who keep that supply 
safe, and the United States Government makes a contribution to that. 
But, it is like the difference between a ham and an egg, the pig and 
the chicken make a ham and egg breakfast. You know, the chicken makes a 
contribution, for the pig, that is real commitment.
    And the real commitment for the safety of our food comes from the 
producers and the processors and the distributors. And you have to have 
full buying into that. And simply saying we are going to mandate it and 
we are going to make you do it is not the best way.
    I think we should have a great sense of urgency on the part of our 
government, on the part of these agencies in educating the public and 
in educating the producers about how this system would work and get 
their participation, not stuff it down their throat.
    Thank you, Mr. Chairman. I appreciate your letting me get back up 
on my soapbox.
    The Chairman. Mr. Goodlatte continues to make excellent points. But 
let me point out that we just had a Salmonella scare from peanuts in 
Georgia. Quickly, we had to move to correct that and to move to kind of 
put things in place.
    But let me point out, a part of the reason for that was laxity in 
response in inspections, willful disobeying what edicts we had, and not 
having the proper government response in place.
    Currently, a month-and-a-half later, we had the H1N1 that has been 
mislabeled, and the only point I am making is that we have had incident 
after incident that shows that things could have been stopped if we had 
moved earlier to put preventive measures in.
    And I am not discounting for one moment the points you are making. 
There are certain questions of confidentiality that need to be made. 
There are issues of costs which we have brought in, the export issue 
that has been brought in.
    And here is another one that I want to put in for that, and that is 
national security. And I want to take a little moment to get to that, 
because it is beginning to be more of a national security issue.
    We had an excellent presentation put before us by the Homeland 
Security gentleman here before our screens which really illuminated and 
was an eye-opener to hear how rapidly these things spread. And we do 
not have an adequate system in place.
    And the longer we wait not to do that, the more vulnerable the 
American people are, and being placed in and subjected to.
    Now, the point I wanted to make--and I will get right to you on the 
national security--not just on the terrorist possibility. But I do want 
to try to find out if we have run any scenarios on that.
    At what level have we given the possibility that one of our animals 
might be purposely injected? Second, our ability to maintain our Armed 
Services, hundreds of thousands of our troops are stationed overseas, 
many of them and most of them in hostile areas.
    And I went to Iraq and Afghanistan. Each time I go, I try to make a 
point of eating with our soldiers. And I assure you, our soldiers eat 
well. They get the steaks. They get the meats. But they get them from 
here. We did not allow our soldiers to ingest food from other places.
    So it is a national security issue in many respects that I would 
like to get your response to. With my giving that up, I will yield now 
to----
    Mr. Broun. Mr. Chairman?
    Mr. Scott.--Mr. Broun.
    Mr. Broun. I just want to point out, you bring up the issue about 
peanuts and peanut butter. I just wanted to remind the Chairman that we 
already had regulatory controls in place that just were not followed in 
that case. And it was willful neglect, willful disobedience of those 
regulatory burdens that are already placed upon those producers and I 
believe was criminal, actually, of how that was done.
    So the point I want to make is that just having the regulations put 
in place, having something made mandatory is not necessarily in itself 
going to make our food supply safe.
    And I want to associate myself with Mr. Goodlatte, my good friend. 
And I am--as a physician, just as concerned as you are, my dear friend, 
about the safety of our food chain--and I agree with you. It is a 
national security issue.
    But mandating it to our producers is going to make it more 
difficult for the producers to stay in business. And thus we are going 
to be more dependent upon foreign producers to supply the beef that we 
need, to supply the pork and chickens that we need.
    And so putting more and more of a mandatory burden on our producers 
when they are already strained as they are today, it is going to be 
counterproductive. I think we are going to go to a point where we don't 
have any chickens, pigs and cows here in this country to even be 
concerned about identifying.
    So I am just very deeply concerned about this mandated process, and 
particularly without having any sort of mechanism to help the 
producers. We have to get the regulatory burden off of the producers so 
that they can make a living and continue to produce the foods that we 
need in this country.
    And that is a national security issue that we are not even--in this 
hearing or anything else. So----
    Mr. Goodlatte. Would the gentleman yield on that point?
    Mr. Broun. Certainly. I will be glad to yield.
    Mr. Goodlatte. I thank you for yielding. The Administration has 
asked for $1.5 billion to deal with this H1N1 outbreak. And, obviously, 
we are all very concerned about it. We are pleased that so far it seems 
to be taking the course of other types of flu epidemics, which happen 
all the time.
    But that is the contrast. Our farmers see the government stepping 
in, spending $1.5 billion on this, however serious it may be. They 
don't see the government stepping in and saying, ``Okay, we are going 
to take care of your problems with this situation.'' And they have no 
indication that they are going to get anything other than a mandate, 
that they are going to be told that they have to pay for this to 
address the concerns that have been expressed here today about what, 
potentially, could happen.
    And yet we are being told by the Chairman and others that this is a 
problem that exists for all of us and everybody is at stake in the 
risk. But the cost of it is going to be strictly borne by our 
producers. And that is a pretty serious concern that we have and that--
it doesn't help in terms of building up the trust to get their 
participation in this system.
    And I will yield back, Mr. Chairman. Thank you for yielding to me, 
sir.
    The Chairman. All right.
    I recognize Mr. Lungren.
    Mr. Lungren. I just have one question, because we have discussed 
the proposal on the table and how that would benefit in some ways if we 
could work out the problem of cost and privacy.
    But just if any average American happened to watch this hearing, 
Dr. Clifford, could you tell them what the state of the security of--
and the safety of the food chain, food supply in America is today?
    Dr. Clifford. I think, as far as our food supply goes, it is one of 
the safest in the world.
    And at the same time, though, we are, from an animal health 
perspective, at risk with regards to an inefficient animal ID system 
for traceability.
    Mr. Lungren. And the only thing I would say is, from a homeland 
security standpoint, we have to now calculate into the risk the 
possibility of someone wanting to introduce a disease into the animal 
population or in some way attack our supply.
    It is something that we haven't had that we are concerned about in 
the future, we ought to be concerned about it now.
    And, Mr. Chairman, I think there is an urgency to be concerned 
about that now. And I know we need to get our next panel, so I will not 
ask any more questions.
    The Chairman. Thank you very much.
    And this has been very, very beneficial, very, very helpful. And as 
you can see from the questions and the interests of the panel, a very, 
very, very important subject. We are all committed to making sure our 
food supply and the source of our food supply is safe beyond any 
question.
    Your testimony has been very helpful in provoking the questions and 
thought. We have a lot to do, and you have helped us to move down that 
road a little quicker. And we thank you for taking the time to share 
with us your information.
    And we are going to excuse this panel. Please bring on our second 
panel. Thank you.
    Thank you very much. We are delighted to have, first of all, Dr. 
David C. Smith, Assistant Director, Division of Animal Industry, New 
York State Department of Agriculture and Markets of Albany, New York. 
Thank you for being with us.
    We have Dr. Jerry Gillespie, former Director of the Western 
Institute for Food Safety and Security, University of California, 
Davis, Hopland, California.
    And Mr. Kevin Kirk, Michigan Department of Agriculture, Lansing, 
Michigan.
    Thank you all for being here with us, and thank you for your 
patience today.
    Dr. Smith, we will begin with you.

             STATEMENT OF DAVID C. SMITH, D.V.M., ASSISTANT
  DIRECTOR, DIVISION OF ANIMAL INDUSTRY, NEW YORK STATE DEPARTMENT OF 
                        AGRICULTURE AND MARKETS,
                               ALBANY, NY

    Dr. Smith. Chairman Scott, Chairwoman Clarke, Ranking Member 
Neugebauer, Ranking Member Lungren, thank you very much for this 
opportunity today. I am honored to speak before your Committees.
    My name is David Smith. I serve as the Assistant State Veterinarian 
for New York State. I have responsibility in that position with the 
oversight of animal identification activities in the State of New York.
    New York uses a dedicated team of veterinarians and inspectors to 
protect animal health. But as these men and women go about their 
duties, one of the most important tools they have is a system of animal 
identification.
    Effective animal ID is the key to every successful animal disease 
investigation, the key to minimizing the impact of serious animal 
disease outbreaks, and the key of ensuring the health status of animals 
as they move up the interstate and internationally.
    This is why my agency participates in the National Animal 
Identification System and why we have our own system based in our own 
state. We believe that, every day, livestock ID methods must fit into 
existing herd and livestock management systems that are being used by 
producers.
    We encourage the use of technology, such as RFID, whenever it does 
work out to fit into the producer's management system. We also 
encourage that technology is used when there is an overarching need for 
that technology in a regulatory system, such as a disease outbreak.
    While we value RFID technology, we also value the low cost of 
traditional methods of identification. One example I have here is the 
official metal tag. We can acquire those metal tags at a cost of about 
6 cents each. At that price, we are able to distribute those tags to 
farmers, veterinarians, livestock dealers and livestock markets at no 
cost to them. And that goes a long way towards keeping the cost of 
identification down.
    Now, those IDs aren't as useful as RFID devices. I have worked at 
ports of entry, and I have inspected, personally, loads of cattle 
coming into this country. And with a metal ear tag, it takes a lot 
longer to read those cattle, but you can get it done.
    With an RFID device, the work goes really quickly. And it is easier 
on the animals. It is easier on the people. The RFID is a superior 
technology. But metal ear tags work, too.
    The metal ear tags are also well accepted by our producer groups. 
They are used to them. We have used them for generations. Most states 
recognize them as valid, official ID.
    The problem that we currently have with that form of ID and, 
indeed, all of our ID programs is that we have had too much success in 
our programs for disease control, specifically tuberculosis and 
brucellosis. As we have brought those diseases under control and 
actually move them towards eradication, we have managed to drive down 
the official testing that is done and official vaccinations that are 
done.
    Normally, when these animals were tested for those diseases, they 
would receive official ID. And now that we have so few animals getting 
tested as we near eradication, we have a lot fewer animals with 
official ID on them.
    Now, this rising proportion of animals without official ID comes at 
a time when our speed of commerce is rapidly increasing. And we all 
heard Dr. McGinn's presentation about how big a threat the way that 
animals move across this country under the continual exposure of 
diseases from around the world, that it is always a possibility for 
introduction. So we need to be careful to have a system that can 
respond quickly to a disease outbreak.
    Now, the best benefits of a system of animal identification is 
that, in the event of a disease outbreak, we can really limit the 
damage done to our food producers; specifically, we can limit the 
financial cost.
    One estimate came out earlier this year. It showed that, if there 
is a foot-and-mouth disease outbreak, we can reduce the cost of that 
outbreak to producers by many billions of dollars with an effective 
tracing system that allows us to quickly find the infected animals and 
trace the exposed animals. So this is yet another reason why we need to 
have effective animal ID.
    One of the elements that we need to support in an ID system is an 
effective system of record-keeping. And in New York, we currently keep 
a lot of records on paper in file folders. And that is just not 
acceptable in the 21st century.
    The Chairman. I am going to have to ask if you could wrap that up. 
We want each of you to have 5 minutes. I wasn't clear on that at the 
very beginning, so if you could wrap it up, and then we will proceed 
with 5 minutes each. Thank you so much.
    Dr. Smith. I just want to point out the risk of nonparticipation. 
If we had a substantial number of producers that do not participate in 
an ID program, it is just not going to work.
    [The prepared statement of Dr. Smith follows:]

   Prepared Statement of David C. Smith, D.V.M., Assistant Director, 
 Division of Animal Industry, New York State Department of Agriculture 
                                  and
                          Markets, Albany, NY
    Chairman Scott, Chairwoman Clarke, Ranking Member Neugebauer, 
Ranking Member Lungren and Members of the Subcommittees, thank you for 
the opportunity to testify before your Committees this afternoon. My 
name is David Smith and I serve as Assistant State Veterinarian for the 
State of New York. Prior to becoming Assistant State Veterinarian, I 
worked for 18 years as a veterinarian in USDA's Food Safety Inspection 
Service and USDA's Animal and Plant Health Inspection Service. 
Currently, I have responsibility for oversight of animal identification 
activities in my state's Department of Agriculture and Markets.
    Many people across the U.S. think of Manhattan Island when New York 
State is mentioned, but with 36,600 farms operating on 7.1 million 
acres of land, New York is most definitely an agricultural state. The 
5,700 dairy farms in New York produced nearly 12\1/2\ billion pounds of 
milk in 2008, making us the number three dairy state. Livestock 
production of all kinds generally contributes over $2 billion a year to 
our state's economy. New York has a big stake in safeguarding animal 
health in the United States.
    My agency, the Division of Animal Industry, is part of the New York 
State Department of Agriculture and Markets and is responsible for 
protecting and improving the health of livestock and other animal 
species in New York. Our veterinarians, animal health inspectors and 
support staff work every day to prevent and control animal disease and 
are on the front lines when livestock disease outbreaks occur in our 
state.
    Under the leadership of our State Veterinarian, Dr. John Huntley, 
New York developed groundbreaking programs such as our New York State 
Cattle Health Assurance Program, which helps cattle producers adopt 
best practices to protect the health, welfare, and productivity of 
their herds. We have a unique program for Avian Influenza surveillance 
and control that has done a remarkable job of reducing the threat of a 
catastrophic influenza outbreak in commercial poultry flocks in the 
eastern U.S.
    As our vets and inspectors perform their duties, one of the most 
important tools they must have is an effective system of animal 
identification. Effective animal ID is the key to every animal disease 
investigation, the key to assuring the health status of animals when 
they move interstate or internationally, and the key to minimizing the 
impact of serious disease outbreaks when they occur. This is why my 
agency participates in USDA's National Animal Identification System and 
why we also have our own state program. Although both programs share 
the common goal of protecting animal health, there are a few 
differences in approach.
    The New York Department of Agriculture and Markets recognizes that 
everyday livestock ID methods must fit into existing herd and flock 
management schemes. Right now, dairies are selling milk at prices lower 
than the cost of production. In New York and many other states an 
increasing number of farms strive to meet the growing demand for food 
from local and community-based agriculture. Government must be mindful 
not to create regulations or requirements that push struggling farms 
over the edge or that smother small farms as they endeavor to satisfy 
consumers' desire for food from a local source.
    We appreciate the strengths of technologies like Radio Frequency 
Identification Devices and we encourage the use of advanced ID 
technologies whenever it makes sense for the livestock owner, but we 
also value the cost effectiveness of the official metal eartag. Metal 
ear tags have been the backbone of animal ID in New York and other 
states for generations. They generally work well and are well accepted 
by most of our food animal industry. Thanks to standardization put in 
place decades ago, they are recognized across the U.S. as acceptable 
official ID. We can acquire metal tags for about 6 cents per tag, 
making it possible to provide them to farmers, veterinarians, livestock 
markets and livestock dealers at no cost. The problem we currently have 
is that due to the success of programs to eradicate tuberculosis and 
brucellosis, fewer animals receive official tests or vaccinations and 
as a result fewer receive the official ID tags that would have been 
applied at the time of a herd test or vaccination. The rising 
proportion of animals without official ID slows down disease 
investigations and increases the risk of serious damage to New York 
farms and animal agriculture industries when disease outbreaks occur.
    It is important to realize that the increase in animals without 
official ID comes at a time when the speed of commerce is rapidly 
increasing. Thanks to our interstate highways, livestock can travel 
coast to coast in 3 days. Animal products are traded globally. And the 
current H1N1 influenza situation reminds us that people travel the 
world more quickly than ever before. This speed of commerce combined 
with the fact that foot-and-mouth disease (FMD) and other serious 
livestock diseases are endemic in many countries around the world means 
that U.S. farmers, veterinarians and animal health officials must 
always be alert for the possible introduction of these diseases. We 
must also be ready to respond. Should FMD or another serious animal 
disease appear in the U.S., the ability of state governments and the 
Federal Government to quickly control it will hinge on how fast we can 
identify infected animals, and trace out exposed animals. Studies 
estimate that the financial damage caused by an outbreak such as FMD 
can be reduced by many billions of dollars if a viable animal ID and 
tracing program is in place. Such a program can work only if supported 
by an efficient record-keeping system.
    Since the early 20th century, my agency has handled the need for 
maintaining basic health information on animal herds by keeping paper 
records in file folders. Although I am continually amazed by how 
quickly some of our staff can retrieve such records, no one flipping 
through file folders is a match for the searching power and versatility 
that can be achieved with a well built and maintained electronic 
database. Transitioning from paper to electronic records is a logical 
progression to improve efficiency and effectiveness. We support NAIS's 
goals to create standards for such databases and we hope the Federal 
Government will continue to help states as we modernize these record-
keeping systems.
    Along with the utility of electronic record-keeping comes the 
responsibility to guard the information within such systems. Regardless 
of what becomes of NAIS, producers' information must be handled as 
confidential. The New York Department of Agriculture and Markets 
considers farms and related industries as critical infrastructure and 
we expect that information pertaining to farms and food producers will 
be afforded strong protection.
    The last point I'd like to mention is the cost of non-
participation. If significant proportions of livestock owners do not 
participate in NAIS or some similar program to improve animal ID, then 
animal disease outbreaks will take longer to control. In the face of 
such outbreaks, the cascading results could be as simple as a few farms 
not being able to resume operations quickly or as complex as multi-
state eradication efforts and the loss of significant export markets 
costing billions of dollars.
    I thank the Committees for this opportunity and in conclusion I 
wish to say that from my perspective, NAIS and similar programs are 
about protecting agriculture in the U.S. When a disaster such as a 
serious disease outbreak strikes, government will have to act to stop 
the disease, and reopen markets. If we are to do this task well, we 
need sound animal identification and information systems.

    The Chairman. Great. Thank you. Thank you very much. And we 
will certainly learn more when we have our Q&A. We want to try 
to save as much of our time as we can towards that.
    Now we will recognize Dr. Gillespie.

    STATEMENT OF JERRY R. GILLESPIE, D.V.M., Ph.D., FORMER 
   DIRECTOR, WESTERN INSTITUTE FOR FOOD SAFETY AND SECURITY, 
          UNIVERSITY OF CALIFORNIA, DAVIS, HOPLAND, CA

    Dr. Gillespie. Thank you, and good afternoon, Chairman 
Scott, Chairwoman Clarke, Ranking Members Lungren and 
Neugebauer, and the other distinguished Members of the 
Committees.
    I am pleased to discuss with you the importance of a 
comprehensive, national animal identification recording system 
as it relates to food safety and defense.
    I intend to limit my presentation to how the identification 
system will be an essential part of eliminating dangers to our 
national security. I will specifically discuss how a 
comprehensive animal identification system can reduce risk of 
major losses to our nation by confronting major incidents 
either of natural disasters--for example, floods, earthquakes, 
and fires--and by intentionally caused events--deliberately 
executed harmful acts by a terrorist attacking the food system.
    In my brief presentation, I will make the case that a 
National Animal Identification System is really an essential 
part of an all-hazards approach preparedness. And one of the 
things that has not yet been emphasized in the testimony today 
is the interconnectivity of hazards in all sectors and that, if 
something happens to our animals in this nation, it enhances 
disasters in other sectors.
    In 2004, the Western Institute for Food Safety and Security 
at the University of California, Davis, was awarded a 
competitive grant from the U.S. Department of Homeland Security 
to prepare and to deliver a curriculum to communities and to 
industries nationwide to enhance their preparedness for agro-
terrorism or other major food-system disasters.
    Until January 2009, I was the principal investigator of 
this grant and subsequent grants funded by the Department of 
Homeland Security and by other resources.
    Over the past, nearly, 5 years, the Institute has delivered 
all or portions of the six-course curriculum in 250 sites 
across our nation and in 34 states. This experience has 
provided us with insights into the widely diverse vulnerability 
of our food systems in different communities, in various 
industries, and in the portion of different types of foods.
    The vulnerability is made all the more challenging with the 
rapidly growing globalization of the food systems. Our food 
supply and our food producers' markets are increasingly 
dependent upon a functioning, secure, international food 
production and marketing systems. These global systems are 
complex and change rapidly, making food safety, defense, and 
security extraordinarily complicated.
    Certainly, a reliable National Animal Identification System 
has very important implications for enhancing our export market 
of food animals and food products. It is conceivable that 
terrorists could attack our domestic food system with the goal 
of disrupting our foreign markets.
    And one of the things I would like to emphasize is that, in 
going from parts--different parts of the country, the 
vulnerability of the food system is different in different 
parts of the country. And it is very important for this 
Committee, and for those considering how we would go forward, 
to understand the different scenarios that can happen in 
different parts of the country and their widespread 
implications.
    And I would encourage the Committee to, in a nonpublic 
setting, explore some of those implications.
    The challenge of tracking the spread of H1N1-type virus 
infectious diseases is a good example of how we lack not only 
in our country, but internationally the tracking systems 
needed.
    After preparing this presentation, two things happened over 
the weekend that are very noteworthy. One of them was an 
interview with Dr. Larry Brilliant in The Wall Street Journal 
in which he talked about the nation's security, and 
particularly as it relates to biosecurity.
    And he made the very points that have been emphasized here, 
the importance of having improved tracking systems throughout 
our food and agriculture, as well as health systems.
    The other important issue that was brought up by his 
interviews both here and in Science magazine was the importance 
of the increasing numbers of zoonotic diseases. And one of the 
things that has happened and has caused the production of CDC's 
journal, Emerging Infectious Diseases, is that the number of 
diseases that affect both animals and humans is increasing. 
Those are primarily zoonotic diseases.
    And, again, one of the things we need to make sure to 
account for is the implications of how an animal identification 
system could enhance our security in this area.
    In his article, he made the point of emphasizing the 
principles of preparedness, which are really to prevent the 
event and to mitigate the harm should our defenses be 
transgressed. And----
    The Chairman. Dr. Gillespie, I am going to ask you to kind 
of wrap it up real quick, as well.
    Dr. Gillespie. Yes, I will.
    Let me just use an example that really helped open our eyes 
to the need for a tracking system. In 1999, we conducted a 
study of tracing the cull dairy cows and where they went in 
California. And the idea was to find out what their 
contribution was to E. coli in beef.
    What we found was that cows that left areas in California 
were soon found across the United States. But more shocking 
than that, we had no idea how they got there. And further, we 
identified those animals that left farms, and we soon found 
that we were unable to trace many of them.
    I think I illustrated the point how really poorly we are 
able to identify where animals go. Certainly we learned a lot 
of lessons going through the Exotic Newcastle Disease outbreak 
in California.
    [The prepared statement of Dr. Gillespie follows:]

    Prepared Statement of Jerry R. Gillespie, D.V.M., Ph.D., Former 
Director, Western Institute for Food Safety and Security, University of 
                     California, Davis, Hopland, CA
Introduction
    Good afternoon, Chairwoman Clarke and Ranking Member Lungren, and 
distinguished Members of the Subcommittees. I am pleased to discuss 
with you the importance of a comprehensive national, food-animal 
identification and recording system (NAIS) \1\ as it relates to food 
and agriculture safety and defense. I intend to limit my presentation 
to how the NAIS will be an essential part of enhancing our nation's 
security. I will specifically discuss how a comprehensive food-animal 
identification system can reduce the risk of major losses to our nation 
in confronting a major incident caused by either a natural disaster 
(e.g., floods, earthquakes, fires) or by an intentionally-caused event 
(e.g., deliberately executed harmful act such as a terrorist attack on 
a food system). To the extent possible in my brief presentation, I will 
make the case that a NAIS will greatly assist us in accomplishing our 
task of reducing harm from any hazard, i.e., NAIS should be a part of 
our nation's ``all-hazards'' approach to preparedness. While I view 
them as being important, I do not intend to discuss the technical 
aspects of animal identification and recording systems, the NAIS' 
foreseeable benefits to food safety, or the potential economic benefits 
of the system to food-animal producers, processors, food retailers and 
ultimately consumers.
---------------------------------------------------------------------------
    \1\ NAIS denotes National Animal Identification System.
---------------------------------------------------------------------------
The Need for NAIS To Enhance National Security
    In 2004, the Western Institute for Food Safety and Security 
(WIFSS), University of California Davis, was awarded a Competitive 
Grant from the U.S. Department of Homeland Security (DHS) to prepare 
and deliver a curriculum to communities and food industries, 
nationwide, to enhance preparedness for agro-terrorism or other major 
food-systems disasters. Until January 2009, I was the principal 
investigator of this grant and subsequent grants funded annually from 
DHS. Over the past nearly 5 years, the Institute has delivered all or 
portions of the six-course curriculum in over 250 sites in 34 states. 
This experience has provided us with insights in the widely-diverse 
vulnerability of our food systems in different communities, in various 
industry segments and in the production of different food types. The 
vulnerability is made all the more challenging with the rapidly growing 
globalization of food systems. Our food supply and our food-producers' 
markets are increasingly dependent upon a functioning, secure, 
international food production and marketing systems. These global 
systems are complex and change rapidly making food safety, defense and 
security extraordinarily complicated. Certainly, a reliable National 
Animal Identification System has very important implications for 
enhancing our export market of food animals and food-animal products. 
It is conceivable that terrorists could attach our domestic food 
systems with the goal of disrupting our foreign markets. To the extent 
that we can document that our animals are free of and have not been 
exposed to important infectious diseases or zoonotic agents, we will be 
able to better assure and stabilize our foreign markets. At the same 
time, if we have a functional NAIS, the United States is in a strong 
position to expect equivalency from our foreign trading partners for 
imported animals or food products. At this time, it is important that 
we acknowledge the expanding and complex global food systems and their 
implications on how we introduce measures to enhance the safety and 
security of our domestic food systems. The challenge of tracking the 
spread of H1N1-virus infections/disease (swine flu) illustrates the 
difficulty of monitoring and tracing diseases around the world in a 
timely manner. These points were made extraordinarily well in two 
articles that I came across over the weekend; the first was an 
interview with Dr. Larry Brilliant in Science magazine, 24 April 2009, 
and the second was an article by Dr. Brilliant in the May 2 & 3 Wall 
Street Journal. He emphasized two points in these articles that 
underscore the importance of NAIS to our national security: (1) the 
need for effective tracking systems for disease, and (2) the importance 
of animals and zoonotic diseases as both increase in occurrence--caused 
mainly by the increased comingling of people and animals--both domestic 
animals and wildlife. Dr. Brilliance also emphasized the two aims of 
preparedness against harmful events; prevention and mitigation.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 lessen the losses). Fundamental to preparedness are the following 
principles; (a.) awareness (understanding the threats), (b.) systems 
for rapid detection/diagnosis, (c.) rapid, directed response to the 
event, and (d.) measures planned and rapidly implemented for recovery 
from all losses (including recovery of all systems involved in food 
production). All of these principles of preparedness are enhanced by a 
well documented, real-time, tracking system (e.g., NAIS). I have 
highlighted rapid in my text because early detection, response and 
    recovery are essential to forestalling major losses due to an event.
When communities, states and industries undertake planning and 
implementing preparedness measures for food and agriculture security, 
almost without exception they are frustrated by the lack of 
understanding of how different parts of their food systems operate, 
i.e., specifically, what is the interdependence of the different 
segments in the system and how does each segment work. This same lack 
of specific knowledge of inter-segment connectivity is, in my judgment, 
the most important reason for failure of foodborne disease and animal-
disease investigations. In brief, it is the inability to trace a 
specific food-item (or animal) upstream or downstream through the food 
continuum (i.e., the steps from production unit to consumer) that too 
often frustrates investigation of causes of food contamination or 
animal diseases. These failures make rapid and precise intervention to 
prevent further illness in humans or diseases in animals impossible and 
leaves a great deal of uncertainly on what measures can be taken to 
prevent similar disasters in the future. Specific to animal disease, 
investigators are still unable to specifically and unequivocally trace 
the origin and spread of food and mouth disease in the 2001 outbreak in 
the United Kingdom. Recent animal disease investigations in this 
country (e.g., 2002 Exotic Newcastle Disease in Western U.S. and Bovine 
Spongiform Encephalopathy [BSE or Mad Cow Disease] in Washington State 
and Texas) have been hampered by lack of a functional NAIS. These 
incidents are all difficult to investigate thoroughly and arrive at an 
unequivocal epidemiological conclusion without the tracking data 
envisioned for the NAIS.
    The widespread, rapid and seemingly random (unpredictable) movement 
of livestock was driven home to us when we attempted to trace the 
movement of cull dairy cows from California dairies. Briefly, we found 
these cows in markets and feed-yards across the nation within days and 
weeks of leaving the dairies.\2\ In most instances, we were not able to 
trace specifically how they were moved to their new destination. More 
often than not within days, we lost track of animals identified on 
California dairies as they moved somewhere across the nation.
---------------------------------------------------------------------------
    \2\&1999 Study conducted by six-university consortium led by the 
University of California, Davis.
---------------------------------------------------------------------------
    It is important to understand that a terrorist bent on causing 
devastating harm to this nation could devise a plan of introduction and 
spread of an animal or a zoonotic disease that would be primarily 
unnoticeable, unfathomably merciless, genuinely resourceful and far 
more difficult to contain than our usual ``naturally occurring'' 
foodborne or animal disease outbreaks. The DHS, U.S. Department of 
Agriculture (USDA) and others have developed scenarios to illustrate 
the potential harm of an agro-terrorism attack. In my judgment, we 
could add an extremely powerful tool to our armament against agro-
terrorism by enhancing our NAIS and other food-tracking systems, which 
among other things would increase our ability for early detection of 
these diseases and lead to our pinpointing sooner the location(s) of 
introduction (there may be multiple points of introduction by 
terrorists).
    The variation in our nation's livestock rearing environments and 
the movement of these livestock and wildlife, nationwide, provide a 
challenging environment for disease control in response to a wide 
spectrum of potential terrorism incidents. In addition to the potential 
food shortages (complicated by public uncertainty of food safety), 
human and animal illnesses, and death associated with these events, the 
potential for economic disruption and loss could be extraordinarily 
large and long-lasting. That said, while NAIS is not the only remedy, 
it is a much needed tool to enhance our animal disease and zoonotic 
disease prevention and control, and it could go a long way in 
preventing or mitigating major losses.
    Thank you.

    The Chairman. Thank you very much, Doctor. We will get more 
into that during the Q&A period. We appreciate it.
    Now, Mr. Kirk?

 STATEMENT OF KEVIN M. KIRK, SPECIAL ASSISTANT TO THE DIVISION 
              DIRECTOR, ANIMAL INDUSTRY DIVISION,
        MICHIGAN DEPARTMENT OF AGRICULTURE, LANSING, MI

    Mr. Kirk. Thank you, Chairman Scott and Chairwoman Clarke, 
as well as the Ranking Committee Members and other Committee 
Members present. I appreciate the fact that you are holding 
both Committees meeting this afternoon.
    I am Kevin Kirk, a Special Assistant to the State 
Veterinarian for the Michigan Department of Agriculture. And I 
appreciate the opportunity to make comments about Michigan's 
electronic identification program.
    It was implemented back in August 2001. It started as an 
identification tracking system for our bovine tuberculosis 
eradication program. It appeared in 11 counties originally, as 
well as two additional parts of counties. The project was 
funded by the United States Department of Agriculture grants 
that we retained.
    It was soon that the merit of the electronic database 
system was easily and immediately realized from the fact that, 
during the TB testing process, the time involved at the front-
end where the animals were tagged with the radio frequency 
identification tags that it cut down 50 percent of the work, 
both for the producer and the veterinarians.
    Shortly after that, installation of the EID system, one 
positive TB cow was diagnosed, traced back to the herd of 
origin. That particular cow met all the TB testing movement 
requirements, out of the infected zone.
    Not only that, we knew the history of all the other--from 
that farm of origin. And we were able to trace that through the 
database within 15 minutes. Without the EID database and system 
in place, that process would have taken several weeks.
    The EID system has also enabled MDA to develop a Web-based 
movement permit system for cattle, where producers at home can 
go online, get movement permits to move cattle out of the TB-
infected zone. They can either print it at home, get it faxed, 
or receive it by the mail.
    April 19, 2004, USDA established two different TB split 
zones for the state. June 1, 2004, we initiated that all cattle 
of all ages moving out of Modified Accredited Zone had to be, 
number one, had to have an RFID tag, as well as had to have a 
movement permit.
    And, quite frankly, as producers said at the time, that was 
heavy regulation by the government, but since that time, their 
attitude has changed because it also maintained open markets 
within the rest of the State of Michigan.
    The Michigan Department of Agriculture offered the service 
at 50/50 cost-share program with producers in the Upper 
Peninsula so that we could approach USDA to move the Upper 
Peninsula to free status. Our project started in August of 
2004. Over 600 producers bought 65,000 tags to help get that 
cost-share program, but also to help us obtain free status, 
which we did receive in 2005.
    January 9, 2006, the Michigan Commission of Agriculture 
adopted a policy mandating RFID cattle in Michigan, effective 
March 2007, all cattle, all ages, in order to move off the farm 
to the system, market system, had to be identified with an RFID 
tag.
    This was done with the support of all the stakeholder 
groups, and they also were involved with developing what we 
call the communication process that moved forward over the next 
nearly 15 months. Meetings across the state were held. There 
were over 60 meetings held. The producers attended, over 3,000 
producers. We had a summer educational tagging demonstration, 
general handling demonstration both July 2006, July 2007, at 
our Ag Expo summer event, and nearly 1,000 producers attended 
those presentations.
    March 1, 2007, 90 percent to 98 percent, depending on which 
market you were at, cattle came to the markets tagged with a 
new RFID tag. And that enabled producers to move forward with 
the program, but also we allowed the producers that were, 
number one, not able to catch their animals and tag them at 
home or were against the program for religious beliefs, to come 
to the market, have their animals tagged there, and really kept 
the system going.
    Later on, October 2007 of that same year was when the 
milestone, the first million RFID tags were purchased by 
Michigan producers, which was quite an accomplishment.
    Also, during this whole RFID program, we would have readers 
installed at all the markets in Michigan. And from April 2006 
to December 31, 2008, we had over 480,000 cattle that have been 
read at the markets, while at the same time there are readers 
installed in eight kill plants in four Midwest states. That 
represented 332,000 head of cattle being tagged and able to 
trace them back to the farm of origin.
    Simply put, the success of Michigan's mandatory cattle 
identification program can be attributed to the partnership 
established between producers, agricultural businesses, state 
and Federal Government agencies.
    Michigan's accomplishments have built a foundation for 
which other states can build on in developing their cattle 
traceability programs. And I highly think that USDA, as well, 
could take a look at the program and possibly implement it on a 
national basis.
    The EID program has created efficiencies on the farm, in 
the Department, and allows staff within Michigan to focus on 
public safety.
    Thank you.
    [The prepared statement of Mr. Kirk follows:]

     Prepared Statement of Kevin M. Kirk, Special Assistant to the
  Division Director, Animal Industry Division, Michigan Department of
                        Agriculture, Lansing, MI
    Animal identification has been an integral part of Michigan's 
animal disease eradication programs for decades. In August 2001, the 
Michigan Department of Agriculture (MDA) initiated an electronic cattle 
identification tracking system as part of its bovine Tuberculosis (TB) 
Eradication Program. Electronic identification was initially used to 
individually identify and track the movement of cattle in a TB high-
risk area/infected zone (Modified Accredited Zone [MAZ]), which was 
comprised of 11 counties and two partial counties in northeast 
Michigan. This project was funded in part by United States Department 
of Agriculture (USDA) grants to assist Michigan's Tuberculosis 
Eradication Program.
    The merit of the electronic based ID system was immediately 
realized: the TB whole-herd testing time was reduced by as much as 50% 
once cattle were tagged with radio frequency identification (RFID) 
tags. Additionally, tracking cattle with an electronic identification 
(EID) system provides assurance that all mechanisms of control, 
monitoring, and surveillance are employed to their fullest 
capabilities.
    Since the initiation of the EID system, one TB positive cow was 
diagnosed and traced back to the herd of origin. This particular cow 
had met the TB movement requirements and had been moved legally out of 
the infected zone. The herd of origin's TB testing history, and all 
cattle movements after the index cattle departed, were traced in less 
than fifteen minutes. Without the use of EID and the electronic 
database, this process could have taken weeks.
    The EID system has also enabled MDA to develop a web-based movement 
permit system for cattle. The web-based system allows MDA to issue a 
movement permit online if all testing requirements have been met. 
Producers can then print the permit or receive it by fax or mail.
    On April 19, 2004, USDA established two separate zones with 
different TB risk classifications in Michigan--the Modified Accredited 
Zone (MAZ) and the Modified Accredited Advanced Zone (MAAZ). Beginning 
on June 1, 2004, all cattle of all ages were required to have 
electronic identification and a movement permit before leaving a 
premises within the MAZ and all cattle were tagged with EID during TB 
testing.
    As part of its effort to obtain TB Free Status for the Upper 
Peninsula, MDA expanded its EID program to include the Upper Peninsula. 
MDA offered a 50/50 cost-share program in August 2004 to cattle 
producers in the Upper Peninsula who wished to obtain EID tags to 
identify cattle leaving the farm in support of the free status 
application. Over 600 producers ordered over 65,000 tags during the 
cost share program. The Upper Peninsula was granted TB Free Status in 
September 2005.
    On January 9, 2006, the Michigan Commission of Agriculture adopted 
a policy mandating RFID for cattle in Michigan effective March 1, 2007. 
MDA, in partnership with industry and stakeholder groups, was charged 
with developing an implementation plan. Cattle are the only species of 
farm animals required to be identified electronically in Michigan.
    A communication strategy was developed and implemented which 
targeted key audiences to develop their understanding of the role RFID 
plays in the Bovine Tuberculosis Program. The communication strategy 
addressed the concerns of the farming community as MDA moved from a 
free identification ear tag to a producer purchased RFID tag. The 
communication strategy focused on how RFID tags can improve animal 
health, human health, and food safety.
    The communication strategy recognized the importance of sharing 
information with all producer groups and other interested persons. All 
livestock producers were sent a letter explaining the RFID requirements 
and a Question and Answer document. Livestock markets assisted with 
outreach to inform their clientele about the identification program. 
MDA produced a brochure and fact sheet which were distributed at county 
fairs.
    Nearly 60 educational workshops and industry meetings were held 
across the state. Outreach, both at the grass roots level and through 
statewide marketing, was vital to the success of the EID project. Well 
over 3,000 cattle producers attended the meetings which allowed MDA to 
disseminate a positive message about the program to producers from key 
leaders.
    MDA sponsored cattle handling and ID tagging demonstrations at the 
July 2006 and July 2007 Ag Expo. Six informational seminars/tagging 
demonstrations were presented during the 3 day events. Nearly 1,000 
people participated in the presentations.
    By March 2007, 90&98% of cattle coming into Michigan livestock 
auction markets were tagged with RFID tags. MDA's program allows for 
cattle producers who are unable, or object to RFID tags, to bring 
cattle to the markets untagged. Untagged cattle are tagged at the 
markets and the producer is charged a fee. This procedure allows MDA to 
maintain the integrity of its animal identification program while 
respecting the views of some producers who object to the program on 
religious or other grounds.
    By October 5, 2007, Michigan cattle producers had purchased over 
one million RFID ear tags. Over 11,000 Michigan premises supported this 
milestone. In addition, there are over 19,400 premises in Michigan 
registered in the Standard Premises Registration System (SPRS).
    Between April 2006 and December 31, 2008, 15,661 cattle producers 
have ordered 1,718,593 RFID tags. All Michigan livestock markets and 
eight slaughter facilities are equipped with stationary panel readers 
or wand readers capable of reading any RFID ear tag. As of December 31, 
2008, livestock markets had scanned 480,776 tags and slaughter 
facilities had scanned 332,888 tags.
    The success of Michigan's mandatory cattle identification program 
can be attributed to the partnership established between producers, 
agricultural businesses, and state and Federal Government agencies. 
Michigan's accomplishments have built a foundation on which other 
states can build in developing their cattle traceability programs. 
Michigan would highly encourage other states and the Federal Government 
to use Michigan's model for cattle traceability to improve animal 
health. The EID program has created efficiencies on the farm and in the 
Department and allows staff to focus on public safety.

Dated: April 28, 2009

Submitted by:

Kevin Kirk,
Special Assistant to the Division Director,
Michigan Department of Agriculture,
Animal Industry Division.
                               Attachment

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     Thank you very much. Thank you to each of you.Let me start the 
questioning off with just getting--from each of you. I happen to 
believe that the longer we wait to put a national animal ID system in 
place, the greater at risk we place the American people. Do you all 
agree or disagree with that?
    Dr. Smith. I think, for American producers, the longer we go 
without a national ID system and an effective tracing system, we 
definitely are at greater risk of severe economic losses from a foreign 
animal disease.
    The Chairman. Yes, absolutely.
    Dr. Gillespie. I would agree with that.
    The Chairman. Okay, thank you.
    Dr. Gillespie. The longer we delay, the higher and greater the risk 
of a devastating event.
    The Chairman. Thank you.
    Mr. Kirk. I definitely agree that the longer we wait it is going to 
impact consumers, and it is going to put producers out of business. 
And, there will be countries around us that will step in and take over 
our markets.
    The Chairman. Thank you. I am glad I asked that question. I am glad 
that got on the record.
    Now, I want to just go to you right quick in Michigan. I think you 
might have been here when the latest round went, and the--one of the 
objections to the mandatory ID system was the cost. Could you tell me, 
in your system in Michigan that you talked about, what impact that had? 
And did you have any of those producers go out of business as a result 
of it?
    Mr. Kirk. Mr. Chairman, when we moved from a free metal tag 
program, much as what they do in New York, to a RFID tag, the tag cost 
$2. That is a major change.
    In looking back over the last, nearly, 3 years now, I would say 
that we have not lost producers because of the cost of the tag. A year 
ago, we lost producers of all types because of the cost of energy, 
fuel, and the high price of grain.
    I would not say that at $2 a tag--and that is what it cost our 
producers--that the $2 is not costing them to make a decision to leave 
the business. I think that they have now accepted it, they recognize it 
opens markets within Michigan and other states.
    The Chairman. Thank you. I am going to reserve the balance of my 
time and turn to Ranking Member Neugebauer.
    Mr. Neugebauer. Thank you, Mr. Chairman.
    Mr. Kirk, why hasn't the State of Michigan extended its mandatory 
livestock reporting to all commercial animals?
    Mr. Kirk. At the current time, we are only concerned about our 
impact with bovine tuberculosis, which is with cattle, and so we are 
focused strictly on the cattle. And we are working really with a 
disease program much like Dr. Clifford talked about earlier in his 
presentations. And so we have a disease problem in Michigan.
    Mr. Neugebauer. But don't you have other livestock in your state?
    Mr. Kirk. Pardon me?
    Mr. Neugebauer. Don't you have other kinds of livestock in your 
state?
    Mr. Kirk. Oh, yes, yes. We have all species, just like every state.
    Mr. Neugebauer. All right. I think the question is, is if--a good 
program, I mean, and you made it mandatory on cattle. I am a little 
perplexed why, if it is as good as you say, you haven't made it 
mandatory for all livestock.
    Mr. Kirk. We haven't chose to go that route at the present time. 
The swine industry has a lock program that they have been using on a 
voluntary basis. Our sheep and goat program follows the USDA Scrapies 
program. And our producers have raised sheep and goats, one with their 
tagging program, as mandated by USDA.
    Mr. Neugebauer. You mentioned you have a cost-sharing program. Did 
you say it was 50/50? Is that right?
    Mr. Kirk. Yes, we did that for the producers in the Upper Peninsula 
to help----
    Mr. Neugebauer. But not all producers?
    Mr. Kirk. That is correct.
    Mr. Neugebauer. And so that program is the----
    Mr. Kirk. That program was only for one short period of time----
    Mr. Neugebauer.--cost of the program now?
    Mr. Kirk. The producers are bearing the cost of the tags themselves 
right now.
    Mr. Neugebauer. Dr. Smith, in your testimony, you mentioned the 
importance of maintaining the confidentiality of livestock producers' 
data. In New York, what laws are in place to prevent the disclosure of 
this data?
    Dr. Smith. We currently have a bill pending in our state 
legislature to protect the confidentiality of producer information. We 
do receive requests for producer information under FOIA, and we 
routinely deny those requests. And we have been successful in denying 
the requests based on the fact that it is proprietary information and 
it should not be out there for commercial or public use.
    Mr. Neugebauer. One of the questions in this argument is that when 
we talk about national security, and we talk about whether this is a 
national security issue, we then talk about the cost. If this is a 
national security issue, if you are using that as an argument, then 
whose responsibility then is it to bear the cost of this program?
    Mr. Gillespie? Dr. Gillespie?
    Dr. Gillespie. Well, I think that is a very good and important 
question. And I do think it is something that needs to be shared 
between governmental agencies and the agriculture production systems. 
It is in both of their best interests to preserve the safety and the 
security of our food system.
    Mr. Neugebauer. I was a small-businessman. And, I had limited 
resources, and so I had to allocate my resources where I had the best 
return. And so when I look at this issue, I say, ``Okay, where do we 
get the best return? Can we get the best return in an aggressive 
program to make sure that these illnesses don't come into our country 
through other animals or other sources? Or do I spend my resources on 
trying to find out, if they do get in, where they are?''
    And, from my perspective, if I was looking at it, and you want to 
spend your resources making sure that you know that those diseases 
don't get into this country, because if I spend money every year and 
build up this huge infrastructure, should I have spent my money on 
infrastructure for detection rather than traceback?
    And that would be my final question. And, Dr. Smith, and Dr. 
Gillespie, and then Mr. Kirk, quickly, if you could kind of----
    Dr. Gillespie. I will respond that I am not sure that you can seal 
off the border sufficiently to keep out animal diseases, zoonotic 
diseases. And, I think you need to have resources in the--procedures 
that will help you mitigate harm when it occurs.
    And, from my experience in working with the courts in California, I 
just really now believe that we need to have a way of mitigating harm 
once it gets within our country.
    Mr. Neugebauer. And then to refine that question, Dr. Smith and Mr. 
Kirk--this way you can respond to that--first percentage being how much 
you would spend on detection, the second percentage you would spend on 
tracebacks. So 70/30 would be 70 percent spending on detection, 30 
percent--so----
    Dr. Smith. I don't feel I am qualified to answer that question, 
sir. That is DHS's call for the border protection, and I just don't 
have sufficient information.
    Mr. Neugebauer. Okay.
    Mr. Kirk?
    Mr. Kirk. It is a hard question to come up with a specific answer 
that you are looking for. In Michigan, when we have tracebacks because 
of infected cows with TB, because the system was put in place. It has 
cut the time down, which involves cost of staff time, to find out where 
the animal came from and whether other animals could have been exposed.
    And when we talk about--if I could back up for just a minute, when 
you talked about your activities as a small businessman, many small 
businesses, as I tell farmers over the years, buy insurance. And one of 
the things that nobody wants to do is ever use that insurance, but put 
that insurance in as a way to minimize our risk.
    And that is one of the things that we talk about when we are using 
an animal ID tracking system, you minimize the risk of a producer's 
operation.
    The Chairwoman [presiding.] I am going to now recognize myself for 
5 minutes.
    Our chair has had to step away for a moment, and so I will be 
chairing in the interim until he returns.
    My first question is for you, Dr. Smith. How does your state animal 
ID program differ from the National Animal ID System?
    Dr. Smith. Well, first off, participation in our program is not 
voluntary, while NAIS's is voluntary. Participation in our system 
happens whenever a farm has an official test done or some official 
action done on that farm. So they are automatically in our system and--
--
    The Chairwoman. Is that for all livestock?
    Dr. Smith. Yes, ma'am.
    The Chairwoman. Okay. And what is it that moved the state to have a 
mandatory process in place?
    Dr. Smith. Well, it started back in the early part of the 20th 
century with tuberculosis eradication. And since then, we have kept 
records on the farms in New York and their health records.
    The Chairwoman. Very well. Thank you very much, Dr. Smith.
    Dr. Gillespie, do you believe a mandatory national animal ID system 
is necessary in order to deal with an ever-expanding and complex global 
food system?
    Dr. Gillespie. I think it has to be comprehensive. And I was, until 
3 months ago, a beef cattle producer in Nebraska and I own some other 
farms there, as well. I entered the program, because I saw it as a way 
of improving my leverage in the market.
    Now, everyone doesn't agree with that approach. But I do think 
there are reasons for our industry, as a whole, to view this as a very 
important way to enhance their marketability of product. And so I am 
not sure it needs to be mandatory, but I do think it has to be 
comprehensive to be effective.
    The Chairwoman. Do you believe that the current system embodies the 
principles necessary to prevent a severe animal outbreak? And if not, 
what do you think needs to be done to be improved--what do you think 
needs to be improved?
    Dr. Gillespie. I think technically it is probably sound, but what 
it lacks is comprehensiveness, in terms of participation across 
different species, particularly in the cattle industry.
    The Chairwoman. And without it being comprehensive, it just leaves 
vulnerability out there?
    Dr. Gillespie. It does, because the introduction of a harmful agent 
can happen, as has been pointed out, at any farm. And if they happen to 
be nonparticipating, it makes a huge difference in how that scenario 
plays out.
    The Chairwoman. Thank you very much.
    Mr. Kirk, a great deal of concern has been raised on the economic 
hardship of an animal identification system which could cost individual 
livestock from--which could cost individual producers. Can you tell us 
if your system has caused individual producers to go out of business?
    Mr. Kirk. To the best of our knowledge, we have lost no producers 
that have left the business because of their cost of the tagging 
program.
    The Chairwoman. And has the Michigan animal identification system 
improved or made easier the marketing of livestock?
    Mr. Kirk. It has not created any hardship in marketing livestock. 
What it has done is created an easy way of tracking the cattle that do 
show up at the market, because it is so much easier to scan a tag 
rather than get in front of an 1,800 pound bull and hold its ear while 
you try and read the metal tag.
    The Chairwoman. You mentioned the impact the program has had on 
bovine tuberculosis control and elimination. Do you see it being 
effective for other animal diseases?
    Mr. Kirk. Oh, yes, I definitely do.
    The Chairwoman. I am going to reserve the balance of my time and 
have the gentleman from California, Mr. Lungren----
    Mr. Lungren. Thank you very much, Madam Chairman.
    And, Dr. Smith, I want to just make sure I got the facts straight 
on this. In terms of the mandatory nature of the program, it is 
mandatory if they go--if you go out to a farm or a herd for one of 
these official visits, correct?
    Dr. Smith. It could also be an official test that a private 
veterinarian does, sir.
    Mr. Lungren. Right. But I saw your written testimony, and you said 
one of the problems is that you are having fewer--you are having more 
nonparticipation because fewer animals receive official tests or 
vaccinations. As a result, fewer receive official ID tags. Is that 
right?
    Dr. Smith. That is correct, sir.
    Mr. Lungren. So even though we have a very relatively low price, 
right, a few cents you say for a tag?
    Dr. Smith. Yes, sir.
    Mr. Lungren. You don't have the universal participation.
    Dr. Smith. No.
    Mr. Lungren. And so it is not mandatory in the sense that all herds 
have to have that?
    Dr. Smith. We don't have the mandate that an animal must be 
identified when it leaves the farm of origin. We would like to have 
that some day, but we don't have that now.
    Mr. Lungren. Right, right. I am just trying to get the dimensions 
of the program there.
    And, also, I heard the testimony with respect to what is happening 
in Michigan, where they use the electronic identification device. A few 
cents versus a couple of dollars, would that work in New York, that is, 
if you went through the more expensive program?
    Dr. Smith. Actually, sir, we did receive a number of RFID tags 
through a cooperative agreement with USDA. And we have been getting 
those out to producers to introduce the technology and to get it out so 
people can see how it works and erase some of the myths about it.
    And so far, it has been very well received. And, actually, what our 
dairy producers--the larger producers want that technology. It works 
with their automation--and it is actually really useful for them.
    Mr. Lungren. But I am just looking at this from afar. It seems to 
me, in a perfect world, having a system by which you can identify, so 
you do traceback would make sense. But the question is, the capital 
investment, I guess, is what we are talking about.
    And that is why, Dr. Gillespie, I would like to go to you. You made 
a decision with respect to your beef program, that you would go into 
this program, because you thought it would give you leverage in the 
marketplace.
    What I am trying to figure out is, as one who believes we lack a 
sense of urgency with homeland security across the board, that 9/11 
becomes dimmer and dimmer in our minds because we haven't had a 
successful attack on our shores, that it is difficult for us to get the 
public policy that we need to protect ourselves against a terrorist 
attack.
    And since the last major terrorist attack dealt with airplanes 
flying into buildings as opposed to our food supply, it is difficult to 
get people to imagine that. But given the kind of devastating impact 
and successful attack, or I would say a series of attacks. If I were to 
be out there and write the scenario, it would be a series of attacks.
    And we have already talked about the relative ease of technology to 
apply, or the introduction of, harmful agents to our food supply, 
particularly our animals, how do we raise the attention of the American 
people such that they understand the urgency of the matter so that our 
debate is how we solve the problem and bring the scale of cost down?
    How do we make this real? Because, again, we haven't had a major 
outbreak of foot-and-mouth disease since 1929?
    Dr. Gillespie. Correct.
    Mr. Lungren. We have actually done a fairly good job, if you really 
look at it, we have done a fairly good job of identifying problems in 
our food supply. And it may take some time, but we have been able to--
of the American people in the various instances we have had, ``Here's 
what the problem was. It came about in this particular area, lettuce 
in--Salmonella with peanuts in Georgia.''
    I mean, the American people actually do have a confidence out 
there. And maybe because they have that confidence they don't have this 
sense that we need to do more.
    With the studies that you have done at your Institute, can you give 
us some sense of how we make that real? Or is it not the problem that I 
think it is?
    Dr. Gillespie. Well, I think it is the problem. And I think that is 
a problem--it is a different problem in different parts of our country. 
It can be a problem of a particular intermix you have with your 
livestock, wildlife, and other issues.
    And there certainly is a variation in local preparedness across the 
country. What is very important is that I think it has to be a 
collaboration between industry, states and the Federal Government 
having some role.
    And the examples that we have had from Michigan and New York are 
excellent examples to get this brought up, because what they are 
demonstrating is that it isn't the overwhelming cost that is often put 
out there.
    In my own instance, our markets in Nebraska began to specifically 
reward those that would bring cattle to their markets that had a 
verifiable record of vaccination and of disease management. And that 
leveraged us up when we sold our cattle.
    Now, our costs were greater than either of those mentioned here. It 
was closer to $5 a head. And we didn't make a lot of money by 
participating in the program, but we made money by doing it.
    And what it did was reinforce things that we were already needing 
to do, and that is having an individual animal identification system 
that could be operated efficiently, because you need that for breeding 
purposes. You need it for health records and for age records. You need 
it for grazing records. You need it for all sorts of information if you 
are going to be competitive in the beef industry.
    And like the--industry, they would not be without a way to really 
verify a cow's performance in the herd. So that is not going to be 
amicable to all sizes of units. And that is why I think state 
participation--programs that we have talked about today at the state 
level can help us leverage to such a comprehensive system.
    The Chairman [presiding.] Thank you very much.
    Let me ask just one question of you, Mr. Kirk. Does the Michigan 
Department of Agriculture feel that the ID program that you have helps 
the public's perception of animal disease control?
    Mr. Kirk. No question about that. I think we are very obvious with 
what we are doing, and they see the importance of why we are doing it, 
because bovine TB, for the audience, is a transmissible disease from 
livestock to humans and vice versa. So they see that. They see the 
positive of what we are trying to do.
    The Chairman. Okay. Thank you very much.
    Chairwoman Clarke, you had one question?
    The Chairwoman. Thank you for yielding.
    My one question is, do each of you believe that your state will be 
prepared to handle a severe animal disease outbreak were one to occur 
today?
    Mr. Kirk. I think we are in better position than we were 5 years 
ago, because we know where there are a number of the livestock 
operations are located, which we didn't know until now. And we know the 
types of animals that are out there.
    And so, in essence, we can say that we are there to assist the 
farmers should something happen tomorrow or next week.
    Dr. Gillespie. I think California is vastly improving its 
preparedness. I think there are issues that we still need to address.
    We have a large number of wild animals that are in really remote 
places in California that offer a great challenge to really control 
animal disease.
    Dr. Smith. That is very much like Michigan, in that we have come a 
long way in the past few years. We do have a database that we are using 
now. We have a lot of the geocoding done. We have a lot of good 
information on many of our herds. But we still have a ways to go.
    The Chairwoman. Thank you very much, Mr. Chairman. I yield back the 
balance of my time.
    The Chairman. Thank you very much. And I think we are out of 
questions.
    Let me just say, on behalf of the Committees, thank you. Thank you 
very much for taking the time to come before the Committees. Your 
testimony has been very, very helpful, very, very beneficial, and we 
appreciate it very much.
    This is an extraordinary issue of timely importance. And we are 
charged with the responsibility of making this a priority, animal ID 
and specifically protecting our food supply chain. And you have been 
very helpful to us in providing valuable information. We look forward 
to working with you in the future, too. Thank you very much.
    Mr. Kirk. I would ask that anybody from the Committees or staff, if 
you would like to come visit Michigan, on behalf of the Governor or the 
Director of Agriculture, we would be glad to have you come to Michigan 
and really go out and take a look at what we do out in the field and 
meet with producers.
    The Chairman. I would be delighted to. And we are very, very 
interested in the success of your program, as you explained it in your 
testimony today.
    The record of today's hearings will remain open for 10 calendar 
days to receive additional material and supplemental written responses 
from the witnesses to any question posed by a Member of this panel.
    This joint hearing is hereby adjourned.
    [Whereupon, at 5:35 p.m., the Subcommittees were adjourned.]
    [Material submitted for inclusion in the record follows:]
      
                 Material Submitted by Hon. David Scott
National Livestock Identification System (NLIS)_Australia's System for 
        Identifying and Tracking Cattle
Prepared by: Dr. Tony Britt
Background
  <bullet> In late 1995, Victoria's cattle industry was affected by a 
        contamination incident where cotton plant material (known as 
        cotton trash) that had been sprayed with a pesticide was fed to 
        cattle in New South Wales and Queensland. Some contaminated 
        cattle had entered Victoria but could not be tracked because of 
        the limitations of the tail tag and paper based system in place 
        at the time. Tail tags are strips of vinyl tape printed with 
        the Property Identification Code (PIC) of the property of 
        dispatch that are wrapped around the tails of cattle prior to 
        transportation. Tail tags fall off within a few days of 
        attachment.

  <bullet> The cattle industry throughout eastern Australia had to 
        introduce expensive testing procedures in response to the 
        cotton trash contamination incident.

  <bullet> Following this incident, Victoria lead a national 
        government/industry working group that designed a `whole-of-
        life' identification and tracking scheme for cattle based on 
        the use of machine readable permanent identification devices. 
        The scheme has subsequently become known as the National 
        Livestock Identification System for cattle (NLIS (Cattle)). The 
        working group also drafted the National Vendor Declaration 
        (NVD) which is a form outlining the chemical treatment and 
        exposure history of cattle that vendors throughout Australia 
        routinely complete when consigning cattle for sale or 
        slaughter.

  <bullet> Victoria conducted an international tender for machine 
        readable `whole-of-life' identification devices in late 1997. 
        The successful tenderer was Allflex Australia Ltd with its 
        button ear tag. Each tag contains a half duplex (HDX) ISO11784/
        11785 compliant transponder encoded with a unique unalterable 
        number that can be read in a fraction of a second by cattle 
        producers and in saleyards and abattoirs using panel or wand 
        readers.

  <bullet> The first NLIS devices were released to Victorian producers 
        who wished to use them on a voluntary basis in February 1999.

  <bullet> In mid-1999, the EU advised Australia that the tail tag and 
        paper based system in use nationally at the time was not 
        sufficiently robust to enable cattle to be reliably tracked 
        from an abattoir back to their properties of birth. As a 
        consequence, it was agreed nationally that the NLIS should 
        become mandatory for all cattle destined for processing for EU 
        markets from late 1999. Use of NLIS devices remained voluntary 
        for other classes of cattle.

  <bullet> Following the Foot-and-Mouth Disease (FMD) outbreak in 
        Europe in 2001, Victorian cattle industry organisations 
        realised that the prompt tracking of animals that had been 
        exposed to the virus would be critical if the disease is ever 
        diagnosed in Australia. Aware of the consequences of a disease 
        outbreak such as FMD or another issues similar to the `cotton 
        trash' incident, key industry organisations requested that the 
        Victorian Government review whether the NLIS should remain as a 
        voluntary system. In response, the then Victorian Minister for 
        Agriculture convened the NLIS Implementation Advisory 
        Committee, which includes representatives of all stakeholder 
        organisations, to formulate an implementation plan and monitor 
        the operation of the scheme. This Committee has subsequently 
        met regularly, and provides advice on the operation of the NLIS 
        (Cattle) in Victoria.

  <bullet> In mid-2001, this Committee unanimously recommended that 
        Victoria should progressively introduce legislation requiring 
        that producers attach an NLIS device to the cattle they breed 
        before these cattle leave their properties of birth. An 
        amendment to Victoria's Livestock Disease Control Act 1994 to 
        facilitate the implementation of the NLIS was subsequently 
        passed by Parliament in late 2001 with bipartisan support.

  <bullet> Regulations have also been progressively introduced 
        requiring that cattle be scanned at saleyards, abattoirs and 
        knackeries, and more recently when they are moving directly 
        between properties, and movements details registered on the 
        NLIS database.

  <bullet> In recent years Bovine Spongiform Encephalopathy (BSE) has 
        been diagnosed in Japan, Canada and the U.S., resulting in food 
        safety and the associated ability to locate potentially 
        affected animal quickly and accurately emerging as major issues 
        for livestock industries throughout the developed world. 
        Mindful of these developments, in May 2004 Australia's Primary 
        Industries Ministerial Council (PIMC) recommended the 
        progressive introduction of mandatory cattle identification and 
        scanning arrangements in all Australian States and Territories. 
        The NLIS (Cattle) is now mandatory in all Australian 
        jurisdictions.
Data management
  <bullet> Since the 1970s, the States/Territories have registered 
        cattle producing properties and have allocated to each property 
        a Property Identification Code (PIC). More recently the States/
        Territories have commenced registering pig, sheep and goat 
        producing properties.

  <bullet> Meat and Livestock Australia (a producer-controlled 
        corporation created under the Commonwealth's Meat and Livestock 
        Corporation Act 1977) operates the national NLIS database. The 
        database holds information regarding an animal's history, it's 
        movements from PIC to PIC throughout its life and a range of 
        statices. Statices assigned to NLIS identified cattle and to 
        cattle producing properties by the States/Territories can 
        relate to specific disease or residue risks as well as to the 
        eligibility of cattle for processing for certain markets such 
        as the EU.

  <bullet> The NLIS database is a web-enabled system allowing 
        stakeholders to only access data they are entitled to view and 
        to only make changes where permitted. Each stakeholder group 
        has different access screens and different functionality. 
        Information on the operation of the NLIS database is available 
        at www.nlis.com.au

  <bullet> Because NLIS devices can be read, and information stored and 
        transmitted electronically via the Internet, manual recording 
        and input of information into the database is minimal. Over 99% 
        of all data into and out of the database is in electronic form.

  <bullet> The NLIS database is currently receiving and processing 
        details on approximately one million cattle movements per 
        month. The States/Territories can retrieve this information for 
        tracking purposes within a few seconds.

  <bullet> Victoria's Department of Primary Industries (DPI) has 
        recently gained access to a complete copy of cattle movement 
        information held on the NLIS database. This data is updated on 
        a daily basis, and could potentially be updated more frequently 
        in a disease or food safety emergency. DPI is developing an 
        innovative system to enable the visualisation and analysis of 
        data held within DPI's property registration system 
        complemented by NLIS information about the movement of cattle. 
        This system will enhance Victoria's ability to respond to a 
        disease or food safety emergency.
NLIS (Cattle) technology
  <bullet> NLIS (Cattle) devices can take the form of either as ear 
        tag, or alternatively a rumen bolus. Boluses are ceramic 
        capsules with each containing a transponder. When administered 
        orally, they lodge permanently in the animal's reticulum. 
        Subcutaneous and intramuscular implanted transponders are not 
        permitted as part of the NLIS (Cattle) because of the potential 
        for them to contaminate beef products.

  <bullet> Over 99% of the devices currently being used by producers to 
        identify their cattle are ear tags.

  <bullet> The transponders used in NLIS (Cattle) devices comply with 
        relevant international standards for animal identification 
        technology known as ISO 11784 and ISO 11785. These standards 
        allow for two different forms of transponder known as full 
        duplex (FDX&B) and half duplex (HDX). The transponders used in 
        NLIS (Cattle) devices are all HDX due to the superior 
        performance of this form of technology in relation to 
        electronic reading on-farm and in saleyard and abattoir 
        environments.

  <bullet> NLIS devices must comply with a national standard which 
        focuses on issues such as the field retention of devices, 
        technology platform, transponder reliability, and colour and 
        numbering arrangements. The standard is overseen by a national 
        committee known as the NLIS Standards Committee.
Commercial opportunities
  <bullet> While the main driver for the introduction of the NLIS 
        (Cattle) is the need to protect and enhance Australia's 
        reputation as a supplier of safe disease-free beef and dairy 
        products, there are very significant on-farm benefits 
        associated with the use of NLIS technology through the ability 
        to establish the identity of individual animals quickly and 
        accurately.

  <bullet> The dairy industry in Victoria has embraced NLIS technology 
        because of the opportunities the technology provides to enhance 
        cow identification, improved and simplify herd recording and 
        facilitate the operation of automated feeding and drafting 
        systems.

  <bullet> For beef producers, NLIS technology provides the opportunity 
        to improve the efficiency and accuracy of data capture and herd 
        information management. Information such as weight gain/loss, 
        reproductive performance and veterinary treatment history can 
        be easily collected and used for decision making.

  <bullet> Feedlot operators and abattoirs are also benefiting from the 
        NLIS through better inventory control and from the marketing 
        opportunities associated with the integrity that the NLIS 
        provides.

  <bullet> Industry and government representatives from the U.S., 
        Canada, Europe, New Zealand, South Korea, China and Japan are 
        regularly visiting Victoria to inspect NLIS installations on 
        farms, and in abattoirs and saleyards. Victoria is acknowledged 
        as a world leader in the use of electronic cattle 
        identification and tracing technology.

  <bullet> DPI has produced a range of brochures and DVDs explaining 
        the operation of the NLIS (Cattle) for the benefit of Victorian 
        industry participants and overseas customers.
Cowcatcher II
  <bullet> A national exercise to test the operation of the NLIS was 
        conducted in mid 2007. The exercise was known as Cowcatcher II. 
        A copy of the Cowcatcher report is available by visiting 
        www.daff.gov.au, and then typing Cowcatcher into the search 
        function.
                                 ______
                                 
   Material Submitted by Hon. Randy Neugebauer, on Behalf of Judith 
      McGeary, Executive Director, Farm and Ranch Freedom Alliance
    The Farm and Ranch Freedom Alliance (FARFA) requests that Congress 
halt implementation of the National Animal Identification System 
(NAIS). Contrary to its stated purposes, NAIS will not address animal 
disease or food safety problems. Instead, NAIS imposes crippling costs 
and paperwork burdens on family farmers, which may lead to loss of 
these farms, increased consolidation of agriculture, and more reliance 
on foreign imports. This will ultimately lead to greater disease 
problems and reduced food security. This Statement will discuss some of 
the many problems with NAIS, and then suggest alternatives for 
improvements in animal health, food safety, and food security.
I. The design of NAIS is not scientifically sound
    NAIS is based on the premise that we need 48 hour traceback of all 
animal movements for disease control. FARFA has submitted two Freedom 
of Information Act requests, the first in November 2006, asking for any 
scientific studies or analyses supporting the design of NAIS as a 
disease control program. USDA has failed to provide any scientific 
basis for the program.
    The susceptibility of animals to disease and the likelihood of 
transmission differ greatly depending on the species of animal, the 
disease, and the conditions under which the animals are kept.\1\ Some 
diseases spread in a matter of hours, while others take years. The 
attempt to track every movement of every animal violates 
epidemiological and risk-based principles.
---------------------------------------------------------------------------
    \1\&The health problems caused by confinement or industrial 
management systems have been well documented in the scientific 
literature. See, e.g., Cravener, T.L., W.B. Roush, and M.M. Mashaly, 
Broiler Production Under Varying Population Densities, Poult. Sci. 
71(3):427&33 (1992); D. Herenda and O. Jakel, Poultry Abbatoir Survey 
of Carcass Condemnation for Standard, Vegetarian, and Free Range 
Chickens, Can. Vet. J. 35(5):293&6 (1994); T.G. Nagaraja and M.M. 
Chengappa, Liver Abscesses in Feedlot Cattle: A Review, J. Anim. Sci. 
76(1):287&98 (1998); T.G. Nagaraja, M.L. Galyean, and N.A. Cole, 
Nutrition and Disease, Vet. Clin. N. Am. Food Anim. Prac. 14(2):257&77 
(1998); D.H. Tokarnia, J. Dobereiner, P.V. Peixoto, and S.S. Moraes, 
Outbreak of Copper Poisoning in Cattle Fed Poultry Litter, Vet. Hum. 
Toxicol. 42(2):92&5 (2000).
---------------------------------------------------------------------------
    Increasing tracking of animals cannot improve our ability to 
address animal disease because tracking is not the weak link in the 
chain of our animal health system. In 2005, the GAO analyzed the 
government's provisions for preventing agro-terrorism, assessing 
livestock diseases in particular. The GAO did not identify any 
deficiencies in current livestock tracking, or recommend that resources 
be allocated to programs such as NAIS. Rather, the GAO identified 
multiple deficiencies in other aspects of animal disease programs, 
including the lack of training for veterinarians in foreign animal 
diseases, USDA's failure to use rapid diagnostic tools to test animals 
at the site of an outbreak, USDA's complex decision making process for 
deploying vaccines, and the decline in agricultural inspections at 
ports of entry.\2\ The Federal Government should allocate its resources 
to these deficiencies.
---------------------------------------------------------------------------
    \2\&United States Government Accountability Office, GAO&05&214, 
Homeland Security: Much is being done to protect agriculture from a 
terrorist attack, but important challenges remain (Mar. 2005) 
(hereinafter ``GAO Report on Agriculture'') at p. 6&7.
---------------------------------------------------------------------------
II. NAIS is cost-prohibitive for small farmers
    The costs of complying with NAIS will be unreasonably burdensome 
for small farmers. A 2006 Kansas State University report found that 
costs of an RFID-based system are significantly higher for people with 
smaller herds due to the expense of the electronic infrastructure.\3\ 
The costs of NAIS go far beyond the tag itself, and include:
---------------------------------------------------------------------------
    \3\&RFID Cost.xls--A spreadsheet to estimate the economic costs of 
a radio frequency identification (RFID) system, K.C. Dhuyvetter and D. 
Blasi, Version 7.6.06.

---------------------------------------------------------------------------
    (a) premises registration database creation and updates;

    (b) tags and related equipment, such as readers, computers, and 
        software;

    (c) 24 hour reporting requirements, imposing extensive paperwork 
        burdens;

    (d) labor for every stage of the program;

    (e) stress on the animals; and

    (f) qualitative costs, from loss of religious freedoms, privacy, 
        and trust in government.

    NAIS required tagging and reporting will disproportionately burden 
sustainable livestock operations and others that manage animals on 
pasture. Tag losses due to animals getting their tags caught on brush 
or fences will be higher than in confinement operations. Most small 
farmers will not qualify for a group identification number because 
their herds and flocks are comprised of animals from different 
sources.\4\ If 100 laying hens are pastured in a movable shelter, or 
200 sheep are grazed together, and the farmer finds the partial remains 
of an animal from predator attack, the farmer faces the nearly 
impossible task of individually identifying all of the remaining 
chickens or sheep in order to identify and report the one that was 
lost, as would be required to be compliant with NAIS.\5\
---------------------------------------------------------------------------
    \4\&See User Guide (Dec. 2007) at p. 24 (Group/Lot identification 
may be sued for animals that ``move through the production chain as a 
group'').
    \5\&See Program Standards and Technical Reference (Feb. 2008) at p. 
7 (listing an animal event code for reporting ``animal missing'').
---------------------------------------------------------------------------
    From an animal disease control perspective, pasture-based livestock 
operations are not the problem. While confinement operations present 
the ideal conditions for the spread of the disease, pastured 
operations, in which animals are kept in natural conditions on rotating 
pastures, have a far lower risk of developing or spreading diseases.\6\ 
For example, in the 2004 outbreak of avian flu in Texas, the disease 
was found in a 6,600 bird commercial poultry operation; but no infected 
birds were found in any of the 350 nearby non-commercial flocks that 
were tested.\7\
---------------------------------------------------------------------------
    \6\&See Exotic Newcastle Disease, Information from the Texas Animal 
Health Commission (Apr. 2004) (``In close confinement, such as 
commercial operations, the disease can spread like wildfire. . . . 
However, the virus is destroyed rapidly by dehydration and by the 
ultraviolet rays in sunlight.'') (emphasis added).
    \7\&News Release, Texas Animal Health Commission (Apr. 1, 2004).
---------------------------------------------------------------------------
III. NAIS does not increase food safety
    In considering food safety and traceability, it is critical to 
distinguish between tracking live animals and tracking meat from the 
slaughterhouse to the consumer. Most foodborne illnesses are from 
bacteria such as Salmonella, E. coli, and Campylobacter, or a specific 
group of viruses called the Norwalk viruses.\8\ These organisms 
contaminate food due to poor practices at slaughterhouses or in food 
handling. NAIS will not prevent these problems. And since NAIS tracking 
ends at slaughter, it will not improve the tracing of contaminated 
meats in the food chain.
---------------------------------------------------------------------------
    \8\&See Centers for Disease Control and Prevention, http://
www.cdc.gov/ncidod/dbmd/diseaseinfo/
foodborneinfections_g.htm#mostcommon.
---------------------------------------------------------------------------
    Neither will tagging cattle prevent BSE from occurring or from 
entering the food supply. In last year's Hallmark/Westland beef recall, 
the packing plant's violation of existing regulations and USDA's 
failure to properly inspect the plant, allowed ``downer'' cows to be 
slaughtered. In the video from the Humane Society, every time there was 
a clear shot of a cow's left ear, one can see a tag.\9\ Changing the 
type of tag to a NAIS electronic tag would do nothing to avoid similar 
problems in the future.
---------------------------------------------------------------------------
    \9\&http://www.youtube.com/watch?v=kaM7Hpu47FY.
---------------------------------------------------------------------------
    An immediate feed ban, that closes loopholes allowing things such 
as poultry litter in cattle feed, is the best way to prevent BSE from 
occurring in the first place. To address the human health risk, we 
should test cattle entering the food supply, as is done in Japan and 
Europe.
IV. NAIS will decrease homeland security
A. Increased consolidation threatens food security.
    Under the USDA's plans for NAIS, the default requirement is 
individual identification of each animal. Group identification would be 
allowed for ``animals that typically move through the production chain 
as a group of animals of the same species . . . This practice is most 
common in the poultry and pork industries.''&\10\ In practice, this 
means that companies who maintain ownership of the animals throughout 
their lives--as is done in vertically integrated confinement 
operations--will be relieved of most of the costs and paperwork burdens 
of NAIS. NAIS therefore creates significant incentives to further 
consolidate agricultural production.
---------------------------------------------------------------------------
    \10\&User Guide at p. 24.
---------------------------------------------------------------------------
    Increased consolidation of our food supply creates greater risk. 
The 2005 GAO report on agriculture and terrorism noted that the 
concentration of our food supply makes it vulnerable to attack: ``the 
highly concentrated breeding and rearing practices of our livestock 
industry make it a vulnerable target for terrorists because diseases 
could spread rapidly and be very difficult to contain.''&\11\
---------------------------------------------------------------------------
    \11\&GAO Report on Agriculture at p. 1.
---------------------------------------------------------------------------
B. The use of electronic technology and databases create 
        vulnerabilities.
    RFID technology is subject to problems that do not exist with 
traditional identification methods such as branding or tattoos. 
Depending on the security of the technology used, the microchips can be 
cloned or infected with computer viruses (which can then be passed to 
other chips through the scanner).\12\ In fact, the specific type of 
RFID to be used in NAIS, the ISO 11784/11785 chip, is designed to be 
programmed in the field before is applied to animals or even 
reprogrammed after application. This problem with the ISO standard is 
well known in the technology community and has been debated for 
years.\13\ It is impossible to reliably trace an animal if someone can 
change its identity at any time. Also, the databases will be vulnerable 
to accidental release of the information as well as hackers.
---------------------------------------------------------------------------
    \12\&See Annalee Newitz, The RFID hacking underground, Wired, 
www.wired.com/wired/archive/14.05/rfid_pr.html; John Markoff, Study 
says chips in ID Tags are vulnerable to viruses, New York Times (Mar. 
15, 2006); Rieback, M.R., B. Crispo and A. Tanenbaum, Is your cat 
infected with a computer virus?, Vrije Universiteit Amsterdam, Computer 
Systems Group.
    \13\&In 1998, ISO received a formal petition calling for revisions 
or suspension of the standards, and identifying multiple flaws in the 
ISO 11784/85 standard, including the lack of unique ID codes. See 
letter from Gosstandrat of Russia, Committee of Russian Federation for 
Standardization, Metrology and Certification, to Rudolf Zens, 
Secretary, SC 19 (Mar. 2, 1998) at http://www.rfidnews.com/images/3-2-
98.gif. See also The Controversial ISO 11784/85 Standard, ISO 11784/85: 
A Short Discussion, at www.rfidnews.com/iso_11784short.html.
---------------------------------------------------------------------------
C. NAIS is not effective in addressing the issue of avian flu.
    Avian influenza, in particular the highly pathogenic H5N1 virus, is 
frequently raised as a homeland security issue that weighs in favor of 
implementing NAIS. The threat, however, comes from large commercial 
operations, because the density of the birds and the conditions they 
are kept under provide ideal conditions for the rapid spread and 
mutation of viruses.
    An NGO report indicates that the spread of avian flu, including 
H5N1, is due to conditions in confinement poultry operations.\14\ A 
later report states: ``Studies indicate that highly pathogenic strains 
of bird flu evolve when low pathogenic strains of the virus, which 
circulate harmlessly among wild bird populations, are introduced into 
high-density poultry flocks. Once bird flu takes hold in a factory 
farm, the virus amplifies and spreads beyond the farm through a 
multitude of channels: trade in birds and eggs, people coming in and 
out, the elimination of waste, the use of litter in feed, etc.''&\15\ 
For a domestic example, in the 2002 outbreak of avian influenza in 
Virginia, ``farm equipment, vehicles and personnel'' moved among 
commercial facilities caused transmission of the virus.\16\ Even a USDA 
report found that, out of 45 outbreaks of H5N1 in the country of Laos, 
42 of the outbreaks occurred in commercial operations.\17\
---------------------------------------------------------------------------
    \14\&Genetic Resources Action International (``GRAIN''), Fowl Play: 
The Poultry Industry's Central Role in the Bird Flu Crisis (Feb. 2006) 
(hereinafter ``GRAIN Report'').
    \15\&Bird Flu Crisis: Small farms are the solution, not the 
problem, in Seedling, GRAIN (July 2006) at p. 26 (citing multiple 
scientific studies from around the world). Although pastured poultry 
are exposed to wild birds, extensive testing of wild birds has only 
rarely found bird flu in a highly pathogenic form. ``Furthermore, the 
geographic spread of the disease does not correlate with migratory 
routes and seasons. The pattern of outbreaks follows major roads and 
rail routes, not flyways.'' Avian influenza goes global, but don't 
blame the birds, The Lancet Vol. 6: 185 (Apr. 2006).
    \16\&E-Digest Volume 2, Number 11, Issues Faced in the 2002 VA AI 
Outbreak; paper presented by Dr. Bill Pierson, at the 2002 Poultry 
Health Conference sponsored by the Ontario Poultry Industry Council.
    \17\&GRAIN Report (quoting USDA, Laos: Poultry and Products--Avian 
Influenza, U.S. Department of Agriculture (Mar. 16, 2005)).
---------------------------------------------------------------------------
    As with all of the disease issues, a one-size-fits-all approach of 
tracking every chicken in the country will not address avian flu. The 
agency should focus its efforts on the high-risk commercial operations 
and practices that can spread disease, such as feeding poultry litter.
V. NAIS cannot succeed because of the many practical barriers to 
        implementation
    NAIS is fundamentally impractical to implement. USDA's plans call 
for multiple public and private databases, capturing all of the 
reportable ``events'' for every animal, with the USDA creating a 
metadata portal to use for its purposes.\18\ Establishing these 
databases will be a monumental task. There are almost a hundred million 
cattle in the U.S., and millions more chickens, sheep, goats, pigs, 
deer, elk, bison, and other livestock animals. These animals are taken 
to shows, sold in auction houses, sold in private transactions between 
individuals, slaughtered, and otherwise moved for myriad reasons. The 
NAIS reporting and tracking system has myriad potential failure points. 
Moreover, integrating databases is far from simple. Indeed, despite the 
emphasis on interagency cooperation since 9/11, the GAO's 2005 report 
on agriculture and terrorism noted that the Federal Government still 
had not integrated its own databases.\19\
---------------------------------------------------------------------------
    \18\&USDA, Integration of Private and State Animal Tracking 
Databases with the NAIS (released Apr. 6, 2006).
    \19\&GAO Report on Agriculture at p. 7&9.
---------------------------------------------------------------------------
    The plans for NAIS assume that all people covered by the NAIS will 
have computers and web access to report within 24 hours after a 
reportable event. Based on 2007 Census, however, almost half of farmers 
do not have Internet access. Thus, state agriculture departments will 
have to accept written reports mailed to their agencies or telephone 
reports that will be transcribed. This creates two more failure points: 
human error in data input and the untimely recordation of events.
    The massive databases themselves pose a barrier to successful 
traceback. Colorado researchers developed a mock data set and 
algorithms for using a NAIS-type database for tracing animal movements 
and the cohorts of diseased animals.\20\ Although the research 
indicated that traceback of a diseased animal was quite rapid, the 
tracing of the cohorts (the animals that had come into contact with the 
diseased animal and then with other animals) took vastly longer, 
especially if the data was kept in more than one database. Their 
simulation of 100 million animals with the data held in multiple 
databases indicated that it could take more than 39 years to trace the 
cohorts.
---------------------------------------------------------------------------
    \20\&J.A. Scanga et al., Development of computational models for he 
purpose of conducting individual livestock and premises traceback 
investigations utilizing National Animal Identification System-
compliant data, J. Anim. Sci. 2007. 85:503&211.
---------------------------------------------------------------------------
    The premise that 100% participation is necessary to address disease 
issues founders on the reality that there will never be full 
participation. If NAIS is adopted, it is inevitable that some livestock 
owners--whether for religious or economic reasons, or unwillingness to 
allow the government intrusion--will not comply. Since they will be 
acting illegally, they will be far less likely to seek a veterinarian's 
help should a disease problem arise. This black market will create 
disease problems, as evidenced by the outbreak of Exotic Newcastle 
Disease that occurred in Los Angeles in 2002. The outbreak was started 
and spread by cockfighting flocks that had been smuggled from Mexico 
because cockfighting is illegal in California.\21\ NAIS will increase 
the probability of disease outbreaks by undermining the first line of 
defense: the actions of private individuals and their veterinarians in 
quickly diagnosing and containing diseases.
---------------------------------------------------------------------------
    \21\&See R. Scott Nolen, Exotic Newcastle Disease Strikes Game 
Birds in California, Journal of the American Veterinary Medical 
Association News (Nov. 15, 2002); News Release, Texas Animal Health 
Commission (Jan. 1, 2003) (``END likely was initially introduced into 
Southern California through illegal importation of infected birds.''); 
Congressman Elton Gallegly, Smuggling Cockfighting Roosters a Conduit 
to Bird Flu, Santa Barbara News-Press (Dec. 11, 2005).
---------------------------------------------------------------------------
VI. Ethical concerns: Conflicts of Interest in NAIS
    The USDA's working groups for the design of NAIS were initially 
drawn from the working groups established by the National Institute for 
Animal Agriculture (NIAA). The NIAA is an industry trade organization, 
and the members of the working groups included many companies who stood 
to profit directly from the implementation of NAIS, such as tag 
manufacturers and database management companies. These conflicts of 
interest permeate the plan and have never been addressed.
    Additionally, the use of private databases creates more conflicts 
of interest and leaves farmers and ranchers vulnerable to the misuse of 
their confidential information. The recent court decision finding that 
the NAIS premises registration information is exempt from FOIA does not 
address the potential for misuse of that information by private 
database managers or by those who obtain the information through 
illegal means such as hacking the databases.
VII. Alternatives to NAIS
    We strongly urge Congress to stop implementation of the NAIS and 
focus efforts on these alternatives:

  <diamond> Encourage decentralization of the livestock industry to 
        reduce its vulnerability.\22\
---------------------------------------------------------------------------
    \22\&See GAO Report on Agriculture at p. 1.

  <diamond> Improve training for veterinarians in recognizing foreign 
        and emerging animal diseases.\23\
---------------------------------------------------------------------------
    \23\&GAO Report on Agriculture at p. 6

  <diamond> Increase inspections of animals and agricultural products 
        entering the U.S. or crossing state borders and refuse 
        admittance of animals from countries with known disease 
---------------------------------------------------------------------------
        problems such as BSE and Hoof and Mouth disease.

  <diamond> Identify high-risk situations and quantify critical factors 
        for livestock diseases of concern, such as the level of 
        contagion, the means of transmission, and the severity of the 
        diseases of concern. Based on the analysis of these factors and 
        of existing programs, develop improvements to existing 
        programs. Limit any such programs to non-electronic means of 
        identification when the animal enters the stream of commerce.

  <diamond> Improve enforcement and inspections of large 
        slaughterhouses and food processing facilities.

  <diamond> Address traceability of meat from the slaughterhouse to the 
        consumer.

  <diamond> Increase testing for BSE, or Mad Cow Disease.

    We thank you for your consideration.
            Sincerely,

Judith McGeary,
Executive Director,
Farm and Ranch Freedom Alliance.
                                 ______
                                 
   Submitted Statement of Brandy Carter, Executive Director, Kansas 
                        Cattlemen's Association
    Mr. Chairmen and Members of the House Agriculture Committee and 
Homeland Security Committee,

    I appreciate the opportunity to present Kansas Cattlemen's position 
on the facts as to why a mandatory National Animal Identification 
System (NAIS) should never be implemented. For as you know, through 
promotion of good health practices, controlling U.S. borders and 
enforcing human and animal decontamination processes, the U.S. can be 
proactive in preventing foreign animal diseases and protect the U.S. 
consumers' welfare. However, implementing a costly, ineffective NAIS is 
impractical and will drive independent producers out of business, and 
the end result will be more consolidation of our industry and less 
national security of our food supply.
    The cost for implementing NAIS in the cattle sector as described in 
the Benefit-Cost Analysis of the National Animal Identification System 
is $175.9 million annually (at a 90 percent participation level). This 
study states that this significant cost is justified because it is less 
than \1/2\ of a percent of the retail value of U.S. beef products.\1\ 
However: the cost incurred by NAIS is not by the packers or retailers, 
but by the producers who receive less than 50% of the retail value of 
beef. Beef operations with herds of less than 100 beef cows represent 
the majority of U.S. beef operations and account for nearly half the 
beef cows in the United States.\2\ And yet, according to the Cost-
Benefit Analysis, the smaller the operation, the more costly it will be 
for the producer. The cattle industry cost represents 91.5 percent of 
the total cost of NAIS, and identification tags and tagging cattle 
represent 75 percent of the cattle sector's annual adoption cost. These 
costs are unreasonable and a burden to all producers.
---------------------------------------------------------------------------
    \1\&U.S. Department of Agriculture, Animal and Plant Health 
Inspection Service, Benefit-Cost Analysis of the National Animal 
Identification System, January 14, 2009. http://
animalid.aphis.usda.gov/nais/naislibrary/documents/plans_reports/
Benefit_Cost_Analysis_NAIS.pdf.
    \2\&U.S. Department of Agriculture, Economic Research Service, 
Animal Production and Marketing Issues: Questions and Answers, December 
1, 2008. http://www.ers.usda.gov/Briefing/AnimalProducts/questions.htm.
---------------------------------------------------------------------------
    NAIS is not a disease prevention program. Therefore, it does not 
protect consumer health. Many states already have programs in place 
that provide animal identification and traceability. These programs 
include branding, brucellosis testing, and visual tagging of which a 
majority of producers utilize to identify their livestock. The Kansas 
Emergency Management Team, should outbreak occur, will immediately 
quarantine an infected area, notify proper personnel, and halt all 
movement of cattle throughout the State of Kansas.\3\ Neither the USDA 
nor any state agriculture department has scientific proof that NAIS 
will improve disease control. NAIS does not address the cause, 
treatment, or transmission of disease in domestic or wild animals. It 
does nothing to significantly improve current methods for the 
identification and tracking of disease. And, to implement a 48 hour 
traceback through the NAIS is unproven, and with over 96.7 million head 
of cattle in the United States,\4\ this traceback time-frame is 
unrealistic and unreasonable.
---------------------------------------------------------------------------
    \3\&Telephone correspondence with George Teagarden, Kansas 
Livestock Commissioner, Kansas Animal Health Department, May 12, 2009.
    \4\&Iowa State University, Iowa Farm Outlook, February 5, 2008. 
http://www.econ.iastate.edu/outreach/agriculture/periodicals/ifo/
IFO_2008/ifo020108.pdf.
---------------------------------------------------------------------------
    NAIS is not a food safety issue. Contamination of food with E. coli 
and other bacteria occurs at the slaughterhouse or afterward. NAIS 
tracking stops prior to processing beef. NAIS may help large 
corporations increase their profit margins by opening export 
markets.\5\ It will also reduce competition in the U.S. cattle 
industry. It will consolidate the cattle industry through the market 
power of the packing industry, and market concentration will increase 
beef prices for U.S. consumers. However, NAIS was not intended as a 
marketing program. If increasing retail prices and maintaining and 
opening foreign markets is the intent, then NAIS should be used as a 
voluntary marketing program, and indicated as such. Instead, NAIS 
drives producers out of business and drives up the cost of retail beef 
for our consumers.
---------------------------------------------------------------------------
    \5\&U.S. Department of Agriculture, Animal and Plant Health 
Inspection Service, Benefit-Cost Analysis of the National Animal 
Identification System, January 14, 2009. http://
animalid.aphis.usda.gov/nais/naislibrary/documents/plans_reports/
Benefit_Cost_Analysis_NAIS.pdf.
---------------------------------------------------------------------------
    Instead of implementing a costly, ineffective, and unproven 
mandatory NAIS, which will not protect the health of the consumer in 
any way, Kansas Cattlemen's Association recommends that the U.S. 
Government adopt and implement a surveillance and identification 
program already in place. For instance, the current brucellosis program 
is widely used and administered by veterinarians. Traceability within 
this program can be conducted within a reasonable time-frame, sometimes 
within 48 hours. KCA also recommends that the database for storing 
information must be confidential and continue to be held and maintained 
by the state. Moreover, KCA recommends that the government enforce 
regulations to ban cattle from entering the U.S. from diseased 
countries, to enforce regulations to require TB testing of all imported 
cattle, to enforce proper human decontamination regulations at all 
international airports located in the U.S., and to promote good health 
and management practices for producers. These recommendations will help 
prevent, deter, and trace diseases. NAIS only inhibits production 
agriculture instead of helping it as it was intended.
                                 ______
                                 
  Submitted Statement of Susan Eckerly, Senior Vice President, Public 
          Policy, National Federation of Independent Business
       Hon. David Scott,               Hon. Randy Neugebauer,
              Chairman,              Ranking Minority Member,
       Subcommittee on Livestock, Dairy,    Subcommittee on Livestock, Dairy,
            and Poultry,                        and Poultry,
Committee on Agriculture;            Committee on Agriculture; Hon. Yvette D. Clarke,                         Hon. Daniel Lungren,
            Chairwoman,              Ranking Minority Member,
Subcommittee on Emerging Threats,    Subcommittee on Emerging Threats,
 Cybersecurity, Science and          Cybersecurity, Science and
             Technology,                         Technology,
Committee on Homeland Security,      Committee on Homeland Security,
       Washington, D.C.                     Washington, D.C.

    Dear Chairman Scott, Chairwoman Clarke, and Ranking Members 
Neugebauer and Lungren,

    On behalf of the National Federation of Independent Business, the 
nation's leading small business advocacy organization, I am writing you 
in regards to the Animal and Plant Health Inspection Service (APHIS) 
proposed rule mandating the National Animal Identification System 
(NAIS) [Docket No. APHIS&2007&0096]. This rule would mandate domestic 
livestock be identified using animal identification numbers, which 
would cost small and family farms thousands of dollars to be compliant.
    NFIB understands the importance of creating a system to respond to 
a national animal disease outbreak. Such an outbreak would not only 
severely hurt America's agricultural economy, but damage the economy as 
a whole. Cattle, swine, poultry and sheep are among the top exports of 
the United States, and we need to ensure that any government 
regulations don't reduce the competitiveness of our livestock industry.
    APHIS's recent report on the NAIS benefit-cost analysis concluded 
that the cattle industry would incur the highest cost on 
implementation. Cattle Fax reports there are over 800,000 ranchers and 
farmers in the United States that will be affected. The costs for 
individual radio frequency identification devices were estimated from 
between $2.00 to $2.60; for a farm of 500 animals that could cost up to 
$1,300, plus tagging cost and relevant software. Total cost to the 
cattle industry is estimated over $200 million. To include swine, sheep 
and poultry that number jumps to close to $230 million.
    Instructing APHIS to fully mandate this program will create another 
layer of government bureaucracy, forcing ranchers and farmers to take 
time out of running their business to create new business practices, 
including filing more paperwork, which slows down operations. According 
to a 2003 NFIB Research Foundation Poll on Paperwork and Record 
Keeping, the estimated average per hour cost of paperwork and record-
keeping for small businesses is $48.72.
    NFIB has consistently fought against unnecessary government 
regulations. We have heard from many small business owners about how 
this regulation would adversely affect their businesses, and NFIB 
continues to support a voluntary NAIS program.
    Please keep small and family farmers in mind when considering the 
impact of this program. We look forward to working with you on this 
important small business and agriculture issue.
            Sincerely,

            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
                                 ______
                                 
                          Submitted Questions
Response from John R. Clifford, D.V.M., Deputy Administrator for 
        Veterinary Services and Chief Veterinarian, Animal and Plant 
        Health Inspection Service, U.S. Department of Agriculture
Questions Submitted By Hon. Bennie G. Thompson, a Representative in 
        Congress from Mississippi
    Question 1. Do you think a goal of 90% premise registration is 
attainable under our current voluntary process?
    Answer. Under the current voluntary NAIS program, I do not believe 
90% premises registration is attainable. We either need to find new 
methods to encourage participation in the voluntary system or consider 
putting a mandatory system in place. That is why the Secretary is 
convening listening sessions across the country regarding this program. 
We have invited producers, large and small, to tell us what kind of 
system they feel would work and to talk about solutions to issues that 
are preventing them from participating in this program. With this 
feedback in hand, we will review the suggestions and evaluate the range 
of options for moving this important program forward.

    Question 2. What can be done within the voluntary auspice to 
improve the current system?
    Answer. Again, there are a range of options available to Secretary 
Vilsack to increase the rate of producer participation in the NAIS. But 
before committing to a course of action, the Secretary has been clear 
in his commitment to ensuring that USDA work collaboratively with 
producers, industry, and other stakeholders to address their concerns 
and move forward with an effective NAIS--whether it is a mandatory or 
voluntary system. On April 15, 2009, the Secretary held a roundtable 
with stakeholders representing the full spectrum of views on NAIS. This 
meeting kicked off a larger listening tour to gather feedback on 
concerns and, more importantly, to identify solutions that will help us 
engage producers, industry, and states to move this important program 
forward.

    Question 3. Would having a mandatory process help achieve our goals 
and what is a realistic timetable by which a goal of 90% premises 
registered is indeed attainable?
    Answer. Developing regulations that require producer participation 
in the NAIS is certainly one option for securing a high level of 
participation in the program. Having a critical mass of 70&90 percent 
is necessary for rapid animal disease tracking and disease containment. 
We anticipate that 90% premises registration of those operations that 
move livestock and poultry in commerce could be achieved within 12 
months should we make the decision to require producer participation in 
the NAIS. But, again, before committing to that or another course of 
action, the Secretary wants to hear other ideas, solutions, and 
approaches from producers, which is happening now with our NAIS 
listening sessions.

    Question 4. Describe the communication between APHIS and DHS in the 
event of an identified animal disease? Is there any communication, 
should there be and at what point?
    Answer. Since the Department of Homeland Security (DHS) was formed 
in 2002, APHIS and DHS officials have worked to share information and 
clarify roles and responsibilities regarding the response to 
agricultural health events. These efforts have helped to ensure that 
each agency's role is well understood and to build partnership between 
agencies. Working collaboratively, APHIS and DHS have developed a 
three-tiered incident management response design.
    In Tier 1, an incident is managed at the local and state levels. 
For animal production agriculture, the state could have Federal 
involvement but it is only those Federal assets stationed in that 
state. APHIS provides DHS with situational awareness in this tier. For 
example, during the recent H1N1 Flu incident, APHIS shared Situation 
Reports with DHS to keep them informed of APHIS activities.
    In Tier 2, an incident is managed by the Food and Agriculture 
Sector, nationally. For animal production agriculture, the Food and 
Agriculture Sector consists of representatives from state agriculture, 
industry and industry associations and Federal partners including 
multiple USDA agencies, DHS, HHS and EPA. In this Tier DHS facilitates 
preparation for interagency support.
    In Tier 3, the Food and Agriculture Sector has determined it 
requires more resources to coordinate the incident. APHIS and DHS' 
efforts have clarified that, in these situations, APHIS leads the 
animal disease incident response, coordinates incident management 
teams, manages public relations, and takes measures to control and 
eradicate the disease for the Food and Agriculture Sector. If 
necessary, DHS coordinates Federal-to-Federal support as outlined in 
the National Response Framework, mobilizing resources through DHS 
components (e.g., Federal Emergency Management Agency, Customs and 
Border Protection) to mitigate impacts of incidents.
    APHIS is building a test exercise program that will include a 
functional exercise to test tier 2 and tier 3 response activities with 
DHS.
    Additionally, APHIS worked with DHS and other Federal agencies to 
develop the ``Federal Strategic Plan to Prevent, Protect Against, 
Respond To and Recover From Biological Attacks in the United States.'' 
This document synchronizes key national and homeland security 
strategies and actions, provides a unified approach to meet the 
challenges of protecting the nation and guides the development of 
subsequent Federal plans (Concept Plans, Operation Plans and Tactical 
planning efforts both horizontally across the Federal Government and 
vertically among Federal, state, local and tribal governments, as well 
as Non-Governmental Organizations, the private sector and international 
partners). As the next phase in this planning process, APHIS is working 
with DHS and other Federal agencies to develop the Concept of 
Operations Plan that specifically addresses the National Planning 
Scenario #14: Biological Attack--Foreign Animal Disease--Foot-and-Mouth 
Disease.
Response from Thomas McGinn, D.V.M., Chief Veterinarian, Office of 
        Health Affairs, U.S. Department of Homeland Security
Questions Submitted By Hon. Bennie G. Thompson, a Representative in 
        Congress from Mississippi
    Question 1. Describe the communication between APHIS and DHS in the 
event of an identified animal disease? Is there any communication, 
should there be and at what point?
    Answer. The Department of Homeland Security and the United States 
Department of Agriculture's (USDA) Animal and Plant Health Inspection 
Service (APHIS) work closely in preparing for and responding to animal 
disease outbreaks. During the initial stages of an event, DHS/OHA/Food, 
Agriculture, and Veterinary Defense Division stays in communication 
with APHIS for situational awareness, and to provide appropriate 
assistance as needed.
    In addition, DHS communicates with APHIS during all phases of an 
event through the National Biosurveillance Integration Center (NBIC). 
As mandated by law, NBIC serves as the interagency information 
collaboration environment intended to provide the capability for 
consolidating diverse information impacting the health domain. NBIC is 
located within the Office of Health Affairs (OHA) in DHS. NBIC 
integrates information feeds from approximately 400 open-sources and 
analyzes information to provide a complete biological common operating 
picture to decision-makers regarding new and emerging and ongoing 
biological incidents. As an example, during the recent H1N1 flu 
outbreak, USDA was an active partner providing and receiving critical 
information regarding the health and infection rate of the nation's 
swine population.
    U.S. Customs and Border Protection (CBP) within DHS also 
coordinates with APHIS through all phases of an identified animal 
disease outbreak. CBP Agriculture Specialists (CBPAS) are trained by 
APHIS in enforcement of USDA regulations governing the entry of foreign 
animal products and animal by-products into the United States. The 
mission of CBP's agricultural inspection is ``to protect American 
agriculture and natural resources from the damage that comes from the 
entry and spread of animal and plant diseases, pests and noxious 
weeds'' from both unintentional and intentional threats to our 
agriculture and food supply. In the event of an outbreak, CBP would 
respond at our ports of entry according to APHIS' protocol. Also, APHIS 
and CBP have an agreement that would make it possible for CBP to 
provide APHIS with CBPAS to assist APHIS in a foreign animal disease 
emergency and/or eradication program.

    Question 2. How is animal id useful to DHS?
    Answer. One of the primary missions of DHS is to protect the nation 
from catastrophic events. With a highly contagious disease such as 
foot-and-mouth disease (FMD), early detection is critical to limiting 
the spread of the disease and its impact on livestock production, 
related industries, and rural communities. USDA's National Animal 
Identification System (NAIS) is designed to facilitate rapid 
identification of animals that have been exposed to diseases of 
concern, as well as assist efforts to identify the origin or source of 
the initial outbreak. This information can enhance the ability of first 
responders to target mitigation efforts to maximize the impact on 
disease spread. Armed with this information, DHS would be in a better 
position, when needed, to support effective, targeted, and rapid 
response by Federal, state, and other partners, and understand 
potential cascading effects across critical infrastructure and sectors. 
Such a response, carried out at the Federal, state, local, and private 
sector levels, must protect the health of our nation's herds, while 
giving due consideration to protecting the economic stability of 
nation's critical infrastructures, including the food and agricultural 
industry.

    Question 3. Both present and absent an animal id system, describe 
the ability of DHS to coordinate Federal assets or to mitigate risk in 
an animal emergency?
    Answer. Again, DHS and the Department of Agriculture's (USDA) 
Animal and Plant Health Inspection Service (APHIS) work closely in 
preparing for and responding to animal disease outbreaks in the United 
States. Since DHS was formed in 2002, APHIS and DHS officials have 
worked to share information and clarify roles and responsibilities 
regarding the response to agricultural health events. These efforts 
have helped to ensure that each agency's role is well understood and to 
build partnership between agencies. Working collaboratively, APHIS and 
DHS have developed a three-tiered incident management response design. 
In support of these efforts, DHS has several efforts underway to assist 
APHIS when needed and mitigate risk during an animal health emergency.
    First of all, DHS through FEMA has initiated two efforts to provide 
states with an estimate of how many people and with what qualifications 
are likely to be needed to manage an animal disease outbreak. Both 
efforts are being undertaken by the National Preparedness Directorate 
(NPD) Incident Management Systems Integration Division (NPD&IMSI). IMSI 
has developed credentialing requirements for 15 Animal Emergency 
Response Positions, specific to the needs of animals during any all-
hazards incident as well as an animal disease outbreak. IMSI has also 
developed resource typing definitions for seven Animal Emergency 
Response Teams that states have been required to inventory over the 
last 2 years. The combination of the credentialed animal emergency 
responders and the typed teams provides a basis for estimating the 
number of responders and teams needed to manage animal emergency 
response in any incident including disease outbreaks.
    Second, DHS through the National Biosurveillance Integration Center 
(NBIC) provides enhanced situational awareness to senior leaders and 
decision makers in all agencies regarding natural disease outbreaks, 
accidental or intentional use of biological agents, and emergent 
biohazards that impact the bio-related domains of human health, animal, 
plant, food and water or that impact the infrastructure or key assets 
of the United States. NBIC integrates and analyzes information from 
over 400 open source and classified information feeds as well as 
information from twelve participating Federal agencies (including 
agencies within DHS) to provide senior leaders and decision makers with 
an integrated biosurveillance common operating picture (BCOP). The 12 
Federal agencies that participate in NBIC include the Departments of 
Agriculture, Health and Human Services, State, Interior, Defense, 
Commerce, Transportation, Justice, Veterans Affairs, Homeland Security, 
the United States Postal Service, and the Environmental Protection 
Agency. In coordination with our Federal partners, NBIC analysts use 
the information to complete a daily Situational Report. This report is 
provided to all participating agencies.



</pre></body></html>
